<html>
<title> - INVESTIGATIVE HEARING ON THE MF GLOBAL BANKRUPTCY</title>
<body><pre>[Senate Hearing 112-504]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-504

                        INVESTIGATIVE HEARING ON
                        THE MF GLOBAL BANKRUPTCY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION


                               __________

                           DECEMBER 13, 2011

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





        Available via the World Wide Web: http://www.fdsys.gov/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
75-117 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            PAT ROBERTS, Kansas
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa
MICHAEL BENNET, Colorado             JOHN THUNE, South Dakota
KIRSTEN GILLIBRAND, New York         JOHN HOEVEN, North Dakota

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Michael J. Seyfert, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Investigative Hearing on the MF Global Bankruptcy................     1

                              ----------                              

                       Tuesday, December 13, 2011
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........     2

                                Panel I

Blew, C.J., Farmer/Rancher; Chairman of the Board, Mid Kansas 
  Cooperative Association; Director, Board of CHS, Inc.; 
  Hutchison, KS..................................................     9
Hainline, Jeffrey W., President, Advanced Trading, Inc., 
  Bloomington, IL................................................     6
Hupfer, Roger, Grain Elevator Operator, Freeland Bean & Grain, 
  Inc., Freeland, MI.............................................     5
Tofteland, Dean, Farmer, Luverne, MN.............................     8

                                Panel II

Abelow, Bradley, President and Chief Operating Officer, MF Global 
  Holdings Ltd., New York, NY....................................    34
Corzine, Hon. Jon S., Former Chairman and Chief Executive 
  Officer, MF Global Holdings Ltd., New York, NY.................    33
Steenkamp, Henri, Chief Financial Officer, MF Global Holdings 
  Ltd., New York, NY.............................................    36

                               Panel III

Duffy, Terrence, Executive Chairman, CME Group, Chicago, IL......    77
Giddens, James W., Trustee, Securities Investor Protection Act 
  liquidation of MF Global, Inc., New York, NY...................    75
Sommers, Hon. Jill, Commissioner, Commodity Futures Trading 
  Commission, Washington, DC.....................................    73
                              ----------                              

                                APPENDIX

Prepared Statements:
    Abelow, Bradley..............................................    96
    Blew, C.J....................................................    99
    Corzine, Hon. Jon S..........................................   101
    Duffy, Terrence..............................................   123
    Giddens, James W.............................................   128
    Hainline, Jeffrey W..........................................   134
    Hupfer, Roger................................................   137
    Sommers, Hon. Jill...........................................   139
    Steenkamp, Henri.............................................   151
    Tofteland, Dean..............................................   159
Question and Answer:
Stabenow, Hon. Debbie:
    Written questions to Hon. Jill Sommers.......................   179
Roberts, Hon. Pat:
    Written questions to Terrence Duffy..........................   172
    Written questions to Henri Steenkamp.........................   181
    Written questions to Hon. Jill Sommers.......................   180
    Written questions to Bradley Abelow..........................   166
Baucus, Hon. Max:
    Written questions to Hon. Jon S. Corzine.....................   170
    Written questions to Henri Steenkamp.........................   181
Boozman, Hon. John:
    Written questions to Terrence Duffy..........................   175
    Written questions to James W. Giddens........................   178
Chambliss, Hon. Saxby:
    Written questions to Hon. Jon S. Corzine.....................   170
    Written questions to Terrence Duffy..........................   172
    Written questions to Hon. Jill Sommers.......................   180
Johanns, Hon. Mike:
    Written questions to Terrence Duffy..........................   173
Abelow, Bradley:
    Written response to questions from Hon. Pat Roberts..........   166
Corzine, Hon. Jon S.:
    Written response to questions from Hon. Max Baucus...........   170
    Written response to questions from Hon. Saxby Chambliss......   170
Duffy, Terrence:
    Written response to questions from Hon. Pat Roberts..........   172
    Written response to questions from Hon. Saxby Chambliss......   172
    Written response to questions from Hon. Mike Johanns.........   173
    Written response to questions from Hon. John Boozman.........   175
Giddens, James W.:
    Written response to questions from Hon. John Boozman.........   178
Sommers, Hon. Jill:
    Written response to questions from Hon. Debbie Stabenow......   179
    Written response to questions from Hon. Pat Roberts..........   180
    Written response to questions from Hon. Saxby Chambliss......   180
Steenkamp, Henri:
    Written response to questions from Hon. Pat Roberts..........   181
    Written response to questions from Hon. Max Baucus...........   181


 
                        INVESTIGATIVE HEARING ON
                        THE MF GLOBAL BANKRUPTCY

                              ----------                              


                       Tuesday, December 13, 2011

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Debbie Stabenow, 
Chairwoman of the Committee, presiding.
    Present: Senators Stabenow, Harkin, Conrad, Nelson, Brown, 
Klobuchar, Bennet, Gillibrand, Roberts, Lugar, Chambliss, 
Johanns, Boozman, Grassley, Thune, and Hoeven.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Well, good morning. We welcome all 
those and thank all those that will be with us this morning for 
a very important hearing. The Senate Agriculture, Nutrition and 
Forestry Committee will now come to order.
    Before this Committee today are just a few of the former 
customers of MF Global, which at the time of its bankruptcy had 
38,000 customer accounts.
    In the days preceding the collapse, it became apparent that 
MF Global would no longer survive as a company.
    While companies often make bad decisions and fail, no one 
expected the violation of one of the foundational principles of 
the futures markets: the protection of customer money. On 
Monday, October 31, at 2:30 in the morning, MF Global revealed 
that an estimated $900 million in customer money had gone 
missing--unaccounted for. MF Global filed for bankruptcy a few 
hours later.
    Now we are here left with more questions than answers. The 
customers are here still waiting to get their money back. And 
the executives and the former CEO of MF Global are here to tell 
us what they know. And the regulators are here to tell us where 
they are in the process of getting that money back and what 
they should do in the future to better oversee the financial 
management of customer funds.
    The Agriculture Committee oversees the futures and swaps 
markets in part because those markets are critically important 
for the successful functioning of America's agriculture 
economy. As I have said many times, nearly 16 million people 
have jobs because of agriculture in this country. And in this 
difficult economy, agriculture has been one of the few bright 
spots. And, frankly, we want to keep it that way.
    Situations like what happened at MF Global threaten that 
success. Our farmers and ranchers have lost trust in the 
system. They believed that there were safeguards in place to 
protect their money in exactly situations like this.
    A fundamental principle of futures trading is that customer 
money must always be kept separate from the firm's money.
    It is estimated that as much as $1.2 billion in customer 
money is missing. I know that every member of this Committee, 
and certainly the customers who are here today, and those 
across Michigan and across the country, would like to know what 
happened to that money. It has now been a month a half since 
the firm collapsed, and customer money is still nowhere to be 
found.
    This is not the Dark Ages. MF Global did not keep their 
books with feather quills and dusty ledgers. The rules about 
keeping customer money segregated are pretty straightforward. 
That it has been over a month and teams of lawyers and forensic 
accountants still cannot figure out what happened raises very 
troubling questions.
    So I am very eager to hear from the executives, as well as 
the trustee, as well as the front-line regulators about what 
happened.
    This hearing is about three things: getting the customers' 
money back, holding anyone engaged in wrongdoing accountable, 
and ensuring that proper customer protections are in place so 
that something like this does not happen again.
    The customers here today, and the thousands of others 
across the country whose money is missing, deserve answers. And 
I hope we can get some of those answers today.
    I would now like to turn to my colleague and friend, 
Senator Roberts, for his opening remarks.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Thank you, Madam Chairwoman, for calling 
this hearing on MF Global's bankruptcy and its effect on our 
Nation's economy.
    As you have said, this Committee has jurisdiction over the 
futures markets and its regulator--the Commodities Futures 
Trading Commission. The futures markets provide businesses and 
investors--whether they are individuals, companies, farmers, 
ranchers, cooperatives, or others--the opportunity to manage 
risks.
    In light of recent events, it is imperative that this 
Committee exercise its oversight responsibilities to understand 
what happened in the days leading up to MF Global's bankruptcy, 
who was involved in any actions that resulted in the company's 
downfall, and how to move forward.
    First and foremost on my mind is how customer accounts will 
be made whole. Reports indicate anywhere between $600 million 
and $1.2 billion of customer funds are missing.
    The fundamental rule in the futures markets business is to 
segregate--to keep apart--customer accounts and company 
accounts. Some believe this rule was broken in this case. If 
this is the case, that is what we are here to find out.
    Among the witnesses today are officials from MF Global who 
can help answer the many questions that I and other members of 
the Committee have.
    According to testimony given in previous hearings before 
this Committee and in the House, customer funds were accounted 
for on Wednesday October 26 and believed to be accounted for on 
Friday, October 28. Yet by Monday October 31, they were gone.
    CME's press release of November 2 states, and I quote, ``It 
now appears that the firm made subsequent transfers of customer 
segregated funds in a manner that may have been designed to 
avoid detection insofar as MF Global did not disclose or report 
such transfers to the CFTC or CME until early morning on 
Monday, October 31, 2011.''
    Funds do not simply disappear. Someone took action, whether 
legal or illegal, to move that money. And the effect of that 
decision is being felt across the countryside.
    Now, the buck stops somewhere, and between the three 
witnesses from MF Global here today, I hope we can find out 
where those hundreds of millions of dollars landed.
    Since MF Global's bankruptcy on October 31, we have heard 
from many investors, businesses, farmers, ranchers, and their 
bankers across the country that are caught up in this event.
    Today we will hear firsthand from those hit hardest by MF 
Global's collapse. I truly appreciate Mr. C.J. Blew from 
Hutchison, Kansas, taking time, his valuable time, appearing 
today, as the other witnesses have done, to provide a 
description of the impacts on their business interests and 
their farming operations.
    We will also hear from CFTC Senior Commissioner Jill 
Sommers who is leading the investigation and enforcement 
actions at the Commission since Chairman Gensler has allegedly 
removed himself from these matters. So thank you, Commissioner 
Sommers, for appearing here today.
    I also thank Mr. Giddens, the bankruptcy trustee in this 
matter, for agreeing to be here. Customers have plenty of 
questions for you, as I do, about how money can be returned to 
those owed. I know you have worked very diligently to return 
funds to customers, and I appreciate your efforts.
    The Chairman has said it. Producers must have faith in the 
safety and stability afforded by the futures market.
    The need for faith and confidence in the ability to manage 
one's own risk is why we and this Committee will continue to 
push to get to the bottom of what happened.
    Thank you, Madam Chairwoman. We have several witnesses 
today. I look forward to hearing from all of them.
    Chairwoman Stabenow. Thank you, Senator Roberts, and thank 
you to all of our members that are here today, and we will ask 
you to submit opening comments for the record. We do have three 
panels with us today, and we want to move directly to our 
witnesses. And we thank all of you for being here today, for 
coming and joining us. We made a decision to ask you to speak 
first because you are the focus of why we are here. You are the 
focus of the financial markets and making sure they work well, 
and our number one focus is to make sure that you are made 
whole and have confidence in the markets moving forward. So we 
thank all of you for being here. As you know, we welcome your 
written testimony and ask you to keep your oral testimony to 5 
minutes today.
    Our first panelist is an MF Global customer from Freeland, 
Michigan, Roger Hupfer. I welcome you today. Mr. Hupfer is the 
president and markets director of Freeland Bean & Grain, 
Incorporated. He also sits on the board of directors and 
trustees for the Michigan Bean Shippers Association. So we 
welcome you.
    Next up we have Mr. Jeff Hainline, president of Advanced 
Trading, Incorporated, in Bloomington, Illinois. Prior to 
joining Advanced Training, Incorporated, in 1982, Mr. Hainline 
was a cross-country trade, a barge freight trader, and a 
merchandising manager for Behimer and Kissner. He is also a 
member of the National Grain and Feed Association's Risk 
Management Committee and the CFTC's Subcommittee on 
Convergence.
    Next I would like to ask Senator Klobuchar to introduce our 
next witness from Minnesota.
    Senator Klobuchar. Well, thank you very much, Madam Chair. 
I am pleased to introduce Mr. Dean Tofteland from Luverne, 
Minnesota. Luverne is a town of 2,600 people, and he and his 
daughter came all this way because they care very much about 
this issue. His family grows corn, soybeans, and raises pigs on 
their farm. He currently has over $200,000 in what was supposed 
to be a segregated MF Global account which he cannot access and 
which he may never fully recover.
    He is not a speculator, Madam Chair. He, in fact, invested 
to manage risk, locking in prices ahead of the growing season 
so he was protected against price fluctuations that could eat 
into his profits. If he does not get access to his account 
soon, he is not sure what he is going to do for next year's 
crop, and he is just one example of hundreds of farmers that we 
have in our State right now that want to get their money back 
and want to get this resolved.
    Thank you very much, Madam Chair.
    Chairwoman Stabenow. Thank you.
    Finally, along with Senator Roberts, I welcome Mr. C.J. 
Blew, who, along with his wife, Becky, operates a diversified 
crop and cow-calf operation in south central Kansas. Since 
2005, he has served as the director for his local co-op, Mid 
Kansas Cooperative Association, located in Moundridge, Kansas. 
He currently serves as its chairman.
    So, again, we welcome all of you, and I would ask at this 
point that you rise so we can administer an oath to you. If you 
would stand and raise your right hand. Do you swear that the 
testimony you are about to present is the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Hupfer. I do.
    Mr. Hainline. I do.
    Mr. Tofteland. I do.
    Mr. Blew. I do.
    Chairwoman Stabenow. Thank you very much.
    Mr. Hupfer, your testimony, please.

  STATEMENT OF ROGER HUPFER, PRESIDENT AND MARKETING MANAGER, 
        FREELAND BEAN & GRAIN, INC., FREELAND, MICHIGAN

    Mr. Hupfer. Good morning, Madam Chair, Ranking Member 
Roberts, and members of the Committee. My name is Roger Hupfer, 
and I am the president and marketing manager of Freeland Bean & 
Grain in Freeland, Michigan. I want to thank you for this 
opportunity to give you an overview of our company and how the 
MF Global bankruptcy has impacted our business.
    Our company is a family-owned and -operated full-service 
agribusiness. We originated in 1983 and have provided almost 30 
years of uninterrupted service to our local community. We 
operate two country elevator facilities, which accept corn, 
soybeans, and soft white and red wheat, and we also receive, 
process, and ship edible beans to various domestic packagers, 
canners, as well as interests in Mexico. We also provide feed, 
fertilizers, seeds, crop protection products, and custom 
application service for our customers. We are members of the 
National Grain & Feed Association, the South East Grain & Feed 
Association, and the Michigan Agribusiness Association. We are 
fortunate to have Jim Byrum representing our agribusiness 
interests in Michigan. He has been a great asset to our 
industry.
    We take great pride in how we operate our business, and we 
work very diligently with our customers to help them achieve 
their marketing goals. Our customers place great confidence and 
trust in us when delivering their commodities to our 
facilities, and they expect us to provide and maintain 
competitive, perpetual marketing programs to assist them with 
their risk management.
    It is this very confidence and trust that was shattered by 
the MF Global bankruptcy. The industry has always operated 
under the assumption that our funds were in a safe and secure 
place by being kept in segregated accounts. We were in total 
shock when we found out otherwise. Misuse of these funds for 
other purposes is not only unethical, but also criminal. Those 
responsible for oversight fell far short of fulfilling their 
responsibilities in this matter.
    Our company has plans to expand and construct a new state-
of-the-art grain receiving and storage facility with 
groundbreaking scheduled for 2012. This new facility will help 
us meet increased demand and give us the ability to load out 
grain unit trains. With this increased demand, how will we be 
able to effectively manage the increased volatility and price 
risk and place our hedges with confidence if the very integrity 
of exchange-based futures trading is in jeopardy? Also, how do 
we know if there are other clearing firms that might be in 
financial trouble by being involved in bad investments and poor 
management?
    There are several livestock and dairy producers in Michigan 
that have a much greater amount of capital at risk than some of 
the commercial grain companies. I can personally give you an 
example of a customer of ours who has more capital at risk than 
we do. All he was attempting to do was to sell his cash grain 
and hedge by buying call options. He is not a speculator; he is 
just a prudent operator. If this situation is not resolved, I 
feel it will have an impact, a very negative impact, on rural 
communities across the country.
    When I put together my testimony, I called three other 
elevator operators in Michigan and asked for their input. One 
of them made this comment. He said, ``It is really sad when my 
risk management program needs risk management.''
    I can speak for our company and on behalf of the other 
agribusiness firms that have been impacted by this disaster 
that we expect to be made whole and have all of our funds 
returned to us in a timely manner so that the integrity of the 
exchange can be restored.
    Again, I want to thank you for this opportunity to share my 
views with you today. I would be happy to respond to any 
questions.
    [The prepared statement of Mr. Hupfer can be found on page 
137 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Hainline?

STATEMENT OF JEFF HAINLINE, PRESIDENT, ADVANCED TRADING, INC., 
                     BLOOMINGTON, ILLINOIS

    Mr. Hainline. Thank you, Chairman. My name is Jeff 
Hainline, and I am the chairman of Advanced Trading. Advanced 
is a non-guaranteed introducing broker that did business with 
MF Global. Our customers are farmers, elevators, grain 
processors, meat producers, and owned about 3,000 accounts 
there. Advanced Trading's customers and its business, with 
large sums still unaccounted for, are suffering from confusion 
6 weeks after the failure.
    I suggest the Committee have most of its focus in this 
initial effort on the crucial issue that must be dealt with 
immediately. In the grain industry, 100 percent of each year's 
supply is produced within a narrow time frame and used 
throughout the year. As such, the business is overwhelmingly 
dominated, like few others, by inventory management and 
financing. Depending on market behavior, borrowings can amount 
to many times the net worth of the elevator company, but 
lenders make funds available at very competitive rates because 
the loan is well secured by verifiable presence of grain in the 
elevator and the financial soundness of the futures hedge.
    The futures market is the essential central financial 
instrument upon which world grain commerce is entirely based, 
and any change in the lender's assessment of risk on what can 
be an extremely large and rapidly increasing loan balance would 
alter their financial relationships with grain businesses in a 
dramatic fashion.
    Each firm's customer segregated capital is guaranteed by 
the capital of the clearing member. Thus far, no statement by 
the bankruptcy trustee that I have seen seems cognizant of the 
fact that segregated customer funds are guaranteed by the full 
capital of the clearing member. It is entirely clear to all 
that is a pre-condition of becoming a clearing member of the 
Chicago Mercantile Exchange and others. Absent the reality of 
that guarantee, the business cannot operate.
    Both priority and rapid execution of the priority of 
customer segregated funds and bankruptcies of clearing members 
must occur instead of years of uncertainty that stretch in 
front of us. This principle absolutely must be clear for 
futures exchanges. Futures contracts at the Mercantile Exchange 
and others are rightly regarded by lenders as financially sound 
precisely because and only because each clearing member 
guarantees its own capital as a first line to back the customer 
segregated funds, and the clearing corporation guarantees the 
trades between clearing members. Any ambiguity or hesitation as 
to exactly where those necessary guarantees stand will not only 
freeze the industry, it will certainly translate into a sizable 
multiplier effect in terms of lower prices to farmers and 
higher prices to consumers.
    It is not overstating the case to project that if the 
priority of customer segregated funds in a bankruptcy is not 
firmly entrenched, it will need to be in the wake of MF Global 
after the effects of not doing so become apparent. This is an 
absolute, necessary principle for U.S. agriculture, which is 
why this Committee must see that it is upheld.
    Many suggest making changes in separation between 
segregated funds and proprietary capital, but this could add 
complexity and bureaucracy. In the end, even if additional 
restrictions on financial instruments or accounting or other 
operational measures are proposed, we should remember a few 
things: that clearing members also have their capital pledged 
to their segregated customer funds against the single greatest 
threat they themselves face, which is that their customers 
defraud or go bankrupt on them. This has occurred with relative 
frequency, and because the capital of the clearing member 
itself was acquired to be paid into customer segregated funds, 
the other customers were made whole with little delay.
    We also know that new financial techniques will arise 
hereafter, that accounting rules ambiguities will always foster 
different opinions, and that financial executives will always 
take innovative steps to maximize returns. So establishing 
rules that would have precluded the last problem will not 
necessarily preclude the next.
    Exchanges have the greatest abiding interest of anyone in 
the solvency of the clearing members, the security and good 
will of their customers, and the trust of the fiduciaries that 
lend large sums to both. While the CFTC and the Committee 
should examine what the exchanges do carefully, the exchanges 
must propose changes that the CFTC should then consider.
    This Committee must use its authority and expertise to 
clarify the bankruptcy status of the FCM member's 
responsibility to their customer segregated funds, which is the 
only way the futures industry at the financial heart of U.S. 
agriculture can possibly operate. That is the largest and most 
important issue, I feel, with MFG.
    In the end, we need to protect our efficient system, to be 
vigilant for possible corruption, to send a strong signal of 
deterrence. We need restitution of all segregated funds, and we 
need a reform of our system to prevent abuse.
    I would like to thank the Committee for its consideration 
and would welcome any questions.
    [The prepared statement of Mr. Hainline can be found on 
page 134 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Tofteland, welcome.

    STATEMENT OF DEAN TOFTELAND, FARMER, LUVERNE, MINNESOTA

    Mr. Tofteland. Hello. It is an honor to be here today. I 
want to thank Madam Chairwoman Stabenow, Ranking Member Senator 
Roberts, and other honorable Senators of the Committee. I 
especially want to thank my home State Senator Klobuchar for 
her support.
    My name is Dean Tofteland. I am a farmer from southwest 
Minnesota. My wife and I raise corn, soybean, and pigs as well 
as four kids 8 to 13 years old. I have been a farmer for about 
25 years. Throughout those years, I have used the futures 
markets to transfer risk from my farm to the CBOT by selling 
futures contracts. These contracts have enabled me and other 
farmers to lock in a selling price which could enable a profit 
on my production.
    Today I want to just briefly describe how this MF Global 
bankruptcy has impacted my bottom line as well as how it has 
influenced my confidence going forward in these markets.
    This past fall, following the harvest, I locked in prices 
on the CME for my 2011 production. I did this by entering into 
an agreement where I promise to sell a set number of bushels on 
the exchange at an agreed-upon price for a future delivery 
date. To execute these hedges, I am required to post margin to 
an escrow account, in my case which was held at JPMorgan Chase 
Bank. These funds were not an investment in MF Global. These 
funds were not a loan to MF Global. These funds were simply 
collateral required by the exchange as a guarantee for my 
promise to deliver the bushels I had priced.
    On October 28th I heard news that MF Global may be having 
some problems, and I immediately called my broker. She told me 
that since my funds were in ``customer segregated accounts,'' 
they were not a part of MF Global and would not be affected. I 
was told that ``no customer has ever lost a penny in segregated 
accounts.'' I later read about that statement before--after 
that, or I ran across it before. At this time I was not aware 
that the company was mailing bad checks to customers.
    That following Monday, October 31st, I read that MF Global 
had filed Chapter 11 background and later learned that customer 
funds were missing. The accounts were immediately frozen, and I 
was unable to adjust my short positions. The hedge account at 
this time contained $253,000. This account was also counted as 
collateral at my bank against my operating loan. It was not 
long before I received a call from my banker asking about it.
    Later, my positions were transferred to a new broker with 
only 15 percent of the required collateral. I was then informed 
that I needed to re-margin the hedges within 24 hours, even 
though I had more than three times the margin already at the MF 
Global account. As a result of this, I was forced to liquidate 
my hedges. Since that time, prices have dropped significantly, 
resulting in well over an additional $100,000 in losses.
    On the morning of November 9th, I sat through a USDA Crop 
Production and Supply and Demand Report. This was one of the 
biggest crop reports of the year, and being unable to adjust 
positions created a great deal of stress. I have not used the 
futures market since.
    Producers like myself commonly purchase seed and fertilizer 
and pay cash rents far before the crops are planted. The use of 
these markets is imperative to reduce risk, but we must have 
the confidence to do so.
    As you know, this impact has been felt far across this 
country, and just in my local area, I ran across a feed company 
and local producers of livestock that are still looking for 
answers and how to get their money back. There are also many 
other untold stories.
    I hope that in the following panels we can get some of 
those answers to fill in the blanks. I look forward to finding 
out those answers because the truth of the matter is that 
commingling money is stealing money, especially when it 
disappears.
    I want to again thank each of you for your invitation. I am 
encouraged by your hard work, and I believe in the end that we 
will get the answers we need, and it will make for a more 
efficient and confident marketplace where customer assets are 
safe.
    Thank you.
    [The prepared statement of Mr. Tofteland can be found on 
page 159 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Blew?

 STATEMENT OF CLINTON J. (C.J.) BLEW, FARMER/RANCHER, CHAIRMAN 
OF THE BOARD, MID KANSAS COOPERATIVE ASSOCIATION, AND DIRECTOR, 
             BOARD OF CHS, INC., HUTCHISON, KANSAS

    Mr. Blew. Good morning, Chairwoman Stabenow, Ranking Member 
Roberts, and members of the Committee. As Madam Chairman 
indicated, my name is C.J. Blew, and I do operate a farm and 
ranch in south central Kansas. And I am chairman of the board 
at MKC, Mid Kansas Co-op, in Moundridge, and I currently serve 
as its chairman.
    MKC is a full-service farm cooperative offering a full line 
of supplies and services for both farm and urban customers in 
11 counties throughout central Kansas. Our current membership 
is more than 4,800 members. MKC's grain division is operated by 
Team Marketing Alliance, or TMA, a LLC wholly owned by four 
central Kansas cooperatives operating 48 country elevators that 
total 38 million bushels of elevator space.
    I also serve on the board of directors of CHS Inc., the 
Nation's leading cooperative. CHS is an energy, grains, and 
foods company owned by approximately 55,000 individual farmers 
and ranchers and about 1,000 local cooperatives.
    Thank you for the opportunity today to provide not only my 
personal perspective, but also the perspective of MKC on the MF 
Global bankruptcy and the effect it has had on agribusiness and 
production agriculture.
    I consider myself fortunate because, unlike other fellow 
farmers and ranchers, I do not personally have assets tied up 
in the MF Global bankruptcy. However, I am impacted as an 
individual farmer because I rely upon my local cooperative to 
manage my risk by forward pricing my grain.
    This bankruptcy has sent a shockwave throughout the 
industry. We have long believed that risk to segregated 
customer funds held by members of the clearinghouse was non-
existent. We now realize that was not true. The attorney for 
the trustee in the bankruptcy case, just last week during the 
House Ag Committee Hearing on MF Global, also confirmed this in 
his reference that 100 percent of these funds need to be 
returned as promptly as permitted by governing regulations.
    Immediately following MF Global's bankruptcy filing, MKC 
and its respective grain marketing arm, Team Marketing 
Alliance, struggled with lack of access to futures positions 
and had no access to the funds in our accounts. Additionally, 
our accounts were transferred to a new futures commission 
merchant, and we have spent countless hours trying to 
understand how and why various adjustments to account balances 
took place.
    My cooperative continues to deal with the aftermath of this 
situation. At the time of the MF Global bankruptcy filing, my 
co-op had a significant amount of assets in segregated accounts 
tied up with MF Global. While we now have access to positions 
in our hedge accounts, only 36 percent of the initial margin 
funds needed for the transferred positions have been 
transferred to the new accounts. We applaud the SIPA trustee's 
proposal for an additional distribution of funds and property 
that would bring the value of our distributions to about two-
thirds of the original account values.
    However, for MKC, there is still a significant amount, or 
about 64 percent, of the margin funds and excess cash not yet 
received. This needs to be priority number one for the trustee 
and bankruptcy court. Segregated funds should not be part of 
the bankruptcy.
    I am here today to ask the Committee, regulators, 
exchanges, and trustee to make the return of customer funds and 
property a top priority. Customer funds were to be segregated 
and not used for other purposes. The confidence in the system 
has been compromised, and it is imperative that we restore the 
integrity of the system.
    The ability for thousands of businesses like MKC and CHS to 
hedge risk on an exchange offers producers a wide range of cash 
forward contracts that help optimize farm income. MKC's 
business model has been one that helps producers manage their 
risks. This includes grain marketing. Hedging and forward 
contracting is an integral part of that.
    A key to providing any type of hedging and forward 
contracting is the ability to finance it. We are fortunate to 
have a strong relationship with our lender. Although we have 
that strong relationship, the MF Global bankruptcy has impacted 
our ability to borrow funds. It has impacted our borrowing base 
since the missing funds cannot be used as collateral.
    Looking ahead, it will be very important to re-establish 
confidence in the futures markets and the safety of segregated 
customer funds and property. As part of the process, we must 
ensure the sanctity of customer segregated funds. This should 
include the treatment of missing funds in the bankruptcy, and 
those funds should have exclusive rights above the bankruptcy. 
This process must be a priority and expedited to make all 
segregated account holders whole.
    In conclusion, I would ask that this situation be resolved 
as quickly as possible and that MKC's assets and those of other 
segregated account holders affected by MF Global's bankruptcy 
be returned immediately. I would also ask that you ensure this 
situation never happens again.
    Thank you again for the opportunity to share my views 
today. This concludes my prepared remarks, and I would be happy 
to respond to any questions.
    [The prepared statement of Mr. Blew can be found on page 99 
in the appendix.]
    Chairwoman Stabenow. Thank you very much, and I appreciate, 
again, all of you being here. We are deeply concerned about the 
situation you find yourselves in, and through no fault of your 
own.
    Let me first start by asking each of you, if you were in 
our shoes and could say anything to the executives of MF Global 
or the regulators or the trustee, what would you want to say to 
them? Mr. Hupfer?
    Mr. Hupfer. Well, I think like the other comments that were 
made by the other panelists, I think the money needs to be 
returned in a fashion--I mean, segregated accounts need to be 
held above the bankruptcy, in my opinion. I think there needs 
to be a full investigation, and we need to have some safeguards 
in place where this cannot happen again.
    Production agriculture cannot operate and function without 
the use of exchange-based futures and being able to transfer 
risk and lock in pricing. That is integral. It is just 
impossible for the industry to operate without that ability.
    So I think this is crucial. This affects not just 
commercial grain companies, but I think it affects farmers, 
dairymen. There are a lot of people that are greatly affected 
by this.
    Chairwoman Stabenow. Thank you.
    Mr. Hainline, what would you want to ask of those we are 
going to hear from yet today?
    Mr. Hainline. Well, obviously my point was having the 
segregate funds a priority, but the thing that I wonder is, in 
light of all the financial problems that we have had over the 
last several years, how were these speculative investments 
allowed to be part of segregated funds?
    Chairwoman Stabenow. Thank you.
    Mr. Tofteland?
    Mr. Tofteland. I guess the real question is: What happened 
to the money? This money was real money in real banks. It was 
not under somebody's mattress. And now it is missing. And when 
you have a--I know in your personal bank account, the bank 
knows if you are overdrawn one penny. The bank knows if you are 
1 day late with your payment. The bank knows where the money is 
at. Somebody at the company knows where the money is at. We 
have to ask--if there is a debit, there has got to be a credit. 
Where is the credit?
    And, secondly, since there were bad checks mail, there has 
already been crimes committed. And if the rules are broken in 
the case of segregated money, the segregated funds were 
commingled, that is also a crime. So I guess if there were 
crimes committed and the money is missing, we have got to find 
the money and then deal with the consequences of that.
    Chairwoman Stabenow. Thank you.
    Mr. Blew, what would you want to ask?
    Mr. Blew. I would agree with Mr. Tofteland. Where is the 
money? You know, this has a rippling effect, I think, 
throughout the industry. Not only does it--you have got farmers 
double-margining. You have got people that have stress on their 
lending situations already. So it is imperative we get to the 
bottom of it.
    Chairwoman Stabenow. Thank you.
    Secondly, for any of you that would want to answer this, do 
you think commodities firms like MF Global should be allowed to 
invest customers segregated money and profit from the 
investments? Mr. Hupfer?
    Mr. Hupfer. I think segregated funds should be segregated 
funds and need to be treated that way. I guess that is how I 
feel about it. It is our money.
    Chairwoman Stabenow. Mr. Hainline?
    Mr. Hainline. I think that controls are an imperative if 
that investment is allowed. I am not sure that our current 
regimen has enough oversight to know where those monies are, 
and as I said previously, I think the classes of those 
investments have been way too far afield for protection of the 
customers.
    Chairwoman Stabenow. Yes, Mr. Tofteland?
    Mr. Tofteland. The issue with--I guess I have no comment 
about that. What was the question exactly?
    Chairwoman Stabenow. Well, do you think that companies, I 
guess, commodities firms, should be able to invest customer 
segregated dollars under any circumstances?
    Mr. Tofteland. No, I do not believe--I understand that 
there are some stress on the profits. Interest rates are low. 
It is hard for these companies to make money on their idle 
cash. But in this case, there were rules that were pushed. 
There was influence, I think, undue influence put on the CFTC 
and the SEC, and maybe some conflicts of interest that 
transpired, and the rules should not be pushed like that. So, 
no, there should not be any investment of these funds.
    Chairwoman Stabenow. Mr. Blew?
    Mr. Blew. Segregated funds are segregated funds for a 
reason. We must ensure the sanctity of segregated funds.
    Chairwoman Stabenow. Thank you.
    Mr. Tofteland, you testified that you have not used futures 
markets since MF Global's bankruptcy. Could you talk a little 
bit more about how that affects your business not having the 
confidence to use that market?
    Mr. Tofteland. Well, first of all, we are still out of a 
lot of capital, so to be involved here, you have to have 
collateral for the exchange. Unfortunately, I was forced to 
liquidate my hedges, and, you know, we have been unable to 
hedge since that time, and I am going ahead and looking at my 
input expenses for next year, and it is hard to--when you do 
your break-even analysis, you need to look at the prices 
offered for next year, and I just do not have the confidence 
right now until we get 100 percent of our cash back to have 100 
percent confidence until that point.
    Chairwoman Stabenow. On that point, if any of you would 
like to answer, my last question is: Given the bankruptcy, I 
assume this has caused you to take a closer look at any new 
futures commission merchant and its financial position. I 
wonder if anyone might just speak to that, going forward what 
this has meant to you as you are attempting to do business, 
assuming that you are. Mr. Hupfer?
    Mr. Hupfer. Well, we work with Mr. Hainline's firm, 
Advanced Trading, and they got all our positions transferred in 
a really good fashion, very orderly. So we are in the process 
of--we are with a new clearing firm, and we are going to open 
an account through them with another clearing firm in the near 
future to spread our risk.
    Chairwoman Stabenow. Mr. Hainline, from your perspective, 
how are you evaluating things differently? Or are you?
    Mr. Hainline. It is very unfortunate, but I think you have 
to. Numerous clients are asking about having more than one FCM 
so that at a moment's notice we can transfer accounts if 
somebody throws up a red flag. The inefficiencies of that kind 
of activity that it needs to be required is rather significant, 
but, again, for people to protect their risks, those are some 
of the conversations that are, unfortunately, going on because 
of the system.
    Chairwoman Stabenow. Thank you. I am going to stop at this 
point. I have run over my time. As I am sure my colleagues have 
noticed, we are doing 7 minutes of questions given the topic 
this morning. We will ask colleagues to watch closely for the 7 
minutes.
    I will turn now to Senator Roberts.
    Senator Roberts. Well, thank you, Madam Chairman. 
Gentlemen, thank you for coming. You have certainly put a 
personal face on this travesty. You have accurately described 
the breach of trust for yourselves personally and for everybody 
else involved. Really, this is a violation of the most sacred 
rule of the futures industry, you do not break the glass in 
regards to segregated funds. It has not happened before until 
this incident. Thank you for your personal testimony. That took 
some guts.
    I want to certainly thank you for clarifying for everybody 
present the severity of this issue and the personal experience 
that you have gone through, which I think is very helpful. We 
obviously need answers, and we are dedicated to that.
    Mr. Blew, it sounds like--well, welcome to Washington, I am 
sorry under the circumstances, but at any rate, it sounds like 
Mid Kansas Co-op is well on its way to getting up to 72 percent 
of its money back, according to the trustee. You and I have 
visited about that. Have you received any official indication 
from the trustee on this? You indicated that you are at 36 
percent. We need to get you up to that 72 percent.
    Mr. Blew. We have not received anything officially to get 
us to the 72 percent. We know we are at the 36 percent, but 
have not received anything officially on the 72 percent, no.
    Senator Roberts. I hope we can get that taken care of. 
Seventy-two percent is better than where you stood a week ago, 
but you are not made whole. Walk me through the conversation 
that Mid Kansas Co-op is having--that is 5,000 farmers. That is 
my count. You said 4,800. But walk me through the conversations 
that you have been having with your bankers in the aftermath of 
the MF Global bankruptcy. Are your bankers requiring you to 
come up with more collateral against your margin account?
    Mr. Blew. Well, it is pretty simple, really. We have 
working capital requirements that are 7 times our borrowing 
base, and so you take the number times 7, and that is the 
number that we cannot borrow.
    Senator Roberts. For the entire panel, in your testimony 
this morning all of you have referenced a loss of confidence in 
the futures market in the aftermath of the MF Global 
bankruptcy. That in and of itself is of tremendous importance.
    What changes are you going to make or recommend to how you 
or how your companies manage risk as a result of this 
bankruptcy? We will start with Mr. Hupfer and just go right 
down the line.
    Mr. Hupfer. Well, first and foremost, getting our accounts 
transferred----
    Senator Roberts. I cannot hear you.
    Mr. Hupfer. I am sorry. I said first of all, having our 
positions transferred and opening another account with 
another----
    Senator Roberts. Can you turn the microphone on? I am 
sorry. Maybe it is me. It turns red.
    Mr. Hupfer. Sorry about that. Is that better?
    Senator Roberts. Speak right into the microphone. Yes, 
thank you.
    Mr. Hupfer. Okay. Having our accounts transferred to 
another clearing firm and opening a secondary account I think 
goes a long way toward spreading our risk. I think everybody--
talking with the other commercial operators that I visited 
with, they are all more--I do not want to say cognizant of what 
they are doing with their excess funds. You know, they are 
withdrawing. You know, they are drawing--if they have margin 
excess, they are bringing it back to their checking accounts. 
They are not leaving it there. I think people are doing things 
a little bit differently as more of a precautionary measure.
    Senator Roberts. I appreciate that.
    Mr. Hainline?
    Mr. Hainline. Well, unfortunately, the biggest problem is 
that because of this uncertainty, many are choosing not to 
utilize the futures market at this point, and so that means 
your alternative is to sell it to--if you are a producer, to 
sell it to a grain company and have no further flexibility in 
managing your risk. And then that also introduces you to a 
different counterparty risk.
    So these are very dire circumstances, as Mr. Tofteland 
said, from November--or from October 28th, the last day he 
could have placed a trade with MF Global, until Wednesday of 
this last week--I am not sure the size of his farm, but if he 
had 2,000 acres of corn with an average yield of 170 bushels an 
acre, he had the price go down a quarter of a million dollars 
on his farm. And that is just catastrophic in the results of 
his risk management for his operation.
    Senator Roberts. Mr. Hupfer, I apologize to you. Something 
is wrong with our sound system, but I think it has been fixed, 
and you came through loud and clear, Mr. Hainline.
    Mr. Tofteland, thank you for personal statement. I know 
this has been pretty rough on you. Would you like to respond?
    Mr. Tofteland. Well, I just wanted to say that this is not 
about myself. There are thousands and thousands of other 
farmers and end users and individuals, traders, people I know, 
somebody out there with their live savings that was taken 
there. And they are probably looking at their next meal and how 
they are going to make their payments next week.
    I think the bigger issue is not just confidence in this 
market. This market is the basic market of--it goes back over a 
hundred years. The basic trading began with the cash trading on 
the Board of Treasury and the Minneapolis Grain Exchange, where 
they used to trade cash at the exchanges or trade rail cars, 
and then it moved to the futures. The historical basis of this 
is the foundation of all of our exchanges going--all of our 
transactions. So the confidence here really relates to the 
confidence in a lot of other markets, and that is why it is so 
important to get it right here.
    Senator Roberts. Mr. Blew.
    Mr. Blew. I really do not have anything further. I think 
the panel has covered it well.
    Senator Roberts. Okay. For the entire panel, have any of 
you had any conversations with your bankers about changing the 
operation of your risk management accounts as a result of this 
bankruptcy? You have told the Committee what you plan to do. 
Any whispering in your ear by your banker?
    Mr. Hupfer. I can respond. Now it is working. Our banker 
called us right after the bankruptcy became public, and he 
wanted to know what the situation was, and we explained to him 
what was happening, what was going on, that we were 
transferring--getting our trades transferred. And since then he 
said just keep him abreast of what is happening, and they have 
confidence in us that we know what we are doing and that we can 
make good decisions.
    Senator Roberts. Mr. Hainline.
    Mr. Hainline. I have not heard specifically, but if I put 
my banker's hat and I was loaning money to Roberts Elevator, I 
do not think I would loan him as much money as I did before 
because I do not know your money is safe there.
    Chairwoman Stabenow. And I would ask the other two folks to 
answer quickly, please.
    Mr. Tofteland. Okay. Just briefly, I know with my bank--and 
he has talked to me about it. For every dollar that we have, we 
can borrow about 40 cents. If my bank was borrowing me 30 times 
over, I suppose he would be a little more concerned. At this 
time he has got confidence that we will get things figured out.
    Mr. Blew. Well, obviously the confidence in the system has 
been compromised, and so they are going to be unwilling to loan 
as much as they would have. I think the challenge in the future 
for me, especially for my cooperative to be able to finance my 
grain when I want to forward price it, is going to be 
imperative, and I know that has been put at risk.
    Senator Roberts. Well, I would just say who at the end of 
the day ends up footing the bill for these additional costs, 
and I think we all know that. Thank you, Madam Chairman.
    Chairwoman Stabenow. Thank you.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Madam Chair. Thank 
you to all of the witnesses. I thought your testimony was 
really helpful in making people understand what this really 
meant to the individual farmer or elevator owner, and I 
especially wanted to thank you, Mr. Tofteland, for your direct 
testimony and honesty, so thank you for that.
    I think a lot of people have a hard time understanding how 
all of this works. It gets so complicated. But I think from 
your perspective, one of the things that you focused on was 
that for you this was not just an investment where you were 
trying to make a profit. You were actually not speculating. You 
wanted to be able to secure yourself against risk. Could you 
just talk a little bit about some of the risks you faced with 
the cost of feed, weather, prices, and why you would get 
involved in doing this to begin with?
    Mr. Tofteland. Thank you. A lot of farmers, what we will is 
we will lock in--like any of us, you lock in your cost of seed 
and chemical fertilizer many months ahead. So when you do that, 
you have price risk. But then during the grain season you also 
have production risk. So it is not unlike an end user that 
purchases flour. They need to buy wheat, and to lock in the 
prices, they will go to the exchange and lock in prices and 
pass the locked-in production on to their customers.
    So basically we are not unlike an end user in that fashion 
where we just lock in the prices and use it for reducing the 
risk.
    Senator Klobuchar. You also mentioned that you were forced 
to liquidate your open positions after they were transferred, 
and I think it is important to note that even if 100 percent of 
the customer funds are found and returned, you will still take 
a loss. Can you explain how that works for people who are not 
familiar with your situation?
    Mr. Tofteland. In the case that we would take a loss?
    Senator Klobuchar. Yes. I think the issue is that even if 
it is returned, you still will have a loss because of what you 
explained earlier.
    Mr. Tofteland. I see. Absolutely. When you are not able to 
lock in your price risk, you have risk to the market. Markets 
move and in my cases and in many farmers' cases, if they have 
locked in their seed and chemical fertilizer and their inputs, 
if they cannot hedge that or sell to lock in that profit, they 
are at risk for the market going down. In my case, the market 
worked adversely against us.
    Senator Klobuchar. You know, you talked about how other 
people have been affected by this, and I know you are from 
Luverne. Not everyone in this room is probably familiar with 
Luverne. It was actually one of the four towns featured in the 
Ken Burns movie about World War II because so many people were 
lost from this small town of 4,000 people. Could you talk about 
other people that may have been affected by this that you know 
in this small town and the surrounding areas?
    Mr. Tofteland. I do know, I just ran across Mike and Brad 
Mouw, a three-generation feed and grain operation that I used 
to buy my feed for my pigs from, and they are affected by this. 
There is also a former banker that I used to work with that 
finances and works with hog producers. I know a lot of 
livestock producers personally that have been affected. They 
are hooked both ways because they hedge their hogs and also 
they hedge their feed. So there is kind of a double-barrel 
effect there.
    Senator Klobuchar. For 25 years you have been farming, Mr. 
Tofteland, and you said that now you cannot use the futures 
market right now, you have not been able to use it since your 
accounts have been frozen. But, personally, what will it take 
to restore your confidence in the market and the safety of 
segregated customs funds so that you would use this market 
again.
    Mr. Tofteland. I believe we are going to need 100 percent 
confidence that these funds are safe, and going forward, I 
think we are going to have to see some--we are going to have to 
see some results on--if there was some wrongdoing, we have to 
see that we--I will put it a simple way. If the cows are out, 
instead of building a bigger fence, we have got to make sure 
the fence holes are fixed and that the--you know, maybe we have 
got to put a little charge in the fence so next time the cow 
sticks its head through the fence, he will remember the shock 
and will not do it again.
    Senator Klobuchar. I will not go there with the electric 
fence and the commodities market, but what you are saying is 
that you think we have to have some rules fixed so this does 
not happen, as well as getting your money back. Is that right?
    Mr. Tofteland. That is right.
    Senator Klobuchar. Mr. Blew, Minnesota has more farm co-ops 
than any State in the country, and Senator Thune and I co-chair 
the Congressional Farmer Cooperative Caucus, and I know from 
farmers all the time the central role that co-ops play in 
managing risk, and I would really ask you the same question 
that I asked of Mr. Tofteland. What do you think is necessary 
to restore confidence in this market?
    Mr. Blew. Well, I just think that we need to ensure the 
rules that are in place are enforced. We have got rules there. 
Let us just make sure that we enforce them.
    Senator Klobuchar. Okay. Very good. Does anyone want to add 
anything to that from the panel?
    [No response.]
    Senator Klobuchar. All right. Very good. Thank you very 
much, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Lugar?
    Senator Lugar. Well, thank you very much, Madam Chairman. I 
would like to ask you, Mr. Tofteland, you mentioned that there 
has to be 100 percent confidence that your funds are safe, and 
I am just curious as to how in this business we are talking 
about today or in any business you can have 100 percent 
confidence that your funds will be safe. Specifically, if you 
have to rely upon some other firm, why would you or those you 
are associated with have come together with MF Global?
    Mr. Tofteland. I think what you are relating to is, you 
know, MF Global, did I have any idea that this was going to 
occur or anything, you mean? The 100 percent confidence relates 
to--I mean, when we came to MF Global, we actually were 
transferred there from a different firm. I think a couple 
different firms had--a lot of companies change and they 
purchase each other, and we came in a transaction from, I 
think, ING before. But I think the bottom line is what you are 
saying is a lot of companies will fail, and it happens all the 
time on Main Street. The difference is in this case there was 
customer money that was affected and that was taken. So it is 
really about the money. It is not about--a lot of bankruptcies 
happen, but the way this bankruptcy has been going forward, it 
does not make sense because customer money should be the first 
disbursed, and then we would not have this issue with customers 
being affected.
    Senator Lugar. Yes, well, I would agree with that, and I 
think everyone here does. But the fact is that in business of 
any sort there are risks taken when you are transferring some 
responsibility for a service, in this case the futures market, 
to somebody. Perhaps you may feel this is too complex to 
understand who you are dealing with and who they may be dealing 
with, but then the panel would come back to us and say, but, by 
golly, there has got to be 100 percent certainty. And I do not 
think there is such a thing in this world.
    What I am curious about is, is anybody on the panel aware 
that you were dealing with MF Global at all and have any idea 
about the nature of that firm and the sort of operations that 
they were involved in?
    Mr. Hupfer. No. I do not think we had any idea at all that 
they were of the scope--that they were involved in some of the 
investments, some of the things that they were doing. We just 
cleared our trades through there, working with Mr. Hainline's 
firm, and we had no clue as to any of that.
    Senator Lugar. Mr. Hainline, since Mr. Hupfer had some 
confidence in your firm and, therefore, you may have more of a 
front line with this situation, why were you dealing with MF 
Global?
    Mr. Hainline. We trusted the system, Senator. The Board of 
Trade goes to lengths to explain how nobody has ever lost money 
in this situation. You know, it is their standard line that 
they give, and it is a line you could have been proud of up 
until the last 6 weeks.
    Your point about 100 percent is right on. There is nothing 
that is 100 percent. So how can you have confidence in our 
system? If we knew that the lenders that finance FCMs got no 
dollar one until segregated funds were all covered, then you 
could be confident that the lenders, if they were doing their 
due diligence, would, in effect, be looking out for the 
segregated funds. I think that is really the key issue that I 
would like to leave you with. If we had the lenders in between 
the segregated funds and the customers, I think we could have 
much more confidence that you have got due diligence that a 
farmer, a local cooperative cannot perform. The lenders have 
covenants they can put on the FCMs that borrow money from them, 
and that could help lead to a lot more confidence. Maybe not 
100 percent, but a lot more than what we have today, and maybe 
more than we can get from regulators.
    Senator Lugar. Well, these covenants that you would place 
on the FCMs, as you say, does not, once again, offer 100 
percent confidence. But the thing that disturbs me is I had 
conversations in New York a week ago Monday with investment 
bankers in various ways. I was surprised but pleased in a sense 
that they had been conducting what they called ``war games,'' 
and essentially this was with regard to the European markets 
and the financial problems there. What would happen if various 
systems failed in Europe or the whole system failed or the euro 
failed or what have you? What are the implications back and 
forth with regard to their institutions?
    Well, obviously, they are very severe. This is the world in 
which we are living. And you would have no way to know that in 
this case FC Global was engaging in buying bonds in some 
European country that is not turning out very well, or maybe 
you would have. I do not know how close the ties are here. But 
I would just say at this particular time, whether it is in the 
future market for agriculture or for anything, this is a very 
precarious period.
    So I think, you know, we are all of a mind to want to know 
how the CFTC or the U.S. Government in any way can provide 
greater security for farmers and ranchers and so forth. But one 
of the purposes of this panel this morning, I would think, is 
these are folks like yourselves engaged right on the front 
lines who have some idea of what is going on in the rest of the 
world, although you may not want to know that much about it. 
And in this particular case, the ramifications have come home.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Bennet. Thank you, Madam Chair, and I would like to 
thank you and the Ranking Member for holding this hearing.
    Mr. Hainline, in your testimony you said that--to 
paraphrase what you said, you said if we cannot have confidence 
in the futures market, it is going to mean lower prices for 
farmers and higher prices for consumers. I wonder, since most 
Americans do not know how the futures market works, if you 
could describe for the Committee in the simplest terms possible 
how it works and why the result that you describe is the 
outcome of a lack of confidence in the futures market.
    Mr. Hainline. I think I will go back to Mr. Tofteland's 
example. He buys his seed and fertilizer many months ahead of 
when he is going to harvest his grain. He probably should have 
been buying it already for the crop he is going to harvest in 
October of 2012. He then has risk of falling prices because he 
has locked in his input. If he does not use the futures market 
or an options on a futures market, he either stays long his 
price risk or he sells it to a third party--a local grain 
company, an international grain company--and at that point he 
has now entered a counterparty risk with whoever that entity 
is, and he also has no further upside potential if markets 
would rally. And if his crop is hurt because of weather, 
adverse weather, how does he protect himself if he has made a 
forward cash sale? He cannot.
    And so he becomes much less efficient in his ability to 
adjust his operation to the changing nature in our global 
environment. Mother Nature just does not give him a phone call 
and say when it is going to be good or bad. He has to make 
these plans far in advance. So as he is unable to be flexible 
in that, that loss of flexibility means less revenue to him as 
a farmer.
    On the other hand, whoever is selling his product to the 
flour mill or the ethanol plant or the export company or the 
chicken feeder, whoever is selling that is uncertain when they 
are going to buy it from Mr. Tofteland, because he cannot make 
a decision either. And so all of us that buy food or gasoline 
are going to have a larger price to pay because of the 
uncertainty on when he can sell his product.
    So it makes us inefficient. The seller has no idea what his 
real price can be because he cannot manage his risk, and the 
buyer has the same on the opposite side. So it totally breaks 
down what is the most efficient part, I believe, what really 
makes agriculture such a wonderful system in the United States. 
It just goes to the heart of what those efficiencies are.
    Senator Bennet. And just to be clear for everybody who is 
watching, this market is not a recent creation, this futures 
market. This has been part of American agriculture from the 
beginning.
    Mr. Hainline. Yes. You know, what is it? Since the Civil 
War we have traded futures contracts in Chicago, and it is a 
system that has evolved, and it is just miraculous now. We do 
not flash fingers as much as we did before. It is electronic 
trading. That brings it a lot closer to our farmers. Again, 
another efficiency that I think has been good for most people. 
But you have got to have trust, and this whole situation has 
shot that.
    Senator Bennet. Well, that brings me to my second question, 
and I would be happy to have the rest of the panel answer this 
as well. You have described well the economics of this for our 
farmers, the consequence of it, but it also has a profound 
psychological effect. And I wonder if the panelists would mind 
talking a little it about what the scale of this has meant to 
all of you, to your communities. How large an impact has this 
been on your work?
    Mr. Hupfer. Well, personally in our situation, we do not 
have a tremendous amount of capital at risk, but it has just 
shaken the confidence for commercial grain firms in the system. 
The system has worked for a long time. It has been very 
efficient.
    I think, you know, trust goes a long way. Without the 
ability to lock in prices, I think--how do we go out and, like 
Mr. Tofteland was mentioning, lock in his inputs? How do we 
offer him a price for 2012 and beyond where he can deliver--he 
can lock in a price and deliver his grain at a future time. As 
we buy grain in the commercial companies, commercial sectors, 
we cannot find a cash buyer immediately. We have to hedge. We 
have to pool our inventories. It is very efficient in how the 
system works.
    So I guess locally, talking to some of the other firms, it 
has just really shaken the confidence, and everybody is just 
kind of wondering what is going to come out of this.
    Senator Bennet. Mr. Blew, do you have a view?
    Mr. Blew. Yes, my comment was just going to be that farming 
is a risky business today, and it is a margin business. We have 
to be able to manage it, and we have to have the confidence in 
the system that we have the capability to manage it.
    Senator Bennet. Mr. Tofteland, if you have got anything 
else. You have been the star witness.
    Mr. Tofteland. Just real briefly, because I think a lot of 
this is transparent back on the farm. What happens, it has just 
been assumed you can transfer your risk or you could call your 
elevator and make a verbal sale to the elevator, and the 
elevator will turn around and hedge their position immediately, 
and then later they will follow up with the paperwork. But they 
will actually make a verbal committed sale by picking your 
phone up and saying, yes, I will sell 10,000 bushels of corn, 
and he writes it down and makes a transaction based on our 
word. It is just a handshake agreement until you follow it up 
with paperwork.
    We have been sitting back, and I think we take it for 
granted because there is the SEC and the FTIC and FERA and even 
the CME is all involved in regulating the industry and watching 
all this for us. That is what we have these people for. They 
are experts in what they do. And I think we need to learn to--
well, we need to fix what is going on here, but going forward, 
we do have a lot of people that are in the ball field working 
on this. So that will be a part of the confidence to get those 
structures right.
    Senator Bennet. Well, Madam Chair, in my State and many 
States, the farm country is actually leading this recovery as 
commodity prices have come back, and this could not, I think, 
have happened at a worse time, and at least for my part, I 
cannot imagine anything that would help restore that confidence 
than getting the money back to the people that wonder where it 
went. So thank you for holding this hearing.
    Chairwoman Stabenow. Thank you very much. I could not agree 
more.
    Senator Grassley?
    Senator Grassley. Madam Chairman, I am going to pass up 
asking questions of this panel because I want to get to the 
other panel, but I would say that the same concerns that have 
been expressed by all the other people, hearing their problems 
in their respective States, is also true of Iowa as well. So I 
thank our panel for coming here and giving testimony for 
farmers and their protectors throughout the country.
    Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Thune?
    Senator Thune. Thank you, Madam Chairwoman and Senator 
Roberts, for holding this hearing. As Mr. Blew has said, 
farming is a risky business, and hedging is designed to help 
farmers and producers manage that risk. I cannot help but think 
in light of these recent developments surrounding MF Global 
that all of us have been made aware that a very critical and 
important tool used by production agriculture, and that is, 
futures markets and hedging, is not as safe as we once thought.
    I have, I guess, three specific questions that I hope get 
answered here, probably perhaps better answered by the folks 
from MF Global, the regulators, or the exchange. But, one, how 
was MF Global able to continue its risky operations to the 
point that it had no alternative but to declare bankruptcy? 
Secondly, how could the MF Global bankruptcy result in the loss 
of hundreds of millions of dollars in segregated accounts 
without any corrective action being taken prior to this 
happening? And then, finally, how can we be assured that this 
is not going to happen again?
    And, Madam Chairwoman, I would suggest that I believe we 
have got two very distinct responsibilities. One is to make 
sure that we make every conceivable effort that those who have 
lost money due to the failure of MF Global are made whole; and, 
secondly, that we do everything within our jurisdictional power 
to ensure that futures markets are safe for those who use them. 
And so I look forward to the testimony that we are going to 
receive later as well as I appreciate very much what we have 
heard from our panelists already this morning.
    But I do want to come back to some of the ways in which 
production agriculture uses the markets, and I want to ask the 
producers out there, Mr. Tofteland and Mr. Blew, about when did 
you start using futures contracts to hedge your crops?
    Mr. Tofteland. I remember back in college I would come 
home, and I had a course at the university about hedging, and 
this was back in 1998, during the drought, and I asked my dad 
about a call option to reduce the risk of the crops he had 
already forward contracted and, you know, with the dry weather 
and not getting the crop, and literally from back in those 
days, came back from school and started applying the principles 
of hedging from very early in my career.
    Senator Thune. Mr. Blew?
    Mr. Blew. Well, as I have stated, I did not personally use 
the futures markets, but I do indirectly through my 
cooperative. They help me manage my risk very well by helping 
me to lock in the margin. They are doing the input side, and 
they are also doing the grain side. But they have to be able to 
lay that risk off, and so I know that indirectly I am affected 
because they have to have that ability to do that.
    Senator Thune. And how would you say that hedging has 
affected your profitability?
    Mr. Blew. Well, if they do not have the confidence in the 
system to be able to offer me the service that they have by 
locking in that margin, then if I am unable to lock in that 
margin, I am at risk for a potential loss because I cannot lock 
in my profitability.
    Senator Thune. Let me ask you both this question: What will 
have the most impact on your profitability in the future--the 
passage of the next farm bill or the continued safe use of 
futures contracts?
    Mr. Blew. I can answer that one pretty quick. The continued 
safe use of futures contracts.
    Senator Thune. Do you share that view, Mr. Tofteland?
    Mr. Tofteland. Yes, I do share that view. I think a risk 
management package in both cases would be effective.
    Senator Thune. Let me ask you something about how this 
problem is impacting just kind of land prices and rents across 
agriculture. Do you believe that this is a problem that has 
been widespread enough now in your areas that cash rent land 
prices are going to be affected in 2013 and future years?
    Mr. Tofteland. I believe when you look forward, with the 
futures market we are able to pick a window, look through a 
window to see what the futures prices are a year or 2 years 
out. And so with a lot of cases, a couple years ago, you could 
not even market your crop through a local elevator more than 
maybe 3 months out because of the uncertainty in the markets 
and the potential risk and exposure. It is very possible that 
could potentially affect rents and land if you are not able to 
look through that window and see what the future is offering.
    Senator Thune. And that is the question. If this collapse 
results in a diminished use of futures to help hedge inputs and 
commodities in the future, does that impact cash rents? Mr. 
Blew, do you care to comment on that?
    Mr. Blew. That would be speculation on my part. I certainly 
can make the argument that it would have an effect at some 
point, yes.
    Senator Thune. I guess this is more of coming back to the 
impacts on your operation in the future, and some of you have 
talked about the importance, as you go in dealing with your 
lenders, too. What needs to be done, in your view, moving 
forward--and this question has been asked, I guess, in some 
different forms throughout the course of the day--so that you 
will have full faith in the morning that when you wake up, your 
account is not going to be frozen and money missing from that 
account? What would make you feel more comfortable and more 
confident in dealing with your banker with regard to what has 
happened and what needs to be done as we move forward.
    Mr. Tofteland. As we move forward--I guess I am not sure.
    Senator Thune. You need a safe system.
    Mr. Tofteland. Yes, a safe system, basically. That is 
correct, and confidence.
    Senator Thune. Clearly what has happened here has 
demonstrated that whatever--there are things that clearly can 
fall through the cracks. I guess we have learned that lesson.
    Anything, Mr. Blew, you can add to that?
    Mr. Blew. Well, with all due respect to members of the 
Committee and everybody in Washington, that is what we are here 
to figure out.
    Senator Thune. Okay. We appreciate your testimony and your 
willingness to share your personal examples of how this impacts 
you. It certainly has, I think, shined a spotlight on the 
importance of us getting this right so that something like this 
does not happen in the future.
    I think the story here, Madam Chairwoman, is to figure out 
what went wrong and to figure out how we fix it so it does not 
happen again. You have been very helpful in that regard. Thank 
you.
    Chairwoman Stabenow. Thank you very much.
    Senator Harkin?
    Senator Harkin. Thank you, Madam Chair. Nobody, I believe, 
is saying that MF Global or any other futures firm owes 
customers a guarantee against all losses. I have heard that. 
But I want to get a sense of whether customers who are trading 
futures realize that under the rules in place when this 
happened, a futures commission merchant could invest segregated 
customer funds not only in treasury securities and cash but in 
municipal bonds, securities of Government-sponsored 
enterprises, commercial paper, corporate notes, sovereign debt, 
money market funds, and even further, could use customer funds 
to trade in-house using what are called repurchase and reverse 
repurchase agreements. Moreover, any profits on these 
investments of customer funds accrue to the firm and not to the 
customer.
    Now, I was looking here at a timeline chart. Pre-2000, a 
futures commodity merchant could invest your customer's funds 
in treasuries, municipals, or obligations fully guaranteed by 
the U.S. Government. That is it.
    Now, look at the timeline from then to now. Now we got into 
corporate notes and sovereign debt and money market mutual 
funds. And then we got into in-house transactions and on and on 
and on.
    Welcome to the world of deregulation, folks. That is what 
you get. That is deregulation. And now we hear people say we 
have got to have even more deregulation. I wonder. My question 
to all of you is: Would a farmer, an elevator manager, or any 
other typical customer of futures commission merchant, such as 
MF Global, ordinarily know that customer funds were commonly 
invested in such a variety of instruments and securities, 
profits of which do not accrue to the customer but only to the 
house? Would a farmer or elevator manager know that? Would you 
know that, Mr. Tofteland?
    Mr. Tofteland. I had no idea.
    Senator Harkin. Did you know, Mr. Blew?
    Mr. Blew. No.
    Senator Harkin. Now, Mr. Hainline probably knew because you 
have a futures commission.
    Mr. Hainline. It is possible to know, but it is very 
difficult to find out what the specifics are, Senator.
    Senator Harkin. Well, do you believe it would affect the 
decisions of customers, Mr. Tofteland and Mr. Blew, if you knew 
how and with whom they do business if the futures customers 
knew that the merchants were able to invest and move around 
these customer funds? Would that maybe affect with whom you 
dealt?
    Mr. Tofteland. It certainly would if I knew that----
    Senator Harkin. Would transparency help?
    Mr. Tofteland. It would. If I had any idea that what was 
going on there----
    Senator Harkin. Well, let me ask one last question-- maybe 
not quite the last. I see a little more time left. Do you 
believe it would be better if customer funds could only be 
invested in treasury securities or cash, as I understand is 
required by the Securities and Exchange Commission as to 
securities brokers and dealers? I am just asking. I am saying, 
Should we go back to where we were pre-2000?
    Mr. Tofteland. Well, those investments seem a lot more 
secure than the latter.
    Senator Harkin. I will read them to you: treasuries, 
municipals, and obligations fully guaranteed by the U.S. Would 
that give you a little bit more----
    Mr. Tofteland. I understand those,
    Senator Harkin. You understand those, sure. We understand 
those. I am not certain I understand what in-house transactions 
are and purchase and repurchase agreements and how they shuffle 
this money back and forth. And I think that is part of this 
whole deregulation effort, was to put a cloud in there. It is a 
cloudy kind of thing. No one really knows what is going on and 
how these monies are being used. Quite frankly, these merchant 
houses are using the money to make a profit. I cannot say I 
blame them. They got a bunch of money, and they see some unique 
investments they can make, why not go ahead and do it? Because 
their argument to us--believe me, I have been involved in this 
since they first came and wanted to get rid of the Glass-
Steagall Act, which I was one of seven members to vote against. 
Ever since they got rid of Glass-Steagall, all we hear about 
is, well, if they can just use these funds and invest it in 
these things, they make a little profit and, therefore, they 
become more efficient in handling your money, you see. And that 
is the argument that has been used here for the last 12 years. 
And the Congress continually just says, okay, fine, just fine, 
just keep deregulating it.
    Well, I guess I would just ask: Doesn't the MF Global 
disaster illustrate the unavoidable conclusion that we must 
have strong, transparent regulations for the protections of 
customers and the public? Mr. Blew? Or do you want to just live 
with this nice big deregulation and take your chances, roll the 
dice?
    Mr. Blew. No, you know, I cannot speculate. I guess what I 
would--the only response I would have to that is I do believe 
that we have regulations in place, and I am not sure that they 
were enforced.
    Senator Harkin. Yes, we have regulations in place. They can 
invest in all these things. I am asking you, Should they be 
able to invest in all that stuff?
    Mr. Blew. I am going to let you figure that out, Senator.
    Senator Harkin. Well, no, I mean, you are at the bottom end 
of this. Mr. Tofteland, should they invest in all these things 
and not even let you know what they are investing in?
    Mr. Tofteland. Well, I do not agree that--I personally 
would not have invested in some of that, so if they took the 
funds that I entrusted there and did that, I do not think that 
should be the case. As far as the regulation goes, that would 
be something for the CFTC and your Committee to look at.
    Senator Harkin. Mr. Hainline, any view?
    Mr. Hainline. I tend to agree with you, Senator. If I 
wanted to make those kind of investments, I would either buy 
them myself or invest in the company's--the stock of a company. 
If I have got segregated funds that I need to have secure, that 
is not the purpose.
    Senator Harkin. Very good. I agree with you.
    Mr. Hupfer?
    Mr. Hupfer. Senator, I agree that they should be segregated 
funds and only safe investments, there would be more 
disclosure. We were not aware that our money was being invested 
in these transfers or any of this type of thing was going on. I 
guess that is how I feel.
    Senator Harkin. Thank you.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Boozman?
    Senator Boozman. Thank you. We appreciate you all being 
here. You all are farmers, and you all are used to taking 
risks. I think you can argue as to what is appropriate or not, 
but I would like to follow up on Senator Harkin in the sense 
that, again, based on the materials that were presented to you 
as you were sold, you know, whether or not to do this, did 
you--I just want to be clear. You felt like you did not 
understand the risk that you were getting into. Is that 
correct? You did not realize that the funds could be 
segregated, that you could lose your money in this manner?
    Mr. Tofteland. That is correct. I was just assuming that 
would be--it is something that has been done and trusted for 
100 years.
    Senator Boozman. I have got the CME, Clearing Financial 
Safeguards, you know, and this is a lot of information. But 
when you read through it, it does appear that things are pretty 
secure. So that is a fair statement, because, again, we can 
argue as to what is appropriate and what we need to do in the 
future. But at the very least, you know, you need to be aware 
as you get into a deal, you know, what is at stake, what the 
risks are, and it seems very apparent that was not the case.
    Again, thank you very much for being here.
    Chairwoman Stabenow. Thank you very much.
    Senator Brown?
    Senator Brown. Thank you, Madam Chair. Thank you for 
holding this hearing, and I appreciate especially the comments 
from all of you. I just arrived, but I saw your testimony and 
appreciate your comments about needing to build confidence. And 
Senator Harkin's comments especially were important. You know, 
it is not often we have an opportunity, I think, to see--to put 
a face on decisions made by people in this town, and that is 
particularly important in this hearing, especially the two 
gentlemen on the right. It is an important reminder that the 
actions of Congress and watchdogs like SEC, like CFTC, have 
real-world consequences.
    Like most States, Ohio is home to companies that have 
fallen victim again to the culture of recklessness and greed. 
In Upper Sandusky, a town about 40 miles west of where I grew 
up, a feed and pork producer, Kalmbach Feeds, uses a commodity 
broker who uses MF Global. When they heard that MF Global was 
experiencing difficulties due to risky bets on European debt, 
they tried to withdraw their funds and could not. A metal 
refinery in southeast Ohio, in Appalachia, Ohio Precious 
Metals, was told their money was safe. Now both these companies 
are stuck in limbo as the CFTC and CME search for $1.2 billion. 
They are the latest of the victims of Wall Street fraud and 
greed and whatever other adjectives we want to use.
    Let me, before my question, put a little bit of historical 
context. In 2000, the CFTC relaxed its Rule 1.25 restricting 
how companies can invest client funds, a giant change that 
helped create the conditions for MF Global's failure. That same 
year, Congress passed a law preventing regulation of over-the-
counter derivatives, which then grew to a $464 trillion market 
in the first half of 2008. Last year, the SEC brought charges 
against Goldman Sachs for selling its clients' mortgage bonds 
that it knew were doomed to fail, then betting against those 
very bonds, as you have read by now.
    One of these misguided policies hurt investors; another 
caused a catastrophe for our Nation's economy; the third did 
both.
    These episodes demonstrate that rules and accountability 
must keep pace with developments in the markets. Last year, 
Dodd-Frank included what is the now famous Volcker Rule to ban 
banks from making risky proprietary trades for their own 
accounts, just like those made by MF Global. We passed this 
provision because these bets are dangerous and because they pit 
banks against their own customers. And when that happens, the 
customer always loses. Unfortunately, efforts like the Volcker 
Rule are met with powerful opposition from powerful special 
interest lobbyists in this town.
    Wall Street and its allies in Washington are seeking to 
prevent implementation of the important reforms we passed last 
year. They are seeking to defund not only they wanted to weaken 
regulations further, as Senator Harkin said; they are seeking 
to defund agencies that watch over financial markets. So as Mr. 
Blew--as you both said, we are not able--you know, that these 
rules may have been on the books. They were not carried out 
partly because Wall Street allies in this town and in this 
Senate want to defund these agencies so that even if the rules 
are in place, there is not the money to enforce them.
    Finally, these same interests blocked the appointment just 
last week of the Director of the new Consumer Financial 
Protection Bureau, somebody I have known for 20 years from 
Ohio, Richard Cordray, whose sole mission was to protect Main 
Street against these kinds of Wall Street abuses. And unlike 
ever in Senate history, he was blocked not because he was not 
qualified but because more than 40 Senators here, allied with 
Wall Street, did something they had never done before. They 
blocked a nominee because they did not like the agency, even 
though the agency had been created by an act of Congress with 
more than 60 votes, a supermajority, 2 years later.
    Markets require transparency and clear rules of the road 
for all participants and accountability when those rules are 
broken. Watchdog agencies need adequate resources to prevent 
unscrupulous Wall Street actors from again taking advantage of 
farmers and small manufacturers in my State and across the 
country. It puts companies in States like mine at risk that 
rely upon these markets to deal with business predictability to 
smooth out the busts and the booms.
    So here is my question for each of the four of you, 
starting with Mr. Blew on the right: What would you say to 
those who, one, want to defund the regulators; two, want to 
weaken the regulations; three, fail to confirm somebody that 
would be a consumer watchdog--pardon my mixed metaphor but 
would be a cop on the beat for consumers? What do you say to 
those politicians and regulators that seem so little interested 
in protecting Main Street? Mr. Blew?
    Mr. Blew. Well, I cannot--again, I cannot speculate whether 
or not we need to regulate, deregulate, overregulate, whatever 
we need to do. I just know that we need confidence in the 
system to be able to manage risk, and so however we achieve 
that, that is fine. But whatever rules we do have in place or 
have in place in the future, we need to ensure that they are 
enforced.
    Senator Brown. Okay. Mr. Tofteland?
    Mr. Tofteland. I do not know if it is an issue so much here 
whether it is left or right. It is really an issue of what is 
right or wrong. And I think we can go ahead and build a bigger 
fence. But if we have--and as long as we have the guy that 
builds the fences or people that build the fences show the cows 
where the holes are at, you could build the biggest fence in 
the world and it will not work. So I think we have maybe a 
problem with some big cows.
    Senator Brown. Well put.
    Mr. Hainline. I think your point on efficient transparency 
is very important. I think oversight is really key. The reason 
we are here today is this Committee has oversight over this 
area, and so I think oversight in anything the Government gets 
involved in is key. And so with respect to your question, I am 
not sure what the oversight of those other positions are.
    Senator Brown. Mr. Hupfer?
    Mr. Hupfer. I guess I feel we need to enforce the 
regulations that are in place. I think Mr. Harkin made some 
good points about what can be invested, where the money can be 
invested, whether it is safe investments, and transparency is a 
huge issue. I think this body--like I said, as we move forward, 
that is why we are here, to get some answers and to try to come 
to some kind of a resolution on this.
    Senator Brown. Thank you.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you.
    Senator Chambliss?
    Senator Chambliss. Thanks, Madam Chair.
    I understand that, gentlemen, you all have testified that 
you were not aware of the use by MF Global--whether they did so 
or not, but you were not aware of the use by them of your funds 
to carry out proprietary trades. Is that a fair statement from 
all four of you?
    [No response.]
    Senator Chambliss. So my question is: What would you have 
done if you had known that? What do you think your recourse 
rights are? And what would you have done if you had somehow 
been advised that they were using your funds for proprietary 
trades? Mr. Hupfer, let us start with you.
    Mr. Hupfer. Well, I guess Mr. Lugar made the point that it 
is a risky world. I think that any good businessman would 
spread his risk, probably open an account at another clearing 
firm, maybe more than one account, and kind of divide your 
capital or spread your risk in that manner.
    Senator Chambliss. Okay.
    Mr. Hainline. If the degree of leverage had been known, as 
has come out subsequent, I am sure we would not have been 
clearing MF Global.
    Mr. Tofteland. I just want to say that businesses are going 
to continue to fail, and when a business fails, customer assets 
have to be preserved and have to be--this has happened before 
in this industry. Companies have failed. Customer assets have 
transferred the next day, and we went on his business. In this 
case something else happened, and that is what we ought to look 
into.
    Mr. Blew. Well, without a doubt we would have spread the 
risk to other futures commission merchants,
    Senator Chambliss. My point in asking that is that as we 
move forward, I wonder if there ought not to be some measure by 
which a customer like the four of you would be made aware of 
such a transaction. And it is easy to look back and see now 
what you would have done, but I think I hear all of you saying 
you would not have been happy with the fact that there were 
proprietary trades using your money.
    Lastly, and if this has been asked, I apologize, but I come 
from ag country, too. I know how hard it is in these times to 
get funding for your operating loans, and this is that time of 
year when farmers are negotiating for operating loans. What 
kind of impact has this had in your respective parts of the 
country with your customers? Again, Mr. Hupfer, let us start 
with you.
    Mr. Hupfer. Well, at this point in time, in terms of us 
being a commercial agribusiness, in terms of financing for 
farmers, I do not think that is really--I do not think we have 
the real true answer on that yet. I do not think we are far 
enough along with this. I have talked to some of the lending 
institutions, and I think everybody is just trying to see how 
this plays out. I guess I would defer maybe over to Mr. Blew 
and Mr. Tofteland on that.
    Mr. Tofteland. Well, I have yet to speak with my banker in 
detail. After this hearing when we get back, we will talk some 
more. He has assured me that he is with us 100 percent and 
wants to work with us in the future. You know, in my case we 
will have to borrow more money.
    Mr. Blew. Well, I think grain as a lender was always seen 
as a secure bet, and I believe that if we do not restore the 
confidence in the system, that could come into question. It is 
fairly simple math right now. Our lenders puts working capital 
requirements on us of seven times the number, and so you take 
the number that we have lost and take it times seven, and that 
is what we are out as far as what we can borrow.
    Senator Chambliss. Thanks, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Madam Chairwoman, for 
holding this hearing. Thank you, Mr. Ranking Member. Thank you 
all for giving us your testimony.
    The questions that I had have been asked, and I appreciate 
the time you have taken to brief this Committee, and I will 
reserve the remainder of my questions for the next panel.
    Thank you very much.
    Chairwoman Stabenow. Thank you very much.
    Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman.
    I know this line of questioning has been asked. I would 
like to go into it for just a minute. But, again, it goes to if 
the company was not dipping into customer accounts, segregated 
accounts, how could the customer account or the segregated 
account come up short, in your opinion? Is there any way those 
accounts could have been short unless that was happening? And I 
would start with Mr. Hupfer and also ask Mr. Hainline to 
respond to that as well.
    Mr. Hupfer. Could you--I guess your question is how could 
we have known that they were----
    Senator Hoeven. No, no.
    Mr. Hupfer. I am sorry.
    Senator Hoeven. In your opinion, if MF Global was not 
taking dollars out of those custodial accounts or dipping into 
those custodial accounts for company purposes, how would 
customer accounts come up short? In your opinion, is there some 
other way other than the company going into those accounts?
    Mr. Hupfer. I guess I do not see how there would be any 
other way.
    Senator Hoeven. That is my question.
    Mr. Hainline. It is either sloppy recordkeeping or it is 
theft.
    Senator Hoeven. And was there any indication at any time to 
you that customer accounts were being used for company 
purposes, any indication, any reporting to you at any time?
    Mr. Hupfer. No.
    Mr. Hainline. No.
    Senator Hoeven. Did you try to withdraw dollars at any time 
when you realized MF Global was having trouble? Or at what 
point did you try to withdraw dollars, and what was the 
reaction? Were you stopped, not stopped? What was the 
communication?
    Mr. Hainline. Towards the last of the week that they were 
trading, lots of smoke in the situation. To transfer positions, 
normally the positions transfer one day and the money transfers 
the next day. If you are an FCM that would be accepting these 
new positions, your risk is you get these new positions in a 
transfer and the funds are frozen the following day, and that 
chilled many FCMs from accepting transfers at the end of this. 
So it was another result of this problem.
    Senator Hoeven. So by the time you were made aware of the 
problem or the magnitude of the problem, you really did not 
have an ability to withdraw customer funds?
    Mr. Hainline. Well, that is the reason there are so many 
bounced checks out here.
    Senator Hoeven. Mr. Hupfer, anything?
    Mr. Hupfer. I would say that is correct. We had no 
knowledge, we would not have that ability. There was no 
opportunity to do that.
    Senator Hoeven. To Mr. Tofteland and Mr. Blew, is your 
understanding still that you will receive 72 percent of your 
account, either directly or transferred to another company?
    Mr. Tofteland. That is my understanding.
    Senator Hoeven. And you have not had any communication 
beyond that?
    Mr. Tofteland. Not beyond that. Just that they are looking 
at--or the trustee and the judge have worked to get it to 72 
percent. Beyond that I am not sure what will happen. I want to 
make sure--I do not want to see that our customer funds are 
thrown into the pool with the creditors because if there is $40 
billion at the holding company level and they liquidate the 
FMCI down here or MF Global, Inc., you know, there should be 
funds available. We should be made whole immediately. We would 
not be here if that was the case.
    Senator Hoeven. Absolutely, and I absolutely understand how 
important that is. So at this point the indication to you from 
the trustee is 72 percent of your funds would come back to you. 
Any indication of timeline and any further indication on this 
issue of whether customer funds have a priority versus bond or 
equity holders?
    Mr. Tofteland. I wish there was more transparency in that 
process. I wish that we could look at--I wish the trustee would 
released where the money is at that he has found already so we 
could at least find out if it is at JPMorgan Chase or if it 
is--I mean, where it is at. It would be nice to see some 
transparency in that process. You know, maybe it just an issue 
of understanding. I hope is not a conflict because it is kind 
of confusing how this all works, but in any bankruptcy, when 
you have customer funds, in any business, it has got to be kept 
separate. It is like if I bring my pickup to the car dealership 
to get the oil changed and over the weekend they close the 
doors, the bank comes in, and the next day they put my pickup 
on the lot with the cars that are going to be foreclosed on, 
and, you know, my pickup is my pickup. So it is customers. So 
it really should not be an issue.
    Senator Hoeven. Well, transparency, understanding how they 
are going to approach this issue, and then also timeline, 
knowing when you are going to have use of your dollars, all 
these are important.
    Mr. Tofteland. Exactly. I have no idea. Maybe 3 weeks, 
maybe 4 weeks, but no idea for sure on my particular case.
    Senator Hoeven. And that is important information for you 
and for other producers.
    Mr. Blew, same questions.
    Mr. Blew. Well, I would be the same way. We have not heard 
anything officially. We know that is what has been proposed, 
but nothing official as of yet.
    Senator Hoeven. And how is that communication being 
provided to you?
    Mr. Tofteland. In my case, working with the Commodity 
Customer Coalition, and they represent 8,000-some customers 
now, farmers, ranchers, elevators, and individual people, so 
that is where I get my information recently, and working with 
them.
    Senator Hoeven. And, Mr. Hupfer and Mr. Hainline, 
communication to you and your ability to communicate with your 
customers, could you just touch on that?
    Mr. Hupfer. Communication-wise and working with Advanced 
Trading, Mr. Hainline's company, has been great. They have kept 
us abreast of the situation so we have some kind of an idea 
what to tell our customers. Right from the get-go, they were on 
top of this, and I give them high marks for that.
    Mr. Hainline. The trustee's website has a lot of 
information. The CME has done a good job of putting out 
information. There has been a number of media reports. So, you 
know, those are the areas that we are able to get information 
from.
    Senator Hoeven. With customer dollars tied up, though, for 
your farmers and ranchers, what are they doing? How are they 
operating without those dollars?
    Mr. Hainline. They are probably having to ration their risk 
management activities. They are performing less risk management 
than they would have otherwise. So they are taking more risk 
because they do not have the assets there that are tied up.
    Senator Hoeven. Mr. Hupfer.
    Mr. Hupfer. I would agree with what Mr. Hainline said.
    Senator Hoeven. Thank you, gentlemen, for coming in. We 
appreciate it very much.
    Chairwoman Stabenow. Thank you very much.
    Senator Conrad, did you have questions?
    Senator Conrad. You know, in the interest of time, given 
the lateness of the hour, let me just say what an excellent 
panel this has been. We very much appreciate your willingness 
to come forward and state publicly what has happened to you. 
You certainly have our sympathy. We are hopeful that before 
this is over there will be 100 percent recovery. Certainly that 
is what you deserve. And I think this Committee will be very 
focused on trying to make certain that you get every dime back 
that you put in customer accounts that should not have been at 
risk.
    I thank the Chair.
    Chairwoman Stabenow. Thank you very much. I think everyone 
on this Committee absolutely agrees with that statement.
    I notice that Senator Nelson has just joined us. Senator, I 
do not know if you have questions as we are wrapping up this 
panel.
    Senator Nelson. No. I think most of the questions have been 
asked. I will wait for the next panel. Thank you, though, Madam 
Chair.
    Chairwoman Stabenow. Thank you very much.
    Thank you again to each of you for traveling here to be a 
part of this, and I want you to know that we are laser-focused 
on doing everything in our powers to make sure you get your 
money back. So thank you very, very much, and we would excuse 
you and ask our next panel to come forward. We will take a 
moment as we change panels. Thank you.
    [Pause.]
    Chairwoman Stabenow. Thank you very much for joining us for 
this very important hearing. Let me introduce our witnesses.
    First, our first witness is Mr. Jon Corzine. Mr. Corzine is 
the former Chairman and CEO of MF Global Holdings. Before 
becoming CEO of MF Global, Mr. Corzine was the Governor of New 
Jersey from 2006 to 2010. Prior to serving as Governor, Mr. 
Corzine served as a Senator from New Jersey. From 1975 to 1999, 
he worked for Goldman Sachs as a bond trader, eventually 
becoming chairman and CEO.
    Next we have Mr. Bradley Abelow, president and chief 
operating officer at MF Global. Prior to joining MF Global, Mr. 
Abelow was a founding partner of New World Capital Group. 
Before co-founding New World, he was chief of staff to Governor 
Corzine.
    Lastly, we have Mr. Henri Steenkamp, chief financial 
officer for MF Global. Before joining MF Global, Mr. Steenkamp 
spent 8 years with PricewaterhouseCoopers, including four years 
in the New York office as part of its transaction services 
group where he managed a variety of capital-raising 
transactions on a global basis for multinational companies. Mr. 
Steenkamp is also a chartered accountant.
    As with our previous panel, we would ask that you rise so I 
could administer an oath and ask that you raise your right 
hand. Do you swear that the testimony you are about to present 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    Mr. Corzine. I do.
    Mr. Abelow. I do.
    Mr. Steenkamp. I do.
    Chairwoman Stabenow. Thank you very much.
    At this point we will welcome Mr. Corzine.

  STATEMENT OF HON. JON S. CORZINE, FORMER CHAIRMAN AND CHIEF 
 EXECUTIVE OFFICER, MF GLOBAL HOLDINGS LTD., NEW YORK, NEW YORK

    Mr. Corzine. Thank you, Chairwoman Stabenow, Ranking Member 
Roberts, and distinguished members of the Committee. The 
statements of the previous panel pretty powerfully confirm the 
harsh fact that MF Global's bankruptcy has devastated people's 
lives and undermined confidence in markets. I recognize that my 
concerns about their anguish and loss of confidence does not 
provide solace for those losses or hardships, and that is true 
whether those hurt are customers, employees, or investors.
    As the chief executive officer of MF Global--and I say this 
with all sincerity--I truly apologize to all those affected.
    As you know, I have provided a written statement to the 
Committee, and I testified before the House Committee on 
Agriculture last week. I am here to answer your questions as 
well. Before I do, I wish to make a few additional points in 
light of my earlier testimony.
    Several of the questions last week concerned whether I was 
aware of any money that belonged to customers being used 
improperly. I tried to answer those questions to the best of my 
ability, but I want to be clear. I never gave any instruction 
to misuse customer funds. I never intended anyone at MF Global 
to misuse customer funds.
    I also want to address the missing money. Again, as I said, 
I was stunned to learn that hundreds of millions of dollars of 
funds were unreconciled on Sunday evening, October 30th. And 
while people worked very hard into Monday morning to reconcile 
the accounts, ultimately their efforts were unsuccessful.
    I note that in response to questions about the whereabouts 
of the missing funds, both CFTC Commissioner Sommers and the 
SIPC trustee explained that, to trace missing funds, it will be 
necessary to analyze and reconcile multiple hundreds of pages 
of daily transactions, multiple bank statements from many 
countries, and to review account records of more than 38,000 
customers. In the ordinary course of business while I was at MF 
Global, I would not have seen those records, and I have no 
access to them now.
    What I do know is that over the last days at MF Global I 
was focusing on selling the company and liquidating assets so 
that there would be adequate cash and resources to handle what 
ultimately became a run on the bank.
    For example, on Thursday I directed the sale of 
approximately $1.3 billion in commercial paper in order to meet 
anticipated customer demands. I also directed the sale of 
hundreds of millions of dollars of MF Global proprietary 
assets. On Friday I directed sales of other assets, including 
approximately $4.5 billion of Government agency bonds and 
attempted to sell other securities.
    As I sit here today, I do not know whether all of these and 
many other transactions were properly recorded and effectuated, 
or whether banks and other counterparties involved in such 
transactions properly credited the right accounts for these 
sales, or are holding money that is rightfully due to either MF 
Global or its customers. Nor do I know whether the back-office 
professionals at the firm or at other institutions made errors 
or miscalculations under the extraordinary stress.
    Questions have also been raised about the compliance and 
risk systems at MF Global and the controls on segregated funds. 
During my tenure we employed, including many new hires, dozens 
and dozens of highly regarded and trained professionals in the 
areas of risk, finance, compliance, legal, internal audit, and 
back-office operations. We also retained prominent outside 
auditors, consultants, and lawyers to make sure MF Global 
operated lawfully. Indeed, until Sunday night before the 
bankruptcy, I believed that the people and systems at MF Global 
were properly protecting client funds.
    For example, on the Friday before the bankruptcy, JPMorgan 
Chase contacted me and others at the firm about certain 
overdrafts and whether funds had been transferred in compliance 
with CFTC rules. I had no personal knowledge about the issues, 
so I asked people, senior people in the back-office in Chicago 
and Legal Department to become directly involved in resolving 
these issues. So even in the midst of the chaotic last days of 
business, I had confidence in our people and systems.
    So before I respond to your questions, I want to say again, 
I apologize to our customers, the farmers and ranchers, the 
gentlemen that we saw here today, and the people they represent 
in the real world, our employees and our investors. My pain, 
and my embarrassment, do not blind me to the fact that they 
bear the brunt of the impact of the firm's bankruptcy.
    I am willing to respond to the Committee's questions.
    [The prepared statement of Mr. Corzine can be found on page 
101 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Abelow?

  STATEMENT OF BRADLEY ABELOW, PRESIDENT AND CHIEF OPERATING 
      OFFICER, MF GLOBAL HOLDINGS LTD., NEW YORK, NEW YORK

    Mr. Abelow. Madam Chairwoman, Ranking Member Roberts, 
members of the Committee, thank you for having me here today.
    The bankruptcy of MF Global was a tragedy for our 
customers, our employees, and our shareholders. For many of our 
customers, including many of your constituents who have still 
been unable to retrieve funds that are rightfully theirs, it 
has imposed extreme financial hardship. More than 2,500 
employees have either already lost or will soon lose their jobs 
through no fault of their own. Shareholders have seen the value 
of their investments reduced to almost nothing overnight.
    As the president and chief operating officer of MF Global, 
I am deeply sorry for the hardship they have all endured. While 
I know that nothing I say can ease their pain, I hope that 
through my testimony today I can help this Committee understand 
what happened at MF Global and how we are attempting to unwind 
the company in a manner that provides maximum value for all 
parties.
    I joined MF Global in September 2010 as chief operating 
officer. I was given the additional title of president in March 
2011 and served in that capacity through the bankruptcy filing 
this October. After the filing, the firm's board asked me to 
remain in my position to work with the various trustees and 
administrators to close the firm's operations, which I have 
attempted to do over the last 6 weeks.
    From my perspective, based on what I was able to observe at 
the time, there were a number of factors that led to MF 
Global's demise. First, it appeared that in mid-October of this 
year the market had become increasingly concerned with the 
firm's exposure to European sovereign debt. Second, beginning 
in late October, the ratings agencies rapidly and repeatedly 
downgraded the firm's credit rating. Third, the company 
reported disappointing earnings on October 25. The combination 
of those three events-- increased concern about exposure to 
European sovereign debt, a series of ratings downgrades, and 
disappointing earnings-- created an extremely negative 
perception in the market resulting in a large number of the 
firm's trading and financing counterparts pulling away from MF, 
dramatically reducing the firm's liquidity. That reduction in 
liquidity--a classic run on the bank--led MF Global to attempt 
to sell all or part of the firm in order to provide liquidity 
and protect the interests of our employees, shareholders, 
creditors, and customers. When those efforts failed, MF Global 
filed for bankruptcy on October 31st.
    I know this Committee is interested in finding out what 
amount of segregated client funds went missing in the final 
days, how it happened, where those funds are, and what might 
eventually be returned to the firm's clients. I am deeply 
troubled by the fact that customer funds are missing, and I can 
assure you that I share your interest, and the public's 
interest, in finding out exactly what happened. At this time, 
however, I do not know the answers to those questions. They are 
being investigated by the trustees, who have taken over 
management of MF Global and have control over its records and 
accounts, and a host of regulatory and investigative agencies. 
While I do not know what they have found, I do know that all of 
the parties are working hard to find answers, and I hope they 
are able to get to the bottom of the issue as soon as possible.
    Since the company filed for bankruptcy, I have focused 
every day on minimizing the effect on customers and employees. 
There is no way to turn back time and undo all of the damage 
caused by the collapse of MF Global, but in the last 6 weeks, I 
have worked day and night to reduce costs and maximize the 
remaining value in the business.
    Because MF Global was a global firm, with operations on 
exchanges in more than 70 countries, there are separate 
entities with separate systems and books around the world, and 
I have worked to foster cooperation and communication among 
those entities. There are a number of different parties now 
responsible for unwinding the firm's operations, and it has 
been an enormous effort to coordinate with them to generate the 
maximum possible recovery of assets.
    While it is only a small measure given the number of people 
who have lost their jobs, I am doing whatever I can to help 
former employees find new employment.
    I believe it is important to examine the issues that led to 
MF Global's demise, and the firm has attempted to be as open 
and transparent as possible. I hope I can provide some 
assistance to the committee in its investigation today.
    As I said, there is no way to undo the damage that has been 
done by MF Global's bankruptcy. But it is my hope that efforts 
such as this one to gather facts and provide a clear picture of 
what occurred will assist policymakers, regulators, and 
participants in the financial services industry in avoiding 
such tragic events in the future.
    I look forward to answering your questions.
    [The prepared statement of Mr. Abelow can be found on page 
96 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Steenkamp?

 STATEMENT OF HENRI J. STEENKAMP, CHIEF FINANCIAL OFFICER, MF 
            GLOBAL HOLDINGS LTD., NEW YORK, NEW YORK

    Mr. Steenkamp. Chairwoman Stabenow, Ranking Member Roberts, 
and distinguished members of the Committee, thank you for this 
opportunity to make this brief statement. My name is Henri 
Steenkamp, and I am the chief financial officer of MF Global 
Holdings Limited, a position I have held since April of this 
year.
    Let me say at the outset that I am deeply saddened, upset, 
and frustrated that money belonging to MF Global Inc.'s 
customers has been frozen or is missing. I know, however, that 
my reactions cannot be compared to those of the people who are 
suffering with this issue. Along with certain other senior 
executives of MF Global Holdings Limited, I have remained at my 
post following the bankruptcy filing, and I am working 
diligently to do what I can to maximize the value of the firm 
for all interested parties. That said, because of the SIPC 
trustee's rules and policies, I unfortunately have not been 
able to participate in the current efforts to find the missing 
funds.
    While I am deeply distressed by the fact that customer 
monies have not yet been fully accounted for, I unfortunately 
have limited knowledge of the specific movement of funds at the 
U.S. broker-dealer subsidiary, MF Global Inc., during the last 
2 or 3 hectic business days prior to the bankruptcy filing. 
This is in part because of my global role and in part because, 
during those days, I was taken up with other serious matters.
    As the global CFO, I had many different functions, but 
principal among them was the effort to, one, ensure that the 
holding company's consolidated financial accounts complied with 
all U.S. accounting and reporting requirements; and, two, to 
work closely with our investors and our rating agencies.
    As its name suggests, MF Global Holdings Limited, my 
employer, is a global holding company with approximately 50 
domestic and foreign subsidiaries. Each of the regulated 
subsidiaries generally had its own or a regional chief 
executive officer, chief operating officer, chief financial 
officer, and others obligated to independently discharge the 
customary duties of those offices according to its home 
jurisdiction's regulatory requirements. All of these positions 
were filled by highly experienced professionals. Direct 
involvement with operational matters such as bank accounts or 
fund transfers has never been part of my duties.
    It is, of course, important to understand the way in which 
segregation issues were handled at MF Global Inc., the 
subsidiary that acted as a futures commission merchant in the 
ordinary course of business. To avoid confusion, where it is 
necessary to specifically refer to MF Global Inc., I will call 
it ``MFGI'' in my statement.
    MFGI held all U.S. FCM customer funds required by law to be 
segregated, and all segregation calculations were performed by 
experienced MFGI personnel in Chicago overseen by MFGI finance 
professionals. To my understanding, MFGI's segregation of 
client funds has been reviewed repeatedly by the firm's outside 
auditors and regulators over a long period of time.
    As a general matter, I was not involved with the details of 
the segregated funds in the course of my duties as global CFO, 
nor with the complex segregation calculations performed by MFGI 
in Chicago and reported to regulators on a daily basis.
    The week prior to the bankruptcy filing saw, among other 
things, multiple rating agency downgrades in quick succession, 
extraordinary liquidity stresses, and efforts to sell all or 
part of the firm. It was a time of constant pressure and little 
or no sleep, with a significant number of critical issues to 
resolve.
    As the CFO of the holding company, my attention was 
appropriately focused on crisis management and strategic issues 
relating to the sale of the company. On Monday, October 24th, 
Moody's announced it was downgrading MF Global's credit rating 
by one notch, leaving the firm with the lowest possible 
investment grade rating. This was followed by further 
downgrades throughout the week, the speed and severity of which 
were unprecedented in my experience and placed extraordinary 
pressure on the firm's liquidity.
    As the situation deteriorated, the sale of the FCM business 
and/or the firm was pursued. In between my dialogue with the 
rating agencies, I dedicated my time to the daunting task of 
facilitating the due diligence necessary for an acquisition or 
asset sale almost exclusively in the period commencing on the 
evening of October 27th and ending with the decision to file 
for bankruptcy on the morning of October 31st.
    On Sunday night, October 30th, when a deal for the 
acquisition of all or part of the company appeared to be close 
at hand, I first learned of a serious issue with MFGI's 
segregated fund calculations. Unfortunately, as the Committee 
is aware, the efforts to reconcile segregation calculation were 
not successful, and the deal fell through, and I along with 
others from MF Global promptly notified our regulators about 
the segregation issues.
    I understand that the Committee, MFGI's customers, and the 
public have many unanswered questions about the customer funds. 
I share many of these questions, and I am personally extremely 
frustrated and distressed that they remain outstanding and that 
client funds are missing.
    I would be pleased to answer the Committee's questions. 
Thank you.
    [The prepared statement of Mr. Steenkamp can be found on 
page 151 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    First, for the information of the members, we will be 
breaking, understanding there is business that will be done at 
the caucus lunches, so we will break about 1 o'clock and come 
back at 2:15 to continue. We have much to do today, but we will 
take that opportunity to break.
    First, Mr. Corzine and Mr. Steenkamp, on May 20, 2011, you 
both signed certificates required by Sarbanes-Oxley legislation 
assuring that MF Global's internal controls over financial 
reporting were accurate, and I have copies of that. And I am 
wondering, given what you know today and the $1.2 billion 
potentially in customer funds that are missing, would you sign 
this document again? Mr. Corzine?
    Mr. Corzine. Senator, given what we know today, you would 
not sign that document because you would not have had the 
assurances of the people, the systems, the procedures verified 
by all of those that were responsible for internal confirmation 
that the data was accurate. And, clearly, as has been repeated, 
there is certainly some amount--$1.2 billion or $600 million, 
different numbers--of dollars that are unreconciled with regard 
to segregation accounts.
    Chairwoman Stabenow. Mr. Steenkamp, would you sign this 
document again?
    Mr. Steenkamp. Senator, I think knowing what we know today, 
again, at this point in time, and knowing that there are 
missing customer funds from what we understand, I would not be 
able to sign that. But, you know, prior to this point, there 
were controls that, as far as I was aware, had not operated--
that had not operated before this point in time.
    Chairwoman Stabenow. You know, it is very difficult 
listening to the chief financial officer or the CEO or the COO 
indicating surprise that there were not adequate controls on 
the management of the money. I guess what we heard on the first 
panel was very simple. Where is the money? I mean, how do you 
answer that? Where is the money from funds that were supposed 
to be kept separate, customer money?
    Mr. Steenkamp, as CFO, where is the money?
    Mr. Steenkamp. Senator, unfortunately, I do not know where 
the money is.
    Chairwoman Stabenow. Well, who does?
    Mr. Steenkamp. Well, Senator, part of my job was not to 
approve transfers of client funds. It was not to be involved in 
the process of client funds. Those operational aspects occurred 
at MF Global Inc. as well as at all the other regulated 
entities around the world, and we had experienced senior 
officers executing those operational controls.
    Chairwoman Stabenow. Mr. Corzine, where is the money?
    Mr. Corzine. Senator, enormous numbers of transactions were 
taking place in those very final days--I tried to put that in 
my statement--about the 38,000 customers, the many countries, 
and those need to be parsed through to arrive at an answer. We 
need the facts on that. It is not only from those of us who do 
not see those records, but even from the people who now have 
those records, it is a very, very difficult task.
    Many of us had reasons to believe when we signed statements 
like you presented that we had the people, the policies, and 
the procedures in place to give assurance. We would not have 
signed those on May 20th or other times while we were there if 
we did not feel those were secure. At the time that occurred on 
that Sunday evening, October 30th, it is clear that something 
was amiss, and that needs to be discovered what that was based 
through all of those transactions that I tried to outline.
    Chairwoman Stabenow. Okay. And, Mr. Abelow, for you as 
well, where is the money? We are looking at the top three 
people of the company who are responsible for the overall 
internal controls of this company. And so, Mr. Abelow, where is 
the money?
    Mr. Abelow. Senator, as I said in my statement, I do not 
know where the money is. As of the filing of bankruptcy on 
October 31, investigations were commenced by a number of 
investigative authorities under the direction, presumably, of 
the SIPC trustee who has been put in place, and we have not had 
access to the results of that investigation or any information 
about the status of that investigation.
    I am as anxious as you are to hear the results of that 
investigation and be able to answer the question.
    Chairwoman Stabenow. Well, let me ask, did any of you 
authorize, approve, or know of money transfers from customer 
segregated accounts to the firm's broker-dealer accounts in the 
final days or weeks of MF Global or before then? Mr. Corzine?
    Mr. Corzine. Senator, as I said in my opening remarks, I 
never directed anyone at MF Global to misuse customer funds. I 
never intended to, and as far as I am concerned, I never gave 
instructions that anybody could misconstrue.
    Chairwoman Stabenow. So you are saying you did not 
authorize, approve, or know of fund transfers?
    Mr. Corzine. Well, in a general sense, there are all kinds 
of fund transfers that are taking place. Anytime there is a 
sales of $1.3 billion worth of commercial paper, there will be 
fund transfers associated----
    Chairwoman Stabenow. I am talking about between broker-
dealer accounts, though, and when we are looking at leading 
up--you know what I am asking in terms of the final weeks
    Mr. Corzine. That is why I am trying to be very direct in 
saying there is no direct authorization. I was not aware that 
the unreconciled accounts existed until that Sunday evening 
that we talked about.
    Chairwoman Stabenow. Mr. Abelow, did you authorize, 
approve, or know of money transfers from customer segregated 
accounts to the firm's broker-dealer accounts in the final days 
or weeks of MF Global?
    Mr. Abelow. Senator, to the best of my recollection, I do 
not recall participating in any conversation about the use of 
customer funds, customer segregated funds or assets for any 
purpose other than what they were intended to be used for.
    Chairwoman Stabenow. Mr. Steenkamp?
    Mr. Steenkamp. Senator, I did not authorize, approve, or 
know of any transfers of customer funds for any house or 
broker-dealer purposes.
    Chairwoman Stabenow. Thank you very much.
    Senator Roberts?
    Senator Roberts. Well, thank you, Madam Chairwoman.
    Mr. Abelow, as the COO, the employees responsible for 
executing transfers of money ultimately report to you and you 
report directly to Governor Corzine. Is that correct?
    Mr. Abelow. Senator, I am not sure if you--when you framed 
your question--if you could repeat it for me, I would 
appreciate it.
    Senator Roberts. Well, let me put it another way. Do 
treasury operations and security operations ultimately report 
to you?
    Mr. Abelow. Yes, they did through a chain of authority.
    Senator Roberts. All right. Mr. Steenkamp, as the CFO, did 
MF Global instill internal conduct controls for how and where 
money could be moved?
    Mr. Steenkamp. Yes, there were controls implemented in MF 
Global Inc. and all of our subsidiaries.
    Senator Roberts. Is it possible for those conduct controls 
to be overruled?
    Mr. Steenkamp. To the best of my knowledge, these controls 
were operated and the approvals were resident in the legal 
entities. So I do not believe so, no.
    Senator Roberts. You do not believe that. But is it 
possible?
    Mr. Steenkamp. I would not want to speculate, Senator.
    Senator Roberts. Mr. Abelow and Governor, is it correct 
that at the end of each trading day MF Global, like other FCMs, 
would receive margin calls?
    Mr. Corzine. There was twice-a-day settlements of margin 
calls, if I am aware of how the process goes.
    Senator Roberts. Mr. Abelow?
    Mr. Abelow. I believe it was typical that MF did receive 
margin calls.
    Senator Roberts. Did MF Global receive margin calls or 
other requests for liquidity on Friday, October 28th? For both 
of you, Mr. Abelow and Mr. Corzine--I am sorry. Governor 
Corzine.
    Mr. Corzine. Senator Roberts, I believe there were margin 
calls, as there are on almost every day.
    Senator Roberts. Well, you indicated publicly, I think, 
that $4.5 billion went out the door.
    Mr. Corzine. I have repeatedly said that there was $4.5 
billion worth of U.S. Government agencies sold on that day. 
That was a sale that was designed actually to produce margin 
coming back to the firm as opposed to margin going out the 
firm.
    Senator Roberts. We have heard a lot of 35-cent words being 
tossed around, something called ``rehypothecation.'' That is a 
big word even here in Washington, not to mention Dodge City. We 
may not understand the ins and outs of it, but two things we do 
understand are margin calls and chain of command. We know 
customer money was accounted for on Wednesday, the 26th. 
Friday, the 28th, the firm's cash flow situation was dire, and 
the demands for cash kept coming in.
    Mr. Abelow and Governor, is it the case that MF Global did 
not have enough cash on hand to cover the cash needs that came 
in late Friday?
    Mr. Corzine. Senator, from all reports that I had received, 
to my recollection, on that day we were able to meet our cash 
demands.
    Senator Roberts. Mr. Abelow?
    Mr. Abelow. I do not recall being made aware of our running 
out of cash on Friday, the 28th, of being unable to meet 
obligations.
    Senator Roberts. As a captain in the Marines--and, 
Governor, you were in the Marines--I knew that if a full-bird 
colonel told me to do something, I would probably do it. Now, 
if a two-star general gave me an order, I sure would not ask 
any questions. So could it be possible that one or more of your 
operational money movers who reported to you, Mr. Abelow, and 
you, Governor, was told to cover the liquidity needs or margin 
calls overwhelming the firm's cash flow by taking money out of 
the segregated customer accounts? Governor?
    Mr. Corzine. Senator, I do not believe that anyone would 
operate that way. We had no experience in the 19 months that I 
had been there that anyone had overridden those systems. And so 
I have no reason to believe that occurred in those last hours.
    Senator Roberts. Mr. Abelow?
    Mr. Abelow. Senator, I cannot speculate about conversations 
that I did not see or participate in. I can only tell you that 
I do not recall participating in any conversation about a use 
of customer funds or customer assets other than for their 
intended purposes.
    Senator Roberts. As I stated in my opening remarks, the CME 
knew on or before Wednesday, November 2, that MF Global was 
attempting to hide something. In fact, didn't MF Global 
leadership even go so far as to request and receive an actual 
plan that would break the glass and tap into your customer 
segregated accounts, perhaps described as a loan, if such a 
scenario arose?
    Mr. Corzine. Senator, there certainly were contingency 
plans that I think fall under the rubric that you were talking 
about, break the glass. To my knowledge and understanding of 
that report, it was not ever the intent to recommend tapping 
into segregated customer funds.
    Senator Roberts. Mr. Abelow?
    Mr. Abelow. Senator, I have not reviewed the specific 
document that you are referencing, but my recollection is that 
the key driver of liquidity, source of liquidity under that 
scenario, was the use of a revolving credit facility.
    Senator Roberts. You might want to take a look at it.
    By all accounts, on the Friday before bankruptcy, MF Global 
thought it had found a buyer to save you. It seems well within 
the realm of possibility that, as you put it, Mr. Abelow, a 
classic run on the bank overwhelmed your cash flow, and an 
executive could have communicated somehow an order to use your 
customer segregated funds to cover the firms liquidity crunch, 
thinking that, of course, by Monday morning everything would be 
fine, the company would be bought out, an infusion of money 
from the new owner could replace the missing customer funds.
    Is this plausible? Governor?
    Mr. Corzine. Senator, as in a number of the questions, I 
think I am being asked to speculate--and I really do not--I do 
not really think I should speculate. I had no reason to believe 
until the evening of October 30th that there was a misuse of 
customer funds.
    Senator Roberts. Mr. Abelow?
    Mr. Abelow. Senator, I was shocked to be informed on Sunday 
that there was a----
    Senator Roberts. But is this plausible?
    Mr. Abelow. --potential shortfall in customer funds. I 
cannot speculate beyond that, sir.
    Senator Roberts. Well, if this is not what happened, then 
what did happen? What is your speculation on that?
    Mr. Corzine. Senator, I think speculating is--should be 
done in the context of the facts that are being developed by 
the investigators. As in my oral statement and also in my 
written statement, I have put forward issues about whether 
money was returned properly that should be looked at. I put 
forward transactions that I think would be obvious that people 
should check all the details on. But how I would come to 
conclusion without records, without the ability to go through 
it, is speculative and I think would be inappropriate and could 
be misleading.
    Senator Roberts. Madam Chairman, I am over time, but I 
would like Mr. Abelow to respond. What did happen?
    Chairwoman Stabenow. I would ask you to respond briefly in 
this round.
    Mr. Abelow. Senator, I do not know what happened, and I am 
awaiting the results of the investigation to inform all of us.
    Senator Roberts. Thank you, Madam Chairwoman. I have 
additional questions. We will ask those on the second round.
    Chairwoman Stabenow. We will absolutely have a second 
round, yes.
    Senator Conrad?
    Senator Conrad. Thank you, Madam Chairman.
    You know, as this has unfolded, I have had contacts from my 
home State, several customers, several broker-dealers, one 
missing half a million dollars, and absolutely through no fault 
of their own. And as one tries to kind of pierce the veil here 
and figure out what happened, it is incredibly difficult to do.
    I had a chance to read the lengthy article in the New York 
Times which has some interesting tidbits in it. One is that--I 
have operated under the assumption that these European trades 
on European debt were losing money. The assertion in this 
article is that they made money. The second paragraph from the 
end, ``Ultimately, the bets Corzine placed wound up better than 
the firm itself. The European debt trades were profitable, 
though too late for MF Global.''
    Is that the case, Governor Corzine? Were they profitable 
trades?
    Mr. Corzine. Senator, at the time of the bankruptcy on 
October 30th, they were still positive trades, positive 
positions, but they clearly were a part of the ingredients that 
led to the loss of confidence in the firm. So there are really 
two different issues. I think Mr. Abelow talked about, as I 
think I did in my written testimony, the ingredients that led 
to that loss of confidence, and the foreign sovereign positions 
are certainly part of that process.
    Senator Conrad. Well, that really comports with this 
article. Basically this article says there was a loss of 
confidence. The Moody's downgrade was devastating because that 
affected the firm's liquidity. You have indicated there were 
margin calls, but that was not atypical that you would have 
margin calls in a firm like this. But was the level of margin 
call unusual at the end of that week? That is, were the demands 
on the company for cash at the end of that week extraordinary?
    Mr. Corzine. Senator, to the best of my recollection, there 
were increasing demands for margin in different places. The 
process slowed up in the clearing and movement of transactions, 
but specifics, I would really want to rely on being able to 
look at records to be able to answer with precision.
    Senator Conrad. This article, by the way, suggests that the 
day after the bankruptcy, you, Mr. Corzine, sifted through 
transactions in the hope of locating the missing money. Is that 
the case?
    Mr. Corzine. Senator, to the best of my recall, I sat with 
a group of internal folks who might be able to give me the kind 
of information that I think you would like to get from me today 
to see if we would be able to identify some sources of where 
these missing funds might be.
    Senator Conrad. Is it possible----
    Mr. Corzine. I was stunned, and the first of my knowledge 
of segregated funds being out of reconciliation was that 
evening, on the 30th.
    Senator Conrad. Because you believed that the funds were 
where they were supposed to be. But they were not. So something 
has happened here. I mean, I have heard speculation from people 
who are deeply knowledgeable in this area that money was 
transferred that came from client accounts by somebody's 
authority with the idea that those funds would be made whole 
the following week because the company was owed money that 
would normally come to it in the normal course of business, 
and, of course, when everything went south, funds did not 
transfer money to MF Global that were really due MF Global.
    Do you think it is possible at the end of the day that 
there will be a finding that, in fact, MF Global is owed money 
that will cover the shortfall here?
    Mr. Corzine. Senator, I would respond the way I did to 
Senator Roberts. I think it would be speculative on my account 
to opine about that. As I said in my written and oral 
statements, those are possibilities, but without having the 
ability--probably not even by myself, but by experts--to go 
through some of that, which is exactly what the trustee and 
other investigators are doing, it would be virtually impossible 
to speculate.
    Senator Conrad. Well, at the end of the day, what we know 
is customers are out funds that are due them. You have all 
expressed your regret at that and your sympathy for those who 
have been adversely affected and came across as sincere to me. 
But somehow customer funds were transferred in a way that is 
inappropriate. And in searching your memory now, is there any 
conversation that you were part of that could have been 
misinterpreted by someone to authorize the transfer of customer 
funds to cover margin calls or for any other purpose that was 
not appropriate?
    Mr. Corzine. Senator, I specifically put in my opening 
statement, because I want to be very clear on it, I never 
authorized the misuse of customer funds, I did not intend to 
authorize the misuse of customer funds, and I do not believe 
that it would be possible to construe anything that I said as 
an authorization.
    Senator Conrad. So searching your memory, Mr. Abelow, 
anything that--any conversation you were part of, any 
conversation you know about, any conversation where it could be 
misconstrued, what you said, that would have led somebody to 
believe they should transfer customer funds?
    Mr. Abelow. Senator, I do not recall participating in any 
conversation about the use of segregated funds other than for 
their intended purposes.
    Senator Conrad. You know, in searching your memory, there 
is--you know, you were in a chaotic crisis situation. You do 
not remember a conversation where somebody comes and said, 
``Hey, we could transfer funds from customer accounts and cover 
these when we get the money back on Monday, anyway''?
    Mr. Abelow. Senator, I do not recall any conversation about 
customer funds being used for anything other than their 
intended purposes.
    Senator Conrad. All right.
    Chairwoman Stabenow. Thank you very much.
    Senator Lugar?
    Senator Lugar. Thank you, Madam Chairman.
    We have heard, at least according to my notes, that there 
were as many as 38,000 customers of MF Global, and we discussed 
with the previous panel, who were some of the customers of MF 
Global, or through affiliates were, why they retained this 
affiliation. I am simply curious, because we have heard at 
least some testimony that in April or May there already were 
hints, perhaps because of European bond transactions or other 
investments of MF Global, of anxiety on the part of rating 
agencies. But, in any event, before this crucial weekend in 
October, an actual declaration, apparently, of a downgrade in 
earnings of the firm.
    Our concentration today obviously has been on the 
customers. Many are our constituents who, for the time being, 
had the segregated funds and do not have the money. I raised 
with the previous panel sort of the business judgments which 
led people to want to be affiliated and a customer with your 
firm.
    Was there no early warning that might have led some of them 
to decide to do business with somebody else? It appears to me 
that throughout this period of time there was a considerable 
degree of anxiety in the financial markets about all of this.
    You have testified, Governor Corzine, that the actual 
European bond transactions at the time of the final bankruptcy 
were doing better than some of the other things that you had 
there, but that surely must not have been true throughout the 
entirety of the year. That was your business to try to 
determine how you were going to make money for MF Global. But I 
am just curious. Was any of this transparent? Would any of the 
38,000 customers have some idea about your portfolio, your 
transactions, your movement toward a loss of earnings? Was this 
entirely opaque as far as customers?
    Mr. Corzine. Well, Senator, I really would not be able to 
tell you what kind of credit work an individual customer would 
do or any particular customer. But most of our introducing 
brokers--I think you heard from one this morning, and there 
were many--it was not unique with Advanced--who represented and 
introduced clients to us, certainly they would have the 
capacity to read a 10-K or a 10-Q, the public filings, 
certainly they would have the ability to review credit rating 
agency comments. And as you know, probably know, most public 
companies, ourselves included, had quarterly presentations of 
our earnings--not earinings in our case, I guess our results, 
and those were open to general distribution and understanding 
of what we best understood at the point in time existed. And 
those are pieces of information that are in the public forum on 
a regular basis that certainly sophisticated investors and 
counterparties look to.
    Senator Lugar. Well, many sophisticated investors must have 
come to a conclusion that continuing on with MF Global was not 
a very good idea for themselves or for their customers. But 
perhaps they said even if MF Global goes into bankruptcy, still 
our segregated accounts will be safe, that is simply the law of 
the land and is almost bound to occur. In other words, I am 
just trying to gauge how we reached the situation in which we 
still had the 38,000 customers and we still had the farmers who 
were hoping to hedge and so forth tied up here, because clearly 
the distress today is the overall picture, but specifically 
with people who felt that somehow the law simply would not 
permit this loss, regardless of what happened to you and the 
management of MF Global.
    Now, you are saying essentially all these records were 
there, regular quarterly reports and various other reports, so 
that you were not hiding any transparency of the risks that 
were involved in these kinds of investments, if I hear you 
correctly. Is that your assumption?
    Mr. Corzine. My assumption, Senator, is that we were 
complying with the disclosure requirements, and those are 
reviewed by outside auditors, and they were certainly reviewed, 
I would presume, by the credit rating agencies.
    Senator Lugar. So if I were a broker that was guiding 
customers, farmers, and what have you, in MF Global, I must 
have been a company that really thought there was going to be 
some excitement in terms of the European bond market, and this 
was going to be a money maker, presumably, or certainly not a 
disaster. But I do not know anybody, reading through those 
markets through the last few months, that would have that 
degree of confidence, and the thought that you were so heavily 
involved in it would have led me to a lot of lack of 
confidence, the other way around. In other words, sort of in 
the afterthought, I am not certain why you made these 
investments or why MF Global was so managed but, likewise, how 
the other people were managed who were dealing with you and why 
they continued with you.
    Now, this may be beyond your comprehension likewise, 
although you probably valued having these customers and figured 
they might stick with you because they did not know any better 
or they were speculating along with you, and it turned out the 
speculation was wrong. But at the end of the day, I suppose we 
are at a point--does the Federal Government now have sufficient 
controls, regulations, and so forth on MF Global and firms like 
this or anybody else so that the regular farmer who is trying 
to hedge and sell and so forth is not out of pocket and at 
least has some security? Or maybe this is unobtainable. I am 
hopeful our hearings really lead to a situation where we think 
of what kind of legislation or what kind of administrative 
fixes are required really to remedy the situation.
    Thank you, Madam Chairman.
    Chairwoman Stabenow. Thank you very much.
    Just to let the members know, we will turn to Senator 
Klobuchar now, and then Senator Chambliss, and then we will 
break until 2:15. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Chairman Stabenow. 
Thank you all for being here.
    Thank you to Mr. Tofteland I was not here for the end of 
your testimony--for your work from Luverne, Minnesota.
    Mr. Corzine, it is being widely speculated that in the days 
before MF Global declared bankruptcy, your firm shifted funds 
from segregated accounts to the broker-dealer side of the 
business. In his testimony before the House last week and in 
his written testimony for today's hearing, Mr. Terrence Duffy, 
the executive chairman of CME Group, asserts that at about 2:00 
a.m. on Monday, October 31st, MF Global informed the CFTC and 
CME that customer money had, in fact, been transferred out of 
segregation to the firm's broker-dealer account. Do these 
details match your recollection of what was conveyed to the 
CFTC and CME early that Monday morning?
    Mr. Corzine. Senator, the general description that Mr. 
Duffy talked about on the issues of October 31st are 
consistent.
    Senator Klobuchar. Okay. To your knowledge, did MF Global 
shift any funds out of the segregated accounts to the broker-
dealer side of your business or to pay any outstanding 
obligations?
    Mr. Corzine. Senator, as I have said in written testimony 
and here again this morning, until the evening-- late evening, 
actually--of October 30th, I was not aware of this unreconciled 
amount in the segregated accounts.
    Senator Klobuchar. Okay. Mr. Corzine, none of the foreign 
debt securities that MF Global used to engage in the repo-to-
maturity transactions have defaulted. By your own admission, 
these positions played a major role in the loss of market 
confidence that led to the failure of the firm. In exploring 
the role these trades played in the collapse of MF Global, many 
have raised concerns over the accounting rules that allowed you 
to treat RTM positions in foreign sovereign debt as sales 
rather than financings, effectively removing them from the 
balance sheet.
    You said in your testimony that these positions were 
publicly disclosed but not on your balance sheet. Is that 
right?
    Mr. Corzine. That is correct, Senator.
    Senator Klobuchar. And do you believe that we should re-
examine the accounting treatment of repo-to-maturity 
transactions?
    Mr. Corzine. Well, to the extent that people believe that 
the disclosures that we made were not adequate, and they 
believe that more disclosure is better, that certainly should 
be considered. I think I am probably not the one to speak to 
this. The issue of--I am certainly not an accounting expert. 
The issues of off-balance-sheet questions are very challenging 
for those who make rules in accounting, the accounting rules. 
And this is one of those that I think should be reviewed as 
should all----
    Senator Klobuchar. It just seems that more transparency 
here would have been a good thing, and we are always hearing 
about, no, this will hurt if we do this, if we do that. And in 
this case, you had something that was somewhere off in a 
footnote where I do not think Mr. Tofteland of Luverne could 
have found it. And so I am just trying to figure out how we 
make this better going forward in addition to finding this 
money.
    Mr. Corzine. It was in the 10-Ks, the disclosure with 
regard to this. It was discussed with analysts and, if my 
memory serves me correctly, is in some of the credit write ups 
from the rating agencies.
    Senator Klobuchar. Okay. Mr. Abelow, the role and 
responsibility of the COO can vary dramatically between 
businesses, so could you discuss for us your role at MF Global 
and who to your knowledge, to get to the specifics, had the 
authority at MF Global to move funds from segregated accounts?
    Mr. Abelow. Yes, Senator. My role as chief operating 
officer and president were to oversee the daily execution of 
the firm's strategy, to focus on various elements of the firm's 
strategic plan, and I had oversight responsibilities for a 
number of operating areas of the firm.
    I am sorry. As to the second part of your question----
    Senator Klobuchar. Who had the authority at the firm to 
move funds from the segregated accounts? I think it is a theme 
you are hearing here. We are trying to figure out where did the 
money go.
    Mr. Abelow. My apologies.
    Senator Klobuchar. No one seems to know.
    Mr. Abelow. And, again, Senator, I am not aware of any 
conversations about the movement of segregated funds other than 
for their intended purposes, and a number of people inside the 
firm--in operations, in treasury, in compliance, and other 
areas--were involved in the daily movement of funds on a 
regular basis.
    Senator Klobuchar. Well, in the days leading up to Sunday 
when it was discovered that the funds were missing, were you 
involved in discussions about actions being taken to ensure 
that your FCM business did not become under-segregated?
    Mr. Abelow. I do not recall specific conversations about 
actions for it to not become under-segregated. I do not recall 
a specific conversation about that.
    Senator Klobuchar. Okay. Mr. Steenkamp, I am assuming when 
you heard there was a shortfall in the funds, as CFO you 
immediately went looking for answers. What did you find?
    Mr. Steenkamp. Senator, the first time I found out about 
the segregation was on the Sunday, and we found out pretty late 
on the Sunday night. I was informed that there is an issue with 
the segregation calculation, that the assets are less than the 
liabilities. And as I mentioned in my statement, following that 
we informed the regulators very shortly thereafter. My initial 
reaction was absolute shock. As far as I am aware, we had never 
had issues with segregation in the past, and it was something 
that was completely unexpected.
    Senator Klobuchar. And so then what did you do? You went to 
try to find the money?
    Mr. Steenkamp. Well, it was late Sunday evening, and so at 
that point we were about to execute the deal for an acquisition 
of part of the firm. My first response was once we had taken a 
short while to see if we could try and reconcile it before our 
deadline late Sunday night, once we knew that we would not find 
an answer this evening, we notified the regulators.
    Senator Klobuchar. Very good. And did you see the testimony 
of Mr. Duffy with CME and what he was saying about the timing? 
I can read it to you again if you would like, where he said at 
about 2:00 a.m. on Monday, October 31st, MF Global informed the 
CFTC and CME that customer money had, in fact, been transferred 
out of segregation to the firm's broker-dealer account. And so 
is that your recollection of the timing of this?
    Mr. Steenkamp. Yes, from my recollection, it was very, very 
early Monday morning when we were on the phone with the 
regulators. That sounds consistent.
    Senator Klobuchar. All right. Thank you very much.
    Chairwoman Stabenow. Thank you.
    Senator Chambliss?
    Senator Chambliss. Thanks very much, Madam Chair.
    I have listened to your answers very carefully, and I want 
to make sure that I get a direct answer to this.
    Governor Corzine, did you understand that MF Global was 
using customer funds to carry out proprietary transactions on 
behalf of MF Global?
    Mr. Corzine. Senator, I was not aware of the misuse of 
customer funds, and I have said that, certainly did not 
authorize it, did not intend to have it happen, and until that 
Sunday evening, was not aware of it.
    Senator Chambliss. I understand that is what you said 
earlier, but my question is--well, let me frame it a little 
differently. Would the use of your customers' funds to engage 
in proprietary trades on behalf of MF Global have been illegal, 
as far as you are concerned?
    Mr. Corzine. Well, first of all, it is actually more 
complicated. It gets into this Rule 1.25 and the repurchase 
agreements between entities. As long as the securities that 
were a part of that repurchase agreement between the entities, 
that would be appropriate. It would not be a misuse of customer 
funds.
    For instance, if you had treasury bills and you did a repo 
to the FCM from the broker-dealer, that would be appropriate. 
If you did it for euro sovereigns, that would not be.
    Senator Chambliss. Okay. And that is a generally accepted 
practice in the industry, is it not, to----
    Mr. Corzine. The Rule 1.25, which I think I heard Senator 
Harkin actually read from, is very specific about what can be 
invested with segregated funds, and any of the repurchase 
agreements that could occur between the entities have to be in 
1.25-eligible securities. They cannot be in things that did not 
already meet that criteria.
    Senator Chambliss. Okay. But you knew customer funds were 
being used for that type of activity.
    Mr. Corzine. For Rule 1.25-eligible----
    Senator Chambliss. Right, yes. You know customer funds were 
being used for----
    Mr. Corzine. That--yes.
    Senator Chambliss. --what you thought was a correct use----
    Mr. Corzine. Correct use.
    Senator Chambliss. --of investing customer funds.
    So were you aware that margin calls were being made on a 
regular basis just prior to--or towards the middle or the end 
of October on the sovereign debt investments?
    Mr. Corzine. The sovereign debt investments are in the 
broker-dealer and were not a part of the FCM. And the answer to 
your question is yes.
    Senator Chambliss. So where did you think the money came 
from?
    Mr. Corzine. We run liquidity positions, and as I think I 
heard Mr. Abelow say, we also had access to draws against our 
liquidity lines with the banks.
    Senator Chambliss. Okay. Mr. Steenkamp, you as the CFO, I 
assume, review the financial condition of the company on a 
regular and daily basis?
    Mr. Steenkamp. As CFO of the Global Holding Company, I 
would review the consolidated financial statements and 
financial condition. And I think as I mentioned in my 
statement, we have various regulated subsidiaries around the 
world that have various rules and regulations under the 
specific jurisdictions that they operate in. And with regards 
to the financial condition and operations of those entities, I 
would receive exception reporting and escalation notification 
as issues arose from the finance and other offices in those 
entities.
    Senator Chambliss. So were you aware within the, let us 
say, 2 weeks leading up to October 31 that regular margin calls 
were being made against one of the subsidiaries for the foreign 
debt investments?
    Mr. Steenkamp. Senator, I was aware on occasions that there 
were margin calls made as variation margin, and at times 
initial margin changes occurred related to those positions.
    Senator Chambliss. Okay. And as the chief financial officer 
of the company, where did you think the money was coming from 
to meet those margin calls?
    Mr. Steenkamp. Well, Senator, as a global firm, we had some 
house money that we had raised over time that we could use for 
liquidity, and in addition, we also drew down, as Mr. Abelow 
and Mr. Corzine mentioned, on the revolving credit facility, 
which was a liquidity facility available to us to meet 
liquidity needs as they arose.
    Senator Chambliss. And did you not check to see where the 
significant dollar amount of margin calls was actually coming 
from, what account?
    Mr. Steenkamp. Senator, I would not have checked the exact 
account that it would be coming from, but with regards to 
clients, you know, whether it would be coming from the client 
side, there were controls, for example, back-end controls being 
individual segregation calculations, that had never indicated 
any issues. So there was no indication for me that it would be 
coming from client accounts.
    Senator Chambliss. Okay. Governor Corzine, if I understand 
it correctly, in order to reach into a customer's account and 
to meet the margin calls on the sovereign debt investments, you 
would have to actually go out of one company into another 
company?
    Mr. Corzine. Well, Senator, you would not meet margin calls 
for our broker-dealer by reaching into the FCM customer funds.
    Senator Chambliss. Well, then, my question is: How did that 
happen? How did somebody reach into the segregated accounts and 
transfer money out of those to do something with it that they 
should not have done?
    Mr. Corzine. Senator, I do not want to repeat, and I know 
that it is frustrating but it would be speculative on my part 
to say that. I did lay out some flows of transactions and kinds 
of occurrences that need to be established by the facts of 
looking through all of these records, and that is what I think 
the trustee and the other investigators are now doing.
    Senator Chambliss. So is that kind of the guts of where we 
are with MF Global right now, is trying to figure out who 
transferred the money and who authorized the transfer of that 
money out of the segregated accounts?
    Mr. Corzine. I think it is now in the fact discovery stage 
of where the flows of money took place, and when those then are 
established, then you can follow that back to, I presume, how 
it was authorized.
    Senator Chambliss. Madam Chair, I know I am over my time, 
but since I am last, can I ask one more question that I think 
will generate a quick answer.
    Chairwoman Stabenow. Please proceed.
    Senator Chambliss. So am I to understand--and I would like 
all three of you to answer this--did any of you know that this 
money was being transferred out of the segregated accounts?
    Mr. Corzine. Senator, as I said in all of my testimony, 
until that Sunday evening I was not aware that there was a 
misuse of customer funds.
    Senator Chambliss. Mr. Abelow?
    Mr. Abelow. Senator, I as well was shocked to learn on 
Sunday that we had the potential deficit in our segregated 
funds.
    Senator Chambliss. Mr. Steenkamp?
    Mr. Steenkamp. Senator, I had no knowledge that customer 
funds were transferred into the broker-dealer until that Sunday 
evening when we were notified.
    Senator Chambliss. Thank you.
    Chairwoman Stabenow. Thank you very much. We will reconvene 
at 1:15. I will indicate that we are going to do the third 
panel. We know this is a long day, but this is a very, very 
important subject, and we appreciate all of you remaining with 
us.
    With that, the Committee stands in recess until 2:15.
    [Whereupon, at 1:00 p.m., the Committee recessed, to 
reconvene at 2:15 p.m., this same day.]
    AFTERNOON SESSION [2:24 p.m.]
    Chairwoman Stabenow. The Committee will come to order. We 
thank you very much for continuing with us here in this very, 
very important time and hearing, and we will now turn to 
Senator Bennet for his questioning.
    Senator Bennet. Thank you, Madam Chair. Thank you for this 
holding, and thank you to the witnesses for being here today.
    At the risk of eliciting an answer we have had already, 
which is not going to help anybody here, I wanted to try to ask 
it this way: The testimony, Governor and gentlemen, has been 
that the controls were set up to segregate the funds and that 
you certified to such--I am sorry for putting words in your 
mouth, but in the interest of time--that nobody ever--none of 
the people on this panel ever authorized any misuse of that 
money or that it should not be segregated. Yet between $600 
million and $1.2 billion is somewhere missing.
    Is the impression that we should take that if somebody had 
checked 10 days before this happened that there would not have 
been commingling and that something happened during the weekend 
of all of that stress that may have resulted in this? Is that 
an impression we are supposed to have here?
    Mr. Corzine. Senator, I will take a first run at it. I 
think each of us have different perspectives.
    If that had been the case 10 days before, under the 
policies and procedures it would have been raised certainly to, 
I think, each of our offices, unless it was a minor--and $600 
million is not minor, $100 million would not be minor--element 
with regard to segregated funds. And that was not the case, and 
we have to report every day, I think both to the CFTC and the 
CME. So that would, I think, deal with the first part of your 
question.
    The second, I think you are going to hear speculation again 
on the multiplicity of transactions in accounts, at least that 
is what you will hear from me because I would not know what 
those transactions were, would have expected at the end of the 
day, if there was unreconciled segregated accounts, that it 
would get raised up again.
    Senator Bennet. Do either of you have anything you would 
like to add?
    Governor, just on that point, your testimony at the 
beginning of the hearing, as I understood it, was that some of 
the final trades that were made, the firm or your still have 
not seen the settlement, that we do not know at what price or 
how they were recorded? Or did I misunderstand what you were 
saying?
    Mr. Corzine. Senator, the prices were set. I do not recall 
those prices. I do not have records of them. But the particular 
transactions that I cited in my oral testimony--I think there 
are actually some more cited in my written--were the $1.3 
billion commercial paper, which was a transaction that was done 
for immediate settlement, cash settlement on Thursday, and then 
there were $4.5 billion worth of Federal Government agencies 
that were transacted for cash or immediate settlement on 
Friday. The prices of those are in the books and records, and 
while I do not know the ultimate disposition of those, they 
certainly are places one might want to check.
    Senator Bennet. Right. So I guess the point is that we do 
not ultimately--we do not yet know what the proceeds of some of 
those transactions were. Is that----
    Mr. Corzine. We had anticipations of what those proceeds 
would be based on the prices the securities were transacted at.
    Senator Bennet. Thank you. I wanted to shift gears a little 
bit and ask a question that was raised in both the New York 
Times and the Wall Street Journal, who reported that MF 
Global's former chief risk officer, Michael Roseman, sought to 
warn the company and its board about the firm's growing 
exposure to European sovereign debt, and the suggestion in the 
articles is that in January of this year, the firm let Mr. 
Roseman know that he was being replaced as the chief risk 
officer.
    Could you discuss from your point of view how the firm's 
audit committee process addressed concerns that its chief risk 
officer raised? And looking back on this, how would you have 
improved, if you feel it needed improvement, internal processes 
when you received these types of warnings from somebody like 
your chief risk officer?
    Mr. Corzine. Senator, the context and open discussion that 
Mr. Roseman had with the board--and I presume the audit 
committee, although I do not have my calendars to confirm that; 
we encouraged people to be able to speak their minds-- was in 
the context of asking for increased limits roughly this time a 
year ago, maybe in December. Again, without records, I cannot 
be precise with regard to those recollections. And there were 
full discussions with the board about the point of view that he 
would have expressed, and that was in the context of not just 
sovereigns but exposures that we had to those countries with 
clients that were involved in the limit structure, as well as 
investments that we might have in other parts of the global 
operations.
    Senator Bennet. A judgment is a judgment, but that is not 
what I am trying to litigate here. I just wonder whether, for 
the benefit of our oversight, there were other processes that 
could have been put in place or--just with the benefit of 
hindsight.
    Mr. Corzine. Well, clearly with the benefit of hindsight, 
there would not have been as much long-term reflection on the 
firm that came to pass in October if there were no euro 
sovereign positions. I am not trying to deny reality. On the 
other hand, first of all, the situation was entirely different 
from the perspective of the world certainly a year ago than it 
was at the end of October. And we encouraged the kind of 
discussion and debate at the board level, and it was my view 
that I should advocate for what I thought, based on the best 
analysis that I could make of what was the right direction for 
the firm to take on these issues that were different than Mr. 
Roseman's views.
    Senator Bennet. Thank you. I am out of time, but I 
appreciate your responding to the questions, and, Madam Chair, 
thanks again for holding this hearing.
    Chairwoman Stabenow. Thank you very much.
    Senator Johanns?
    Senator Johanns. Madam Chair, let me also say thanks for 
holding the hearing. It has been very informative.
    Mr. Steenkamp, let me start with you. You have been sitting 
through the testimony not called upon very much. You have heard 
the other two gentlemen testify. Is there anything in their 
testimony that you consider not accurate, first of all?
    Mr. Steenkamp. Senator, it is tough to recollect and 
comment on every single comment made here, but I would say in 
general it is accurate with my recollections of events as 
described, albeit, as I mentioned, I only became CFO in April 
of this year and so some of the events, you know, did precede 
that.
    Senator Johanns. Is there anything about their testimony 
that you feel is not a full disclosure and you feel a need to 
tell the Committee more fully what happened?
    Mr. Steenkamp. Nothing I guess specific to the best of my 
ability jumps out at the moment.
    Senator Johanns. Mr. Steenkamp, I was reviewing your bio in 
preparation for this hearing: post-graduate honors in finance, 
bachelor's degree. Were you top of your class?
    Mr. Steenkamp. I believe I was in the top three of my 
class.
    Senator Johanns. Suffice it to say you are a very bright 
guy. You started your career in audit practice. You assisted 
clients in the SEC registration process, listing on exchanges 
in the United States. We would all stipulate that is enormously 
complex work, work that most people could not perform. You were 
vice president of external reporting and accounting policy. You 
were senior vice president, chief accounting officer, global 
controller--a remarkable resume. Wouldn't you agree with me?
    Mr. Steenkamp. Well, I guess that is not for me to judge.
    Senator Johanns. What was your compensation package when 
you joined MF Global?
    Mr. Steenkamp. Off the top of my head--and I do not have 
that information with me--I believe my starting salary was 
somewhere in the region of 200 or 250.
    Senator Johanns. And I am assuming there were options or 
bonuses that plussed that up. Would that be correct?
    Mr. Steenkamp. No. When I joined the firm, it was not yet a 
public company.
    Senator Johanns. Okay. Last year, what was your 
compensation?
    Mr. Steenkamp. Again, off the top of my head, I believe my 
salary as of April when I became CFO was set at $500,000, and 
it is all public record.
    Senator Johanns. Now, during the time that you were there, 
did you keep a diary or take notes during these meetings or e-
mail?
    Mr. Steenkamp. Generally in meetings I do not take copious 
notes although I do at times have notes that are on 
presentations or various materials if we are in a meeting and 
we are going through something specific with an agenda. But I 
would not say I have a standard way of doing it.
    Senator Johanns. Have you turned those notes or documents 
over to the Committee?
    Mr. Steenkamp. I am not sure what from a legal perspective 
has been turned over or not. I know that we have, you know, 
followed--the firm has ownership of all my work materials.
    Senator Johanns. Now, my understanding is that there would 
be separate accounts or a separate account maintained for 
consumer funds, segregated accounts. Is that correct?
    Mr. Steenkamp. It obviously differs depending upon which 
jurisdiction you are in, so, you know, each regulated entity, 
as I mentioned earlier in my statement, had very unique rules 
and regulations that governed how every facet of the business 
is run.
    With regards to MF Global Inc., there are segregated bank 
accounts, I believe, that are held. As I mentioned earlier, 
though, similar to all of the entities, this is managed by 
those senior officers in those entities from an operational 
perspective.
    Senator Johanns. Right. So you have got those separate 
accounts, all the poor people that were here that have been 
beat up by MF Global, thought they had their money in 
segregated accounts. How would that money--who had authority to 
say take money out of this account and put it at risk for 
whatever investment? Who in the organization by name would sign 
off on that? Would you sign off on that?
    Mr. Steenkamp. No, I would not sign off on client 
transfers.
    Senator Johanns. When did you first learn of that?
    Mr. Steenkamp. The first time I learned of it was on the 
Sunday, and as I mentioned, you know, as far as I am aware, we 
had never had any issues with segregation--any segregation 
issues of client balances. And so it came as an absolute shock 
to us that there would actually be an issue. These are also--
this is also a process and controls that have been reviewed and 
assessed over many years by our regulators and our auditors, 
and at not point that I am aware of had there ever been any 
issues with regards to it.
    Senator Johanns. Now, having been the head of a very large 
organization myself, when I would have learned of something 
like that, I would have asked a question like: ``Who was the 
fool who did that?'' Did you ask that kind of question?
    Mr. Steenkamp. So, Senator, as you know, during those 
couple of days and the weekend, we were working around the 
clock on numerous different things. When we found out about it 
and were notified that there is an issue with the segregated 
monies, it was late on Sunday evening. At that point we--you 
know, it is such a shock that there might be an issue with it. 
The original thought was it has just got to be a reconciliation 
issue. And so we had a group immediately try and just reconcile 
the segregation calculation. The calculation is not actually, 
you know, bank accounts in that it is an actual calculation 
which is very complex in nature and involves a lot of people 
which then determines whether assets exceed liabilities. We 
immediately had a team, a SWAT team, spend time on the 
calculation and try and see where the reconciliation was. That 
went on for a couple hours. And then it was, you know, at that 
point in time, not being able to resolve the segregation issue, 
we had to let the buyers as part of the acquisition know and 
inform the regulators immediately.
    Senator Johanns. Madam Chair, I have run out of time, but I 
will stick around for the second round.
    Chairwoman Stabenow. Thank you very much.
    Senator Nelson?
    Senator Nelson. Thank you, Madam Chair, for holding this 
hearing. I am going to read just a couple of lines from letters 
that I have gotten from Nebraskans.
    ``I operate a grain business in Nebraska, and part of my 
business is buying and selling grains from farmers that I hedge 
in the futures markets, principally at CME. Recently, a major 
FCM whom we use, MF Global, filed for bankruptcy.'' It goes on 
to say, ``How am I going to get my money back?''
    Another one: ``Dear Senator Nelson: I am an attorney in 
Nebraska. I represent a number of people and entities who have 
commodity trading accounts associated with MF Global.'' It goes 
on to talk about the money not being available. ``When will it 
come back?''
    Another one who says, ``My farm hedging account has been 
going through MF Global. When I heard that they were downgraded 
to junk, I asked for my $75,000 from my excess margin accounts. 
I received a check, deposited it, and then it was returned. In 
the meantime, they declared bankruptcy. Now I have a worthless 
check, and my account balance is short by $75,000.''
    I am sure that you have all heard similar sad stories of 
this kind. You are aware of what the consequences are for 
people if they are short on their accounts that they thought 
were secure, not expecting to have them have any-- those 
accounts have any risk other than what market risk they were 
taking, but they did not expect to have a disappearance risk.
    So when your team took over, the company was largely a 
brokerage firm, did not regulate trade in sovereign debt for 
its own profit, and at least not in the manner that ultimately 
you did.
    I guess my first question is: Why did you feel the need to 
enter into large trading positions that the company had 
previously never taken? And do you think that trading the 
firm's capital in this manner was appropriate and expected by 
shareholders? We are not talking about account holders. We are 
talking about shareholders in the first case.
    Mr. Corzine. Senator, just for a matter of clarification, 
we run a very--we ran a very global organization with one of 
our largest centers of operations in London which was an active 
participant in the euro sovereign markets before--maybe not 
before Mr. Steenkamp, but before I joined, and my colleague. In 
fact, I think in my written testimony I talked about there were 
positions larger than actually we ended up having. Now, they 
were not in the repo-to-maturity category, which we had 
actually had longstanding positions in our U.S. subsidiary with 
regard to U.S. treasuries, U.S. agencies, and U.S. corporate 
securities.
    The genesis of this transaction was our examining as a firm 
ideas that we thought were applicable, appropriate, prudent, 
and I became convinced and became the primary advocate of these 
positions. I do not want to dislodge any responsibility on 
that, but it was consistent with kinds of transactions we had 
taken on at other periods of time.
    I will repeat, though, these were in our broker-dealer 
operations, not in our FCM.
    Senator Nelson. Right. Now, Mr. Steenkamp, you have some 
knowledge, as you have indicated, of what the internal controls 
were. Were the internal controls adequate to deal with the 
transactions that were undertaken previously and most 
currently?
    Mr. Steenkamp. Well, Senator, the controls are obviously 
across various functions. As global----
    Senator Nelson. Excuse me. For each function, do you think 
the controls were adequate to deal with each different kind of 
transaction?
    Mr. Steenkamp. Senator, that is very broad in the sense 
that you would always in any organization have controls that 
there are deficiencies or items that come up from internal 
audit's reviews and other auditors, et cetera, that you then 
work on and you improve.
    I think, you know, with regards to the controls specific to 
the customer money--that is, within MF Global Inc., as I had 
mentioned--those controls had never in the past indicated any 
issue with regards to that, despite going through numerous 
reviews from the external and internal----
    Senator Nelson. Well, wouldn't you think--excuse me. 
Wouldn't you think that controls like that would be adequate to 
at least set off an alarm if somebody was now taking money out 
of those accounts? Not out of the company's accounts but out of 
those account holders' accounts?
    Mr. Steenkamp. Well, sort of the control that we had relied 
on as a back-end control was the segregation calculation.
    Senator Nelson. Yes.
    Mr. Steenkamp. Which normally was prepared on a Monday with 
regards to the Friday and provided to the regulators. That was 
a calculation which, you know, was escalated to me as we 
discussed with the other Senator on Sunday evening.
    Senator Nelson. Well, if the money is missing, it is not 
automatic that there was a violation of any law or that 
somebody is engaged in any criminal activity. On the other 
hand, the money is missing, and when it is missing, one does 
not know whether there is absconding with some money. But 
wouldn't the controls be such that you would be able to know 
whether it is just money missing or whether somebody has 
accessed the money?
    Mr. Steenkamp. Senator, it is difficult for me to answer 
that because, unfortunately, at the moment I do not yet as we 
sit here know what went wrong, so it is hard for me to be able 
to--I do not know which control went wrong. I do not know, you 
know, where, I guess, the apparent breakdown occurred to be 
able to answer.
    Senator Nelson. But it would have to be some of a breakdown 
if the controls are set in place so that this should not 
happen. Nothing is perfect, I understand, but if it breaks 
down, it is either because somebody intended to break it down 
or because it was inadequate. Is that accurate?
    Mr. Steenkamp. Senator, not knowing what happened, it--I 
apologize. It is hard for me to answer, you know, whether it 
was a breakdown, whether it was a willful action. It is hard 
for me to answer.
    Senator Nelson. In your opinion, will the investigation be 
able to determine ultimately which is the case?
    Mr. Steenkamp. I truly, truly hope so.
    Senator Nelson. Okay. Thank you, Madam Chairman.
    Chairwoman Stabenow. Thank you.
    Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman.
    Mr. Corzine, how could the customer accounts be short if 
there were not transfers to the company accounts for the use of 
the company? How else could they be short?
    Mr. Corzine. Well, again, I want to stay away from as much 
speculation as I can, but we have customers also withdrawing 
funds from the firm. There are all kinds of transactions 
associated with that at this moment in time. There are 
possibilities in this repurchase agreement, the proper use of 
Rule 1.25 investments of repurchase agreements between the FCM 
and the broker-dealer that could have broken down.
    I think I indicated in my written testimony and again this 
morning the commercial paper. The $1.3 billion commercial paper 
that was sold on Thursday was Rule 1.25-eligible securities, 
properly available for offsetting segregated account monies. 
And when those are sold, then there is always the possibility 
of other failures to deliver, funds not crossing appropriately.
    Senator Hoeven. Aren't you required to have controls in 
place that prevent the use of customer funds by the firm for 
benefit of the firm and that properly account for these 
transactions you just described? Aren't you required to have a 
system and controls to cover those issues?
    Mr. Corzine. Senator, the short answer is yes, but I want 
to make clear that there are investments that can be made of 
customer segregated funds in the Rule 1.25-eligible securities. 
And when you transact in those, there is always a chance of 
operational breakdown. And I could not speculate whether that 
happened or did not happen unless I looked at the records.
    Senator Hoeven. But you are responsible to have controls in 
place to properly account for that, track that, and report 
that. As the CEO aren't you required to certify that you have 
those types of systems?
    Mr. Corzine. Senator, in all cases--I think Senator 
Stabenow brought forth our signatures on the verification with 
regard to Sarbanes-Oxley on the end of quarter of March--our 
fiscal fourth quarter in March 31, 2011, and those controls 
have to be verified both by internal auditors and on an annual 
report have to be certified by external auditors, so the answer 
is yes.
    Senator Hoeven. All right. And if those systems are in 
place and they are not adequate to do what they are designed to 
do, then when you are investing firm money in foreign bond 
currency transactions or bonds denominated in foreign currency, 
aren't you in essence speculating with customer dollars if 
those controls are not accurate and you do not make sure that 
those controls are accurate?
    Mr. Corzine. Senator, I do not have access to the records, 
so I cannot be absolutely certain, but none of us, I would 
think, would argue that we were using FCM, futures commission 
merchant, money for the purposes of investing in the foreign 
sovereigns. It was not an eligible security for client 
segregated funds. These positions had been in place many, many 
months through periods of time when we had gone through the 
process that you asked me to verify existed. And so I think 
there is reason to draw the conclusion that the foreign 
sovereigns that are talked about involved in the RTM situation 
were not in any identifiable way mixed up with FCM customer 
money.
    Senator Hoeven. You had a responsibility to maintain those 
systems so that customer dollars were not used in firm 
investments where you took a leveraged and, in fact, 
speculative position. You also had a responsibility to make 
sure that customer dollars were not transferred to or for use 
of the firm. But, clearly, one of those two happened, or the 
customer accounts would not be short.
    Mr. Corzine. I just want to say again what I said to 
Senator Chambliss before the break, that--and I think we can 
verify this from others. Rule 1.25-eligible investments of 
customer money is appropriate with regard to those segregated 
funds. And----
    Senator Hoeven. If they directed funds----
    Mr. Corzine. --euro sovereigns do not fit----
    Senator Hoeven. --be used in that way and--if they directed 
that the funds be used in that way, and if they did so, those 
are not the dollars they are short. The dollars they are short 
were either moved out of their account for benefit of the firm, 
or you have got an accounting error, and you have a 
responsibility to make sure you have an accounting system that 
properly segregates those dollars.
    Mr. Corzine. As I said in my oral statement, as I said in 
my written statement, there could have been breakdowns in those 
systems. We believed we had the people, the procedures, the 
policies in place to protect client segregated funds.
    Senator Hoeven. What is your responsibility to recover 
those lost customer funds?
    Mr. Corzine. My responsibility is to allow for the facts to 
be developed that find where that money has gone, just as it 
would be for any of us. I actually have no authority with 
regard to MF Global or the trustee today, but I believe that 
the trustee and the other investigations that are ongoing will 
be able to discover where that money went.
    Senator Hoeven. Is it your belief that we will recover the 
balance of those customer funds?
    Mr. Corzine. I am hopeful, Senator. I note the Friday 
activities that were in the bankruptcy court that, according to 
the representations I know about, get to 72-percent recovery 
for clients. I think I read that there are additional hundreds 
of millions of dollars held back and that there is identified 
customer money in London. So I am hopeful. I am not involved in 
that process. I think it was all of our expectations that we 
were not out of balance until we were all informed that Sunday 
evening that we were. And so I will repeat: I am hopeful that 
there will be full recovery very quickly.
    Senator Hoeven. And you would acknowledge you have a 
responsibility to cover those funds?
    Chairwoman Stabenow. We need to make this quick at this 
point. We will have another round, and so if you would like to 
quickly answer that.
    Mr. Corzine. Senator, I can only be hopeful, since I am not 
in--I now have no operating authority with regard to that. I am 
trying to cooperate, as I sit here today, as I have with other 
hearings.
    Chairwoman Stabenow. Thank you very much.
    Senator Grassley?
    Senator Grassley. Thank you. I have a short statement, and 
then I have a couple questions for Mr. Corzine.
    Now, you have all been asked repeatedly today about where 
the money went and whether you authorized the transfer of funds 
out of the segregated customer accounts. I share my colleagues' 
interest in finding answers to these questions.
    I am baffled that the top three executives of the company 
cannot answer basic questions about what happened to the 
customers' money. Your supposed lack of knowledge as to what 
happened inside the walls of MF Global is alarming. I want 
answers and Iowa farmers want answers on where the customers' 
money went.
    I am not going to belabor the point by asking where the 
money went. It is apparent that none of you are able or willing 
to offer an explanation today. I guess we will just have to see 
what we learn through the ongoing investigation and any 
subsequent proceedings.
    Now, Mr. Corzine, I have some questions regarding some of 
the interactions with regulators at the time of MF Global. It 
has been reported that you were not required to retake your 
Series 7 or Series 24 exams before assuming your role at MF 
Global. FINRA requires investment professionals to retake these 
tests if they have been out of the industry for 2 years. 
Despite the fact that you had been out of the financial 
services industry for 11 years, FINRA gave you a waiver, and 
you did not take these tests.
    Did you seek a waiver from FINRA so that you would not have 
to retake your Series 7 and Series 24 tests?
    Mr. Corzine. To my recollection, Senator, my legal counsel 
made that request.
    Senator Grassley. So through your----
    Mr. Corzine. General counsel.
    Senator Grassley. So through your legal counsel you were 
granted the waiver?
    Mr. Corzine. Yes, Senator.
    Senator Grassley. On this request to FINRA.
    Mr. Corzine. That is my understanding.
    Senator Grassley. Okay. Now, another question. Trying to 
figure out how much involvement Chairman Gensler had in the 
early stages of the MF Global problems, I have this question. 
Prior to October 31st, did you have any discussion with Gensler 
about the state of affairs at MF Global and whether MF Global 
was in trouble? And if you did have conversations, when were 
those conversations and what exactly did you discuss with 
Chairman Gensler?
    Mr. Corzine. Senator, Chairman Gensler may or may not have 
been on some of the joint regulatory calls where I gave updates 
to a broad set of regulators on the progress, or lack thereof, 
with regard to the sale of the firm, a posting on what our 
actions were in reducing the size of our balance sheet and 
generating liquidity. To the best of my knowledge, he was only 
on that 31st general call, but other than those postings to 
regulators, I am not aware of any conversations with him.
    Senator Grassley. Okay. So then at least, you are telling 
me for sure that you did not have a one-on-one conversation 
with Mr. Gensler at any time?
    Mr. Corzine. To my recollection, I have not with regard to 
the activities in the last 10 days. I have written in my 
written statement everything that I can recollect about any 
specific interactions--what was it? A July teleconference call, 
courtesy calls when I first took over at MF Global, and then--
--
    Senator Grassley. But not during this period of time----
    Mr. Corzine. Not in that period of time.
    Senator Grassley. --of the last few days before bankruptcy 
that you had any one-on-one telephone conversation with 
Gensler.
    Mr. Corzine. Correct.
    Senator Grassley. Okay. Now, a last question for you, and 
then I have a question for Mr. Steenkamp. If none of you know 
what happened to the customers' money, could each of you give 
me or the Committee the name of some MF Global employee who can 
come and tell this Committee what happened to the segregated 
customer accounts? There has got to be somebody there that can 
tell this story. Just give us a name. Joe Blow? Mary Smith?
    Mr. Corzine. Senator, my view would--I would go to our 
treasury department and or treasury ops, as we talked about 
earlier, and the people who headed that were probably closest 
to the scene of the action.
    Senator Grassley. But that does not give us one name for 
sure that could answer our questions. You are saying somebody 
in that office, but you do not really know who it is.
    Mr. Corzine. The outline of the structure, I think Mr. 
Steenkamp presented, starts with certain people at the very top 
of it. I happen to know that the individual was on vacation 
that week, Christine Serwinski, and the CFO of the North 
American operations, that team of people--and it is quite 
large--would be one of those places that you might look.
    Senator Grassley. Okay. Then I would have this question for 
Mr. Steenkamp. Who specifically told you that Sunday that 
customer money was missing?
    Mr. Steenkamp. If I recall correctly, I was in a room with 
a large group of people as we were working on the acquisition, 
and one of our folks from finance had been notified that there 
was an issue and had just pulled me aside in the room and 
notified me.
    Senator Grassley. Okay. What is his name or her name?
    Mr. Steenkamp. It was our global product comptroller, Mike 
Bolan.
    Senator Grassley. Okay. Thank you, Madam Chairman.
    Chairwoman Stabenow. Thank you.
    Senator Thune?
    Senator Thune. Thank you, Madam Chairwoman.
    If I could just ask any of you to think of any way or 
provide an example of how $1.2 billion of customer funds could 
be transferred and disappear without any laws or regulations 
being violated, I mean, just--in other words, give us a 
hypothetical scenario of how that could happen without breaking 
any laws or existing regulations? Does anybody want to take a 
stab at that?
    Mr. Corzine. Senator, I think anything that any of us would 
do on that would potentially be misleading. It would certainly 
be speculative. In my oral and written remarks, I laid out some 
places where I thought there were possibilities of where the 
clearance and settlement system could break down.
    Senator Thune. Senator Corzine, there are reports I have 
seen that indicate that you were in contact with Chairman 
Gensler and the CFTC regarding a proposed rule restricting 
brokers from trading with client money or customer funds in 
sovereign debt. The rule, which is now being called the ``MF 
Global rule,'' was apparently delayed because of your 
opposition. The CFTC only approved it after MF Global had gone 
bankrupt.
    Why did you lobby against proposed changes to CFTC 
regulations that would have restricted futures commission 
merchants from investing customer funds in obligations of 
foreign governments?
    Mr. Corzine. Senator, to my recollection, I did not speak 
with Chairman Gensler about the foreign securities aspect, 
particularly on that conference call on July 20th. To the best 
of my recollection, I was speaking about the internal 
repurchase arrangements between a subsidiary and the FCM, as I 
have stated to the Senator from North Dakota and others, and 
whether that would continue to be available to FCMs at large or 
global organizations at large, but not with respect--to my 
recollection, foreign securities never came up in that 
discussion, and the only time that foreign securities were 
available to be invested in FCMs is if you took deposits from a 
client in foreign currencies.
    Senator Thune. You had said, Senator Corzine, during the 
House hearing that you did not intend to break any regulations. 
What did you mean by that?
    Mr. Corzine. I tried to clarify that in my opening 
statement here this morning. I never gave any instructions to 
misuse customer funds. I never intended to give any 
instructions or authority to use--misuse customer funds. And as 
I have said at least once here, I find it very hard to 
understand how anyone could misconstrue anything I said would 
authorize the misuse of customer funds.
    Senator Thune. From what you know now, can you assure this 
Committee that no regulations protecting consumer funds were 
violated in the days prior to the bankruptcy?
    Mr. Corzine. Senator, with whatever the range of estimates 
about the segregated funds not reconciling, I do not think I 
can give that assurance.
    Senator Thune. There is a New York Times story that 
indicated that some customer money may have been improperly 
transferred as early as October 21. Can you confirm that date?
    Mr. Corzine. Senator, I would be completely out on a limb 
speculating, no idea, and I would have to go back--I literally 
would have to go back through thousands of pages.
    Senator Thune. Okay. And if you cannot confirm the date, I 
assume then that you would not be able to give us an idea about 
when MF Global began transferring funds out of the customer 
account.
    Mr. Corzine. It would be speculative. I do not have the 
facts. I do think that the CME has testified that they did an 
85-or 90-percent check against the Wednesday--is that the 26th? 
And I think you can--and they suggested at least in that 
testimony with reasonable testing of bank accounts and flows 
that we were in excess. But I really think that is a question 
that the CME should answer.
    Senator Thune. All three of you have testified that, to the 
best of your recollection, none of you gave any instructions to 
anyone at MF Global to transfer funds from segregated accounts, 
yet it happened. Prior to October of this year, whether to 
cover margin calls or for any other reason, have there been any 
other incidents of improper or unauthorized funds transfers at 
MF Global? Or is this the first time any of you are aware of 
anything like this happening?
    Mr. Corzine. Senator, from my standpoint, if there had ever 
been anything like we found out on the evening of October 30th 
or if there had been--it would not have had to rise to the 
level, the dimension on that evening--I think any of us would 
have been notified if we had not then--the Senator from North 
Dakota would have been absolutely right. We clearly would not 
have had policies, procedures, and people in place. I am not 
aware of that, and we have had many audits by external 
regulators and external auditors.
    Senator Thune. Madam Chair, my time is up. Thank you.
    Chairwoman Stabenow. Thank you.
    Senator Boozman?
    Senator Boozman. Thank you, Madam Chair.
    Senator Corzine, can you help me understand? There has 
been, it seems like, a lot of ambiguity about Rule 1.25. Can 
you help me understand who would be--what the eligible 
investments would be that could take place under that?
    Mr. Corzine. Senator, I do not know whether you were here 
when Senator Harkin gave an introduction to his question to the 
first panel. I think he listed--and I do not want to be remiss 
in leaving something off that list, but I have a general idea.
    Senator Boozman. You had a trading strategy. Was there a 
specific time--Mr. Abelow, I think you said you are responsible 
for day to day. You know, we have had this-- evidently there 
was perhaps a change, you know, using Rule 1.25, using that 
ability. Was there a specific time when the firm changed their 
line of investing? We know that, you know, there are a number 
of different ways of doing it based on Rule 1.25, as the 
Senator explained.
    Mr. Abelow. Senator, I apologize. In my comments about 
overseeing day-to-day implementation of the strategy, my 
responsibilities did not include oversight of trading and 
position taking.
    Senator Boozman. Who was the person that was in charge of 
that particular----
    Mr. Abelow. I am not certain who----
    Senator Boozman. Who would you guess?
    Mr. Abelow. Senator, I think there are two separate 
questions. The 1.25 securities I believe were in a portfolio 
that was overseen by the treasury department, and then other 
types of trading activity had different oversight.
    Senator Boozman. In your firm, though, who was responsible 
for determining, you know, what--they had the latitude of the 
Rule 1.25. Who made the decisions as to what they were doing?
    Mr. Corzine. Senator, the treasury operations, treasury 
functions, along with our internal audits would work to assure 
that the investments that were held using the customer funds 
conformed to Rule 1.25, and as I think has been stated, at 
least until that evening on the 30th, there had not been any 
indication that had ever been not followed.
    Senator Boozman. Right. But we have got a problem. At some 
point something happened, and I guess--you know, treasury is 
involved in that process. I guess my question is: Who directly 
in the firm interfaces with treasury and makes those decisions?
    Mr. Corzine. The decisions about whether you move money is 
separate from what would be the investment decisions that you 
might take. The investment decisions that you would take 
against--I should not say ``against.'' The investment decisions 
that you would take had to conform to Rule 1.25, and nobody 
ever disputed that, nor am I aware of any time that those 
investments did not conform to that rule.
    Senator Boozman. But I am curious. Who--again, I understand 
what you are saying, but knowing that you have got, you know, 
this smorgasbord of kind of doing things in a certain way, who 
made the decisions as far as, you know, your strategy in the 
investments?
    Mr. Corzine. The strategy at the highest level was reviewed 
at the board, certainly reviewed by myself. But the actual 
implementation was done by our treasury personnel.
    Senator Boozman. So who is that?
    Mr. Corzine. There are a whole series of people that were 
involved in treasury, and at time different persons in the firm 
would----
    Senator Boozman. I guess--and I do not mean to interrupt. I 
guess my frustration--I think Senator Grassley expressed it, 
too. I mean, we have got this major problem, and you guys, you 
know, were pretty high in the organization, and yet, you know, 
when we try and dig and find out kind of what occurred and who 
did what, nobody can really remember or does not really know. 
And so it is a problem.
    So I guess what we would like for you to do--what I would 
like for you to do is help us, you know, understand who was 
involved specifically, and I think that, you know, certainly 
you should have been in a position to know that.
    I yield back the rest of my time. Thank you.
    Chairwoman Stabenow. Thank you very much.
    I believe we have completed our first round of questioning, 
so let me continue with our second round, and thank you all 
again for being here.
    Let me talk a little bit more about treasury operations 
because, Mr. Abelow, it is my understanding--first of all, our 
Committee staff has been having a number of conversations with 
people at the operations level to learn more and gather 
information and so on. And it is my understanding that the 
treasury operations actually report to you, that you oversee 
that department. Is that correct?
    Mr. Abelow. It is correct that I oversee operations, and 
the global head of operations reports directly to me, and 
treasury operations reports up through several chains to him.
    Chairwoman Stabenow. And so what is your responsibility in 
overseeing the operations of treasury?
    Mr. Abelow. Senator, my responsibilities I think with all 
of the areas that I oversee, including treasury, are to, first 
and foremost, ensure that we have appropriate professional 
personnel in place to oversee those functions and to ensure 
ongoing functioning of them.
    Chairwoman Stabenow. And do you think they were functioning 
appropriately?
    Mr. Abelow. Other than the normal course of occasional 
incidents that are reported through operational risk or through 
audit findings, prior to the period in question, there was no 
evidence of there being any problem. As I said earlier, the 
first that we learned about there being an issue with 
segregated funds was Sunday, October 30th.
    Chairwoman Stabenow. And I would like to clarify a little 
bit more. You have talked a lot, Mr. Abelow, about intended 
purposes, and this really goes to Rule 1.25, and so I just want 
to be clear. Do you consider the investments permitted under 
that rule to be the intended purposes for customer segregated 
funds? Because that is not what we heard on our first panel in 
terms of what the farmers' understanding was. Of course, as 
colleagues have asked about Rule 1.25, internal repo 
transactions and rehypothecation and loaning and borrowing 
customer collateral, could any of these transactions have led 
to the shortfall of customer funds?
    Mr. Abelow. Senator, my understanding, when I made 
reference to ``intended purposes,'' you are correct, that is 
that I never heard a conversation where anyone spoke about 
using customer funds or assets for any purpose other than 
investment in Rule 1.25-eligible securities.
    Chairwoman Stabenow. Are there any other kinds or any other 
uses of customer funds by MF Global that could have resulted in 
them being lost? And I am not talking about misuse or 
unintended purposes at this point, but was MF Global doing 
anything with customer funds that could have led to a 
shortfall?
    Mr. Abelow. Senator, I am not aware of any, and so it would 
be speculation on my part.
    Chairwoman Stabenow. Okay. Let follow up and ask all of our 
panelists a little bit more about rehypothecation, in effect, 
using customer assets as collateral to support financing for MF 
Global. This practice puts customers' assets at risk if MF 
Global were to default on its loans. How common was it for MF 
Global to be rehypothecate customer collateral? And, again, 
could this be where the missing funds went? Mr. Corzine?
    Mr. Corzine. Senator, I will start with I really do not 
have any knowledge about the term ``rehypothecation'' in this 
context, and so anything that I said here would be speculative. 
It is not a term that we used at the firm. I am not aware of 
that being something that took place.
    Chairwoman Stabenow. Okay. Mr. Abelow?
    Mr. Abelow. I am not aware either. I did not directly 
engage in financing activity on the part of the firm.
    Chairwoman Stabenow. Mr. Steenkamp?
    Mr. Steenkamp. Financing activity was not something that 
fell within finance, and, you know, in the context that I know 
rehypothecation, it is in a standard repo/reverse repo type 
financing context in the broker-dealer.
    Chairwoman Stabenow. I know I have a lot more questions 
about this particular practice that I want to make sure we get 
into, but I wonder if any of you would respond to why we should 
permit trades that potentially encourage excessive leverage and 
create risk. And are these trades, in effect, a legal way to 
violate a fundamental principle, which is to protect customer 
money? Mr. Corzine?
    Mr. Corzine. Senator, if the Rule 1.25 investments of 
segregated funds was followed, then those securities, based on 
the judgment of those who set that rule, should be available in 
a period when customers want their money back, and that is the 
intent of establishing that security positions can be taken far 
more conservative than what would occur in the broker-dealer or 
for house investments. And those investments should be just 
exactly inside those kinds of constraints. And if that were the 
case, then those monies should be available for clients, 
protection of client funds.
    Chairwoman Stabenow. Which is why we are here, because they 
are not, right? I mean, the concern is that funds were not kept 
segregated. At least at this point we are not going to be able 
to identify 100 percent of the funds that were customer funds, 
which is one of the reasons why we are here.
    Finally, Mr. Steenkamp, you spent a lot of years in 
accounting and financial reporting, obviously very 
accomplished. I guess I would say--and I think this is a 
fundamental question. How is it that large sums of money could 
be moved from customer accounts without being elevated to 
senior levels of management? As the chief financial officer, 
how could this happen within MF Global?
    Mr. Steenkamp. I mean, Senator, not knowing, and not being 
able to investigate myself, I am asking the exact same 
question.
    Chairwoman Stabenow. But as a general practice. As a 
general practice, did large sums of money move without senior 
management being involved or being aware?
    Mr. Steenkamp. As a general practice, something like that 
should be elevated, escalated, any movement of client funds for 
a broker-dealer activity should be elevated and escalated as 
general practice. And as I mentioned, the first time we found 
out about it was on the Sunday, Sunday evening.
    Chairwoman Stabenow. Thank you.
    Senator Roberts?
    Senator Roberts. Thank you, Madam Chairwoman. I think I am 
going to paraphrase from you and just simply say what we are 
trying to get straight here is your firm that the three of you 
were in charge of, amid the eighth largest bankruptcy in the 
history of the United States, has somehow lost $1.2 billion of 
your customers' money, and none of you know where it went. And 
that is what is causing a lot of questions around here.
    I want to go back to Mr. Abelow. Earlier today you 
confirmed that the treasury operations--and apparently we need 
the treasury operations person here. Her name is Christy Vavra, 
by the way. She was the head of treasury ops. She could sit 
down there in that empty chair, I am sure. She was under your 
area of responsibility.
    Then you went on to say--but if somebody gave an order to 
move the money, would Christy know it? That would be my 
question to you. But then you went on to say, well, she would 
report to the person in charge of global operations. Now, who 
is that?
    Mr. Abelow. Senator, I do not know
    Senator Roberts. You do not know.
    Mr. Abelow. No, no. I apologize. I----
    Senator Roberts. So you do not know who is in charge of 
global operations, which comes under your area of 
responsibility. I just told you the name, which I doubt you 
knew, of the treasury ops person. Maybe you did not--or did. If 
someone gave an order to move the money around, which Christy 
Vavra know it?
    Mr. Abelow. Senator, I apologize. What I was intended to 
say was I did not know if she reported directly to the head of 
operations or whether she reported to someone who reported to 
the head of operations. I do know the name of the head of 
operations.
    Senator Roberts. How many heads of operations--how many 
heads do we have to have around here before we finally drill 
down and find somebody's name that knows what the heck is going 
on?
    Mr. Abelow. Senator, I understand your frustration and the 
frustration of everyone in the room, and as I expressed in my 
testimony at the beginning, I, too, would like to know exactly 
what happened to the customer funds.
    Senator Roberts. Why don't you together a PowerPoint or a 
TO chart or something so we could put everybody's name and 
finally we would probably get down to the custodian.
    Earlier you said the Break the Glass plan that was 
presented to the firm's leadership was dependent upon the use 
of your revolving credit line. Now, the credit line was already 
there. It does not sound like a contingency. What was the Break 
the Glass plan if you exhausted the credit line?
    Mr. Abelow. Senator, I have not looked at the so-called 
Break the Glass scenario in more than 6 weeks, and so I do not 
recall exactly what was in it. It was a scenario that was 
designed to simulate----
    Senator Roberts. So it is not a contingency. Now it is a 
scenario, right?
    Mr. Abelow. It was designed to simulate what might occur if 
there were a loss of liquidity at the firm.
    Senator Roberts. So was it a plan? Was it a contingency? It 
was just--what?
    Mr. Abelow. It was a--I believe that initially it was done 
literally as that, to simulate what would happen and what would 
the liquidity impact on the firm be under----
    Senator Roberts. Well, it sounds like----
    Mr. Abelow. --a certain stress scenario.
    Senator Roberts. It sounds like somebody made a decision, 
either top or somewhere in your heads of operation here, that 
it became operational.
    Mr. Abelow. The intention was that the next step in that 
plan would have been to develop an operational plan. I do not 
believe one was ever developed from that.
    Senator Roberts. Okay. Let me return to a point made 
earlier. You state in your testimony that the final days at MF 
Global were a classic run on the bank, yet Governor Corzine 
told us today that you all had enough cash to cover demand on 
Friday, the 28th? Was there a run on the bank, or did you have 
enough cash? It is either one or the other.
    Mr. Abelow. Senator, I believe that at the end of every day 
that week that we believed that, to the best of my 
recollection, we were advised that we did have liquidity on 
hand. But it was a run on the bank in the sense that liquidity 
sources were evaporating.
    Senator Roberts. Well, the classic question is: If you had 
enough cash to cover the run, why did you fall into bankruptcy?
    Mr. Abelow. Senator, I believe that after we had failed to 
engage in a transaction to sell the firm, after we had 
discovered that there was an apparent gap in our segregated 
funds, we no longer thought we were in a position to continue 
operating.
    Senator Roberts. Okay. Governor, in your testimony, you 
state that during the week of October 24 you reduced the MF 
Global match book by $10 billion. You further state that you 
took extraordinary steps to ensure that you were able to honor 
customer requests to withdraw funds or collateral. Is this 
correct?
    Mr. Corzine. It is, sir.
    Senator Roberts. Okay. Thank you. You said you drew down 
your line of credit from JPMorgan. That was about $1.2 billion, 
I think. On October 27, you stated, you sold $1.3 billion in 
commercial paper, over $300 million in corporate securities. 
Friday you sold $4.5 billion in U.S. treasuries. Is that about 
correct?
    Mr. Corzine. I think that is what my written statement----
    Senator Roberts. In addition, you said that during the week 
you unwound hundreds of millions worth of RTM and sold the 
underlying debt instruments. How much was that? I think I 
understand it is about $900 million.
    Mr. Corzine. I think that is the number, sir.
    Senator Roberts. So we have $1.2 billion from JPMorgan, 
$1.3 billion in commercial paper, $0.3 billion in corporate 
securities, $4.5 billion in treasuries, and $0.9 billion in 
RTMs for a grand total of $8.2 billion. By my math, $10 billion 
minus $8.2 billion is $1.8 billion. Where did this unaccounted 
for $1.8 billion come from? And could it be ``loans'' from your 
customer segregated accounts according to the Breaking the 
Glass plan? I am speculating.
    Mr. Corzine. Senator, I would have--my math may be poor, 
but my addition to that would be $10 billion of reduction in 
assets by reducing the match book. It would be reducing $4.5 
billion on the asset side by the sale of the agencies, $1.3 
billion on the commercial paper. As you know, the RTMs were 
derecognized, so that would not have been a reduction of the 
balance sheet and whatever the corporate securities were.
    There would be liabilities that are reduced at the same 
time, both on--on every one of those assets. And the purpose of 
that whole process, except for the $1.3 billion in commercial 
paper, was to produce less in margin calls from--or less margin 
postings that would actually be returned to the firm in each of 
those transactions. The commercial paper was Rule 1.25-
eligible, and that was sold for purposes of having cash, so 
when the kind of people who were here on the first panel were 
asking for their money, we would have the cash immediately for 
that purpose.
    Senator Roberts. Madam Chairwoman, I am out of time, and I 
will await the third round. Thank you so much.
    Chairman Stabenow. Thank you.
    Senator Conrad?
    Senator Conrad. Thank you, Mr. Chairman.
    You know, what flummoxes us is how there can be $1 billion 
or thereabouts missing and nobody seems to know where it has 
gone. I think you would agree it is a curious thing. I think 
somebody watching on television from home would say, ``Wait a 
minute. These are the guys running the company and a billion 
dollars goes missing. How is it that they do not have any 
idea?''
    You know, I have heard speculation--I referenced it in my 
first round--that in those chaotic days when Moody's had 
downgraded and all of a sudden the stock price plunges and you 
then have to contemplate bankruptcy, and, therefore, firms 
probably are not sending you money that owe you money, so you 
are in a liquidity crunch even if those trades on European debt 
were actually profitable trades, which everything I see now--
all the reading I have done suggests, boy, these guys made a 
bunch of risky trades and lost money on them and, therefore, 
there is the problem. Everything I read is those trades are 
actually profitable trades, profitable positions, at least 
until the roof starting coming in. But then you are downgraded, 
so there is a liquidity crunch.
    Do any of you know of an attempt in those final hours to 
get London to send you back $170 million that was loaned to 
them?
    Mr. Corzine. Senator, I have no input on that.
    Senator Conrad. You have not heard that there was a call 
that went from MF Global, your headquarters in either Chicago 
or New York, to London saying, hey, that $170 million we sent 
you in a loan, we need that back?
    Mr. Corzine. Senator, the only thing that I know about with 
regard to this is that there were overdrafts in London, which I 
talked about in my oral statement.
    Senator Conrad. Overdrafts on their accounts by them?
    Mr. Corzine. Overdrafts to JPMorgan in London accounts.
    Senator Conrad. In London accounts. And to your knowledge, 
was $170 million sent to London as a loan?
    Mr. Corzine. Senator, I do not know the amounts, 
transactions. Those are the kind of things that you would want 
to see from records.
    Senator Conrad. Would it surprise you that there was money 
sent to them and then an attempt to get the money brought back 
to headquarters?
    Mr. Corzine. In the normal course of any day's 
transactions--and now I am speculating--only that--and I am not 
speculating about the close. But on any business day, lots of 
transactions back and forth between London and New York.
    Senator Conrad. Mr. Abelow, were you advised that there had 
been a loan extended to London of $170 million and then a 
subsequent attempt to get that money repaid?
    Mr. Abelow. Senator, I do not recall any specific 
conversation about a loan to London. What I do recall--and, 
forgive me, my memory is--this was a hectic time. Monday 
morning, October 31, and so this is post-discovering that there 
is an apparent gap in client segregated funds, I recall a 
series of conversations of asking people to identify all cash 
and assets that may be outside of the control of the FCM and 
returning them to the FCM. That was in response to this 
surprise to us on Sunday night that there is now a problem. But 
I do not recall a specific loan or any specific amount or 
account being a part of that conversation.
    Senator Conrad. Let me ask you, were the three of you 
talking during this period? I assume you were.
    Mr. Corzine. Of course, although we were all focused on 
different activities of emphasis, as I have said in my remarks, 
I focused on selling assets, bringing the balance sheet down, 
had little less impact on selling of the firm, although I was 
active in those dialogues with investment bankers and also 
working our trading floors around the globe to make sure that 
people were reducing positions, preparing myself for postings 
with regulatory agencies, trying to gather information. I think 
other people were working on other functions. That did not mean 
we did not check in with each other, but it was not that we 
were standing next to each on an hour-or minute-to-minute 
basis.
    Senator Conrad. Well, let me ask you this, if I can, 
because, you know, we have an obligation to try to learn what 
happened here. We have got constituents that have been 
adversely affected. When you learned--or when you were told 
that there was this--I think it was at the time a $950 million 
shortage, what did you say to each other? Was there a theory? I 
mean, I would think, if it were me and I heard there was this 
shortage, the first thing that would come to my mind is, ``How 
in the hell did this happen?''
    Mr. Abelow and Mr. Corzine, did the two of you talk and 
say, ``What in God's name happened here?'' And did you have a 
theory?
    Mr. Corzine. Senator, that is probably a polite way for a 
response.
    Senator Conrad. I am Scandinavian, so we try to be polite.
    Mr. Corzine. The reaction is marshal all the resources--I 
think you heard Mr. Steenkamp talk about it--and find out where 
this money is and why we are out of reconciliation, and then 
step back and let the people who know how to read those 
records, those thousands of pages of records, get on with the 
business. Concerned about our clients, concerned about the 
available ability to deal with a rising sun and an opening of 
markets.
    Senator Conrad. Okay.
    Chairwoman Stabenow. Thank you very much
    Senator Chambliss?
    Senator Chambliss. I will pass this round.
    Chairwoman Stabenow. All right. Thank you.
    Next, Senator--I think Senator Boozman has left. Senator 
Johanns?
    Senator Johanns. Mr. Abelow, you and Mr. Corzine have been 
close through the years, haven't you?
    Mr. Abelow. We have worked together for a number of years, 
sir.
    Senator Johanns. You were his chief of staff.
    Mr. Abelow. I was his chief of staff when he was Governor 
of New Jersey.
    Senator Johanns. Mr. Steenkamp, I have been watching your 
body language during this hearing, and you just seem like the 
odd man out. You seem very uncomfortable about what is going 
on, and mostly you have been quiet. How long did you stay at 
this company after you knew that client money was missing?
    Mr. Steenkamp. Senator, I am still at MF Global Holdings--
--
    Senator Johanns. You are still there today----
    Mr. Steenkamp. --as I mentioned in my statement, and I am 
still trying to do any efforts that I can to help the trustee 
of the holdings company to maximize value.
    Senator Johanns. Okay. So you have access to the records.
    Mr. Steenkamp. No. I have access to MF Global Holdings 
information, the holding company, but I do not have access to 
either the personnel or the records of MF Global Holdings, 
Inc., for the most part because, as I mentioned, you know, on 
October 31st when the SIPC trustee was appointed, there were 
very clear boundaries put up.
    Senator Johanns. What day did the clients' missing first 
start missing?
    Mr. Steenkamp. Well, on the Sunday when we found out, it 
was reported to me that there is a segregation issue on both 
the Thursday calculation as well as the Friday calculation. And 
my understanding was that the Thursday calculation had 
originally not shown a deficit, but that subsequently there was 
a reconciliation issue which proved that to be wrong.
    Senator Johanns. Now, $1.2 billion, I think by everybody's 
definition, especially somebody else's money, is a massive 
amount of money. As I understand it, never in the history--
never in the history--has client money ever gone missing. 
Wouldn't there be some process or some person who had 
sufficient integrity in this organization to say, ``Oh, my 
Lord, clients' money is disappearing. I need to talk to the 
boss''? And are you aware of anybody in the organization in 
that Thursday, Friday, Saturday who said, ``Something very, 
very serious is happening,'' or something like that and drew it 
to somebody's attention? And who is that person, and whose 
attention was it drawn to?
    Mr. Steenkamp. Senator, I am not aware of anyone until I 
was notified of it on the Sunday.
    Senator Johanns. So it did not come to your desk before you 
were notified on Sunday.
    Mr. Steenkamp. Correct.
    Senator Johanns. So in this entire organization, although 
there must have been many, many people who knew that money was 
being drained out of client accounts, being transferred, did 
not step up and say to top management or at least to you, 
``There is a problem here''?
    Mr. Steenkamp. Senator, apologies for repeating myself, but 
there had been no one--I mean, there had been no idea of this 
until that Sunday. I mean, it was utter shock, I think as we 
have said, when we found out about it for the first time, which 
was Sunday.
    Senator Johanns. Mr. Steenkamp, do you realize how 
incredible your testimony, and the other two gentlemen, how 
incredible that sounds to this Committee that $1.2 billion, the 
first time in history this had ever happened, could get drained 
away from customers and it does not come to your attention or 
somebody does not seek your authorization or at least say, 
``Geez, by the way, what is going on here?'' Doesn't that 
strike you as incredible?
    Mr. Steenkamp. Senator, I wish I could--you know, I mean, 
we found out about it on Sunday, and there were no issues that 
we were--that I was aware of with regards to client assets 
being used in the broker-dealer up to that point, at any point 
as far back as I can remember. And our procedures, as I 
mentioned, were reviewed in detail by external and internal 
parties.
    Senator Johanns. How would you get money out of a client 
account in this organization? Did somebody have to authorize 
it? I mean, somebody in this organization had to have the 
ability to say light screen, take the money?
    Mr. Steenkamp. Senator, so, again, as global CFO, you know, 
we--you know, my involvement was not in approval of client 
balance movements or involvement in client balance movements.
    Senator Johanns. Who would have that authority?
    Mr. Steenkamp. We delegate those responsibilities to the 
senior finance professionals, the experts that do this on a 
day-to-day basis in finance, treasury, and treasury operations.
    Senator Johanns. And who were they?
    Mr. Steenkamp. Every entity would obviously be different 
depending upon the rules and regulations that existed in the 
entity and in the country and the jurisdiction it operated in.
    Senator Johanns. I am just interested in the United States. 
Who----
    Mr. Steenkamp. In MF Global Inc., my understanding is that 
there were numerous controls in place that covered treasury and 
treasury operations.
    Senator Johanns. You have said that. I want names. Who 
would authorize, who would have the oversight, who would have 
the ability to say take money out of client accounts?
    Mr. Steenkamp. Senator, I do not think anyone would have 
the authorization to take money out of client accounts to use 
for firm purposes.
    Senator Johanns. Well, who has oversight--you know, you are 
dancing around with me. Who would have the oversight of those 
accounts where that money has gone? And I want a name.
    Mr. Steenkamp. Senator, I honestly am not trying to dance 
around the issue. I am just not--I am not 100 percent sure who 
the exact person--I think there are numerous people, as I 
mentioned. I think some of the names have already been 
mentioned around the treasury and the treasury operations 
people. I am not sure who had----
    Senator Johanns. I am out of time, and I want to be 
respectful of the other Senators, but as part of your 
testimony, I am requesting that those names be provided to the 
Committee, because I would like those people sitting where you 
are sitting so we can ask them: How did it come to be that $1.2 
billion, the first time in history, was taken out of customer 
accounts? Will you do that?
    Mr. Steenkamp. I will try my best, Senator.
    Senator Johanns. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much, and let me just 
say also to your last question, Senator Johanns, our Committee 
staff are interviewing numerous people, are having 
conversations at various levels of MF Global, and we are asking 
for an accounting of the checks and balances and who was in 
charge so that we, in fact, can answer those questions. So 
thank you very much and----
    Senator Roberts. Madam Chairman, would you yield just for a 
comment?
    Chairwoman Stabenow. Yes, Senator Roberts.
    Senator Roberts. In regards to Mr. Steenkamp's observation, 
I think I know where he is coming from, but I do not care what 
business you are in; you do not delegate responsibility. You 
may delegate authority, but you do not delegate responsibility. 
And every time you say that you are responsible for X, Y, Z, 
you are responsible for that. And that is why Senator Johanns I 
think is so keen on this. I said give us a PowerPoint, give us 
names, give us something. The only one we have come up with is 
Christy Vavra. I do not know if Christy would say, ``Well, I 
delegated responsibility, so I do not know.'' And we have to go 
down one layer. After a while this gets to be ridiculous. It is 
you three sitting here.
    I am sorry to take more time.
    Chairwoman Stabenow. Thank you. I very much appreciate the 
comments, and it is important that we get as specific 
information as we can. So we thank all of you for coming 
forward and speaking with us, and we look forward to continuing 
to ask these questions and get the answers as to where the 
money is and who, in fact, was responsible for the 
transactions. Thank you very much.
    We will ask our next panel to come forward, and we thank 
them for their patience.
    [Pause.]
    Chairman Stabenow. We will ask our third panel to come 
forward. We appreciate your patience. It has been a long day, 
but it is very important that we hear from all of you because 
the third panel is--all of you are extremely important in all 
this process, and so we want to make sure to lay out all the 
parameters today even though we know that it is a long hearing 
today. But we thank all of you for being here.
    Let me introduce our three panelists, and then we will ask, 
as you know, for an opening statement. Of course, we want 
whatever written information you would like to give us, and 
then we would ask for 5 minutes of verbal testimony, and then 
we will have our questioning.
    So our first panelist is the Honorable Jill Sommers. Jill 
Sommers is a Commissioner for the Commodity Futures Trading 
Commission. In 2005, she was the policy director and head of 
governmental affairs for the International Swaps and 
Derivatives Association. Prior to that, Ms. Sommers worked in 
the Governmental Affairs Office of the Chicago Mercantile 
Exchange where she was instrumental in overseeing regulatory 
and legislative affairs for the exchange. Welcome.
    Next we have Mr. James W. Giddens. Mr. Giddens is a trustee 
for the Securities Investor Protection Act liquidation of MF 
Global. He is also the co-chair of the Bankruptcy and Corporate 
Reorganization Group at Hughes Hubbard & Reed LLP. Welcome to 
you as well.
    Finally, we have Mr. Terrence Duffy. Mr. Duffy is the 
executive chairman for the CME Group based out of Chicago, 
Illinois. He has been a member of the board since 1995, was 
president of TDA Trading from 1981 until 2002, and has been a 
member of CME since 1981.
    So welcome to all of you, and before giving your testimony, 
I would ask you to rise and to raise your right hand. Do you 
swear that the testimony you are about to present is the truth, 
the whole truth, and nothing but the truth, so help you God?
    Ms. Sommers. I do.
    Mr. Giddens. I do.
    Mr. Duffy. I do.
    Chairman Stabenow. Thank you.
    Commissioner Sommers, we would ask you to start with your 
testimony.

  STATEMENT OF HON. JILL E. SOMMERS, COMMISSIONER, COMMODITY 
           FUTURES TRADING COMMISSION, WASHINGTON, DC

    Ms. Sommers. Good afternoon, Chairwoman Stabenow, Ranking 
Member Roberts, and members of the Committee. Thank you for 
inviting me here today to discuss the MF Global bankruptcy. I 
understand the severe hardship this bankruptcy has caused for 
customers of MF Global. These customers correctly understood 
the risks associated with trading futures and options, but 
never anticipated that their segregated accounts were at risk 
of suffering losses not associated with trading. Many customers 
have reached out to me and my staff directly, and we are doing 
everything we can to get as much of their money back to them as 
quickly as possible. I have made this my number one priority.
    The Commission has dozens of staff members in New York, 
Chicago, and Washington working on these issues. I am unable to 
discuss matters that might compromise the ongoing enforcement 
investigation or parallel investigations by any other 
Government agency, so I will focus my comments on the 
bankruptcy cases pending in New York and on the legal 
requirements surrounding the segregation of customer funds held 
at futures commission merchants.
    As I understand the Securities Investor Protection Act of 
1970, the SEC has the authority to refer an entity registered 
as a broker-dealer to the Securities Investor Protection 
Corporation if there is reason to believe that the entity is in 
or is approaching financial difficulty. SIPC may initiate a 
liquidation proceeding to protect customers of an insolvent 
broker-dealer when statutory criteria are met.
    When a broker-dealer is also a registered FCM, as MF Global 
was, there is one dually registered entity and the entire 
entity gets placed into liquidation. Because there is one 
entity it is not possible to initiate a SIPA liquidation of the 
broker-dealer and a separate bankruptcy proceeding for the FCM. 
It is important to note that when a dually registered BD/FCM is 
placed into a SIPA liquidation, the relevant provisions and 
protections of the Bankruptcy Code, the Commodity Exchange Act, 
and the Commission's regulations apply to customer commodity 
accounts just as they would if the entity were solely an FCM 
and in a non-SIPA bankruptcy.
    The Commission is no stranger to FCM bankruptcies. Lehman 
Brothers and Refco are two of the most recent. While the Lehman 
Brothers bankruptcy was monumental in scale and the Refco 
bankruptcy involved serious fraud at the parent company, 
commodity customers did not lose their money at either firm. In 
both instances, commodity customer accounts were wholly intact; 
that is, they contained all the open positions and supporting 
collateral for those positions. That being the case, customer 
accounts were promptly transferred to healthy FCMs, with the 
commodity customers having no further involvement in the 
bankruptcy proceeding. Unfortunately, that is not what happened 
at MF Global because the customer accounts were not intact.
    In FCM bankruptcies, commodity customers have an exclusive 
right to customer property. This includes, without limitation, 
segregated property, property that was illegally removed from 
segregation and is still within the debtor's estate, and 
property that was illegally removed from segregation and is no 
longer within in the debtor's estate, but is clawed back into 
the debtor's estate by the Trustee. Commission regulations also 
allow other property of the debtor's estate to be classified as 
customer property to make up any shortfall.
    Within the first weeks of the MF Global bankruptcy, the 
trustee, with the encouragement and assistance of the CFTC, 
transferred nearly all positions of customers trading on U.S. 
commodity futures markets and transferred approximately $2 
billion of customer property.
    On December 9th, the bankruptcy court granted a motion to 
transfer an additional $2.1 billion back to customers. When 
this additional transfer goes forward, commodity customers 
should have received approximately 72 percent of their account 
values as reflected by the books and records of MF Global. 
These demonstrate that commodity customers are receiving the 
highest priority in claims to the bankruptcy estate. We 
understand that more must be done.
    An FCM is authorized to invest funds that are in customer 
segregated accounts. This authorization is found in Section 4d 
of the CEA and in Commission Regulation 1.25. The Commission 
finalized changes to Regulation 1.25 just last week. Those 
changes just reinforced the long-held view of the Commission 
that customer segregated funds must be invested in a manner 
that minimizes their exposure to credit, liquidity, and market 
risks to preserve their availability to customers and DCOs.
    All Regulation 1.25 investments are subject to a general 
prudential standard which requires that all permitted 
investments be consistent with the objectives of preserving 
principal and maintaining liquidity.
    While our current focus is on returning as much money as 
possible to customers, we are expending an enormous amount of 
effort to locate the missing customer funds and pursuing the 
enforcement investigation. All of the information we learn 
during these aspects of our work will be relevant to the 
Commission as we consider ``lessons learned'' and any policy 
responses or regulatory changes.
    Obviously, the Commission has a great deal of work to get 
customer funds back where they need to be, to determine what 
went wrong with segregated funds at MF Global, to determine 
whether to prosecute any violations of the Act, and to 
determine what needs to be done to prevent a similar 
circumstance in the future. Commission staff is coordinating on 
these issues with other regulators, both international and 
domestic. We are also working closely with the trustee to 
provide whatever support he needs to resolve issues with 
commodity customer accounts. I greatly appreciate the continued 
support of this Committee as we move forward with this 
important work.
    Thank you.
    [The prepared statement of Ms. Sommers can be found on page 
139 in the appendix.]
    Chairman Stabenow. Thank you very much.
    Mr. Giddens?

  STATEMENT OF JAMES W. GIDDENS, TRUSTEE, SECURITIES INVESTOR 
  PROTECTION ACT LIQUIDATION OF MF GLOBAL INC., NEW YORK, NEW 
                              YORK

    Mr. Giddens. Chairwoman Stabenow, Ranking Member Roberts, 
and members of the Committee, thank you for inviting me to 
testify today about efforts to identify, preserve, and return 
assets to the former customers of MF Global Inc. I am the 
court-appointed trustee for the Securities Investor Protection 
Act liquidation of the failed broker-dealer, MF Global Inc. I 
appreciate the interest of this Committee and other Members of 
Congress, including the direct encouragement of Chairwoman 
Stabenow and Senator Roberts to expedite the returns to 
customers as quickly as we can.
    Along with my staff, I have been working closely and 
continuously with the Securities Investor Protection 
Corporation, Commissioner Jill Sommers, and the Commodity 
Futures Trading Commission, the Securities and Exchange 
Commission, and the Chicago Mercantile Exchange. By statute, 
the trustee is the customers' advocate. My staff includes legal 
experts, consultants, and forensic accountants. We take very 
seriously our obligation to protect customers of the failed 
brokerage. Our primary mission is to look our for the customer 
and credit interest. We are focused on returning assets to 
customers as quickly as possible in a manner that is fair and 
consistent with the applicable provisions of the Securities 
Investor Protection Act, the Bankruptcy Code, and the CFTC 
regulations.
    Every distribution we make must be approved by the 
bankruptcy court on notice to all customers and parties in 
interest. We are distributing as much as we can as soon as we 
can within the law. And while we work around the clock on 
identifying, preserving and distributing customer assets, my 
office has made every effort to keep customers informed. We 
have a website which had, I think, more than 10,000 inquiries. 
Information on the status of the proceeding is posted to the 
website daily. In addition, my staff is answering calls and e-
mails and holding meetings with customer groups and their 
counsel. A call center and a website, as we indicated, are in 
operation. We also will be mailing to all 36,000 remaining 
customers statements of their last positions and reflecting as 
best we can the first two transfers to assist them in 
understanding where we are in the process and in completing 
claim forms.
    I am very pleased to report the distributions to nearly all 
36,000 former retail customers, whether farmers, day traders, 
or institutional investors, have been made within weeks of the 
bankruptcy filing. We are now in the process of implementing a 
third bulk distribution that will bring the total amount of 
customer distributions to more than $4 billion. The order 
approving that was entered by the bankruptcy court yesterday. 
The team worked over the weekend to put in place the mechanisms 
with the cooperation of the CFTC and the CME, and the first 
distributions are expected to begin to be made tomorrow and to 
be completed within 2 to 4 weeks. All of this requires 
transfers to new accepting FCMs and is a complicated process. 
This will mean that retail commodities customers with U.S. 
positions will receive approximately 72 percent of their 
property.
    The customer claims process is also up and running. Claim 
forms have been sent by mail, and forms are available on our 
website. Claims are being filed, reviewed, and as we meet here 
today, some claims have already been approved and allowed.
    As part of my statutorily mandated duty, I am also 
investigating the extent of and reasons for the apparent 
shortfall in customer funds. The investigation is ongoing. It 
is led by the Department of Justice, also with the CFTC, the 
SEC, and we are cooperating fully in their investigation.
    It is too early to make or draw definitive conclusions on 
many of the matters. At this time we do not know with certainty 
the extent of the potential segregation and compliance 
shortfalls, but I estimate the figure is not less than $1.2 
billion.
    For U.S. futures, foreign futures, and for securities 
customers, there are three categories of segregated assets at 
MF Global Inc. for the customers. First, for those with U.S. 
futures positions, which is primarily under the jurisdiction of 
the CME, but there are also U.S. clients with substantial 
foreign futures positions. There are also securities customers 
who had segregated funds. The full amount of the shortfall will 
not be known with certainty until the claims process is 
completed.
    I feel obligated to share these preliminary numbers and 
highlight the uncertainty that surrounds them. It is my hope 
that the shortfall number will come down.
    We have collected the available assets from depositories 
that appear to be on the books of the debtor. This is not 
simply a mathematical calculation, but is the actual control of 
dollars. We also have estimated the potential claims, and that 
is how we calculate the shortfall figure.
    No matter the final amount of the shortfall, it is an 
appalling situation. Its probable size is going to be 
significant, and this will substantially affect our ability to 
make a 100-percent distribution to former MF Global customers 
in the immediate term.
    Exhaustive efforts to collect funds from U.S. depositories 
continue. Assets located in foreign depositories for customers 
who traded in foreign futures are a more complicated matter. 
They are now under the control of foreign bankruptcy trustees 
or administrators. We will pursue these assets vigorously, but 
recovery may be more uncertain and may take more time.
    Thank you, Chairwoman Stabenow, Ranking Member Roberts, and 
other members of the Committee, for the opportunity to testify 
here today. You can be assured that amidst the unprecedented 
circumstances surrounding the failure of MF Global Inc., we are 
moving with speed and diligence to return customer property as 
quickly as possible in a fair and equitable manner that 
complies with the law.
    Thank you.
    [The prepared statement of Mr. Giddens can be found on page 
128 in the appendix.]
    Chairman Stabenow. Thank you very much.
    Mr. Duffy, welcome.

 STATEMENT OF TERRENCE A. DUFFY, EXECUTIVE CHAIRMAN, CME GROUP 
                    INC., CHICAGO, ILLINOIS

    Mr. Duffy. Thank you, Chairwoman Stabenow, Ranking Member 
Roberts, and members of the Committee. I am Terry Duffy, 
executive chairman of CME Group.
    Let me start by saying the actions of Mr. Corzine's firm, 
MF Global, put a lot of market users in a tragic position. At 
CME Group, our efforts with respect to the unprecedented loss 
of customer segregated funds caused by MF Global have been to 
assist these customers in minimizing market disruptions. My 
testimony summarizes efforts from our staff, who were on site 
at MF Global, along with the CFTC, in the days immediately 
preceding its bankruptcy. My written testimony expands on this 
introductory statement and includes substantial background 
material.
    By the middle of the week of October 24th, MF Global had 
announced poor earnings and was downgraded by several credit 
rating firms, sparking rumors that it would sell its brokerage 
business. CME was the designated self-regulatory organization 
for MF Global with responsibility for auditing its futures 
business. On Thursday, October 27th, two of our auditors went 
to MF Global's Chicago offices to review MF Global's daily 
segregation report for the close of business on Wednesday, 
October 26th.
    Wednesday's segregation report, which is not available 
until Thursday, showed full compliance. Our auditors asked for 
the material necessary to check the numbers on the report 
against the general ledger and third-party sources and began 
the process of tying out the numbers for Wednesday's report.
    That substantial review process of the Wednesday 
segregation report continued on Thursday and Friday. MF 
Global's segregation report for Thursday, October 27th, which 
was delivered to CME on Friday, the 28th, also stated that MF 
Global remained in full compliance with segregation 
requirements. In fact, it showed that the firm held $200 
million in excess segregated funds.
    On Sunday, the CFTC informed us that they were aware of a 
draft segregation report for the close of business for Friday, 
October 28th, which showed more than a $900 million shortfall 
in required segregation. CFTC and CME staff and auditors 
returned to the firm on Sunday, October 30th, and were informed 
by MF Global employees that this discrepancy was caused by ``an 
accounting error.'' Our auditors, working with the CFTC, 
devoted the rest of the day and night Sunday to find the so-
called accounting error. No such error was ever found. Instead, 
at about 2:00 a.m. Monday morning, October 31st, MF Global 
informed both the CFTC and CME at approximately the same time 
that the shortfall was real and that customer segregated funds 
had been transferred out of segregation to the firm's broker-
dealer accounts.
    After receiving this information, CME remained at MF Global 
while MF Global attempted to identify funds that could be 
transferred into segregation to reduce or eliminate the 
discrepancy. A CME auditor also participated in a phone call 
with senior MF Global employees wherein one employee indicated 
that Mr. Corzine knew about the loans that it made from the 
customer segregated accounts. CME Group has provided this 
information and the names of these individuals to the 
Department of Justice and the CFTC, who are investigating these 
matters.
    On Monday, October 31st, the day the SIPC trustee took 
over, MF Global revised its segregation report for Thursday, 
October 27th, indicating that the alleged $200 million in 
excess segregated funds should have been reported as a 
deficiency of $200 million. This shortfall in segregation on 
Thursday, October 27th, was hidden by the inaccurate report, a 
telling sign to keep regulators in the dark. It remains to be 
seen whether this failure to disclose permitted additional 
segregated funds to be improperly transferred.
    Throughout this time, the firm and its employees were under 
the direction and control of MF Global management. Transfers of 
customer funds effectuated by MF Global management for the 
benefit of MF Global constitute very serious violations of our 
rules and of CFTC regulations. We met our obligations to all 
other clearing firms and their customers.
    Also, at all times we held $1 billion in excess of the 
required amount of customer segregated funds on behalf of MF 
Global's customers. All of CME Group's efforts have been 
directed toward speeding customer access to their trading 
accounts, transferring their positions, and providing the 
trustee with a $550 million guarantee from CME Group to 
encourage him to quickly release customer funds that were 
securely held at CME Clearing.
    The federally mandated customer segregation program has 
been in place since 1936. In the time prior to the MF Global 
failure, no customer has ever lost its segregated funds because 
of the failure of a clearing member of the CME. Moving forward, 
we intend to work with the Congress, regulators, and industry 
leaders to strengthen customer safeguards at the firm level.
    I thank you very much for your time and attention, and I 
look forward to your questions.
    [The prepared statement of Mr. Duffy can be found on page 
123 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Let me start, Mr. Duffy, with your comments that you just 
indicated. You raised a serious allegation in your oral 
statement today regarding what Mr. Corzine may have known about 
customer accounts. You did not mention that in your written 
testimony, and you did not mention it in your testimony last 
week before the House Agriculture Committee.
    This leaves us wondering why you are sharing it now, what 
you think it means, and I trust that CME has, in fact, shared 
this information in a timely way with appropriate Federal 
officials. And I would urge again everyone to cooperate fully 
with the investigations that are going on because, of course, 
anyone who is engaged in wrongdoing must be held accountable. 
But would you want to respond further to that?
    Mr. Duffy. I would be happy to. Madam Chairwoman, I did not 
become--this information was not made available to me prior to 
my testimony last Thursday in the House. I received this 
information this past Saturday from an e-mail and a phone call 
from our lawyers, and they informed me of what they had found 
out in their investigations but did not share with me prior to 
the Thursday testimony.
    Chairwoman Stabenow. And do you have the names of the 
specific people involved in terms of--you were speaking of 
hearing--people referring to things that they heard, but do you 
have the specific names that you have given to the authorities?
    Mr. Duffy. The names of?
    Chairwoman Stabenow. Of those who were on the call and were 
involved in the conversation.
    Mr. Duffy. One of our folks from CME who is the one that 
reported this back to us was on a call, and you have to forgive 
me, I do not know this woman's name. If you do not mind, I will 
check with Legal.
    Chairwoman Stabenow. I just want to make sure that you are 
reporting specific names of people in the discussions.
    Mr. Duffy. Yes. There is a specific name, yes, ma'am.
    Chairwoman Stabenow. Okay. Mr. Duffy, in March of this year 
you testified before the Committee, pushing back on CFTC's 
effort to require more of exchanges and clearinghouses like CME 
when it comes to compliance and oversight. In fact, in March 
you said, ``There is no evidence that this will be beneficial 
to the public or the functioning of the markets.''
    I wonder if you still believe that is true.
    Mr. Duffy. I do not know what you are referring to, what 
issue it was, ma'am. There were many issues----
    Chairwoman Stabenow. Well, we were moving forward-- CFTC 
was moving--you pushed back on the CFTC moving away from 
principles-based regulation, and I wonder if you still hold 
that view today.
    Mr. Duffy. Principles-based regulation has worked 
flawlessly, ma'am, and we do believe, even in this instance, 
that segregation funds still worked. What happened here was 
somebody went in, violated the rules of the CME and violated 
the rules of the Government, and transferred out customer 
monies into the broker-dealer account. That has nothing to do 
with the principles-based regulation, I believe, of the firm or 
the segregation of the firm. Someone violated the rules, in my 
opinion.
    Chairwoman Stabenow. And so do you believe that CME has any 
responsibility as the front-line regulator----
    Mr. Duffy. If I did not think--what CME has done--and I was 
very much in favor of doing this--was to put up the guarantee 
of $550 million so that the trustee could then issue money much 
more quickly back to the ranchers and farmers. And if you would 
like, I would be happy to give you the notes of why I did that. 
I asked that specifically for the farmers and ranchers, not for 
Wall Street, not for hedge funds, or any other of our clients. 
I said the most important constituency here needs to be made--
to get the money back quickly to them, are the farmers and 
ranchers. That is why the board of the CME Group put forth the 
$550 million to guarantee Mr. Giddens so he can allocate his 
revenues.
    Chairwoman Stabenow. As we go forward and looking to the 
future, this kind of thing--we all want to make sure that this 
kind of thing does not happen again in the future. Do you think 
the right kinds of questions are being asked of the futures 
commission merchants? Are we getting enough information to keep 
markets safe in order to be able to trade? And are you planning 
on reviewing your oversight systems in light of the MF Global 
bankruptcy?
    Mr. Duffy. Obviously, anytime something of this magnitude 
happens, which has never happened before--and I think Senator 
Roberts has pointed that out many times throughout the day--you 
want to look at different things. We are obviously open, as I 
said in my oral statement, to working with Congress and 
industry participants to see if there are any changes that need 
to be made for this not to happen. But I do think it is 
important that--you know, there is $158 billion of customer 
segregated funds in the United States of America. This 
potential violation has never happened since this has been put 
into place since 1936. So I do not think that the system is 
broke. I think someone violated the rules, ma'am.
    Chairwoman Stabenow. Thank you. And now for a moment let me 
talk about customer money, which brings us all here and is our 
concern. I want to thank you, Mr. Giddens, for your efforts and 
your team's efforts and encourage you to continue to move as 
quickly as possible to make people whole.
    I am concerned that we are hearing that there may be a 
shortfall in customer money. Even with this latest 
distribution, we know that people will not be yet getting 100 
percent of their funds. And with that in mind, I think it is 
important to talk about what happens next. And so I would like 
each of you to answer a couple of questions.
    Do you agree that any value left in MF Global should first 
go to customers until they are made whole? And to put it 
another way, creditors and investors should not get a single 
penny until MF Global's customers have been paid in full. And I 
am wondering if each of you would agree with that. Commissioner 
Sommers?
    Ms. Sommers. Thank you, Chairman Stabenow. I think that it 
becomes a little complicated when you are talking about the 
bankruptcy of MF Global Holdings, the parent company. If we 
have evidence to show that there is customer money at the 
holding company level, then absolutely we will do everything we 
can to make sure that money comes back to customers and to the 
estate. We will be working closely with the trustee to make 
sure that happens.
    Chairwoman Stabenow. Okay. Mr. Giddens, would you respond 
to that?
    Mr. Giddens. Yes, I agree that both the Commodities 
Exchange Act and the Securities Investor Protection Act give a 
priority to customers, securities customers and commodities 
customers, respectively, and if there is a shortfall, there are 
provisions in both statutes which say that other assets ought 
to be reached to cover those shortfalls. That may be deemed by 
some to be something of a conflict, and the positions of the 
CFTC and the SEC may disagree. But both statutes, if there are 
shortfalls in customer property in either category, commodities 
or securities, give a preference and have a mechanism for a 
trustee to seek to recover for an estate assets which should 
have been in segregated funds.
    Chairwoman Stabenow. Mr. Duffy?
    Mr. Duffy. I am not a trustee nor a regulator, but I 
believe that there is SIPC insurance on the broker-dealer side. 
There is what we call ``segregated funds'' on the FCM side. I 
do believe that the FCM clients should be first in line in 
front of all other participants, including bond holders and 
everybody else.
    Chairwoman Stabenow. Thank you. Thank you very much.
    Senator Roberts?
    Senator Roberts. Well, thank you Madam Chairwoman.
    Mr. Duffy, we have spent a lot of time here today. We 
probably should have had you on first. You have sort of tossed 
a bomb here right in the middle of who we are trying to find 
out who is responsible, who has the responsibility, who has the 
authority. So senior MF Global employees told one of your 
auditors--you were about ready to give us the name of that 
auditor. Why don't you just supply that to the Committee, if 
you might? I think you were going to turn to one of your 
attorneys, and we will leave it at that, unless that 
jeopardizes any ongoing investigation. We will let you decide 
that with law enforcement.
    October 31st, Governor Corzine was well aware of loans that 
MF Global had made to other MF Global affiliates. Is that 
correct?
    Mr. Duffy. Sir, I am reporting back to you everything that 
I know that was told to me. I was not there, sir, but in our 
interviews with our employees, our employee told us that they 
were on a phone conversation with this particular person at MF 
Global that Mr. Corzine was aware of the loans that were being 
made.
    Senator Roberts. Did that employee indicate with MF Global 
affiliates the MF Global customer segregated account funds were 
transferred to?
    Mr. Duffy. Not to my knowledge; I do not know that. I 
believe what they were trying--if I recall the e-mail, it was 
something of a $175 million loan that was made to a European 
affiliate of MF Global, if I am understanding it correctly, if 
I remember correctly.
    Senator Roberts. Did they indicate when those loans were 
made?
    Mr. Duffy. I do not recall when they were made. I believe 
it was in the last couple days prior to bankruptcy.
    Senator Roberts. Did this individual indicate when Governor 
Corzine became aware of those loans, or did he order them to 
occur?
    Mr. Duffy. All I was told was that Mr. Corzine was aware of 
the loans that were made.
    Senator Roberts. Did you provide this information to the 
appropriate authorities? The answer, of course, to that is yes.
    Mr. Duffy. Yes, sir.
    Senator Roberts. Is there anything else about this 
conversation you believe important for this Committee to know?
    Mr. Duffy. No, sir. I was just asked to raise my right hand 
and tell the whole truth, so I am telling you what I know.
    Senator Roberts. I appreciate that.
    Commissioner Sommers, it is my understanding that CFTC can 
create advisory boards composed of industry officials. Is that 
correct?
    Ms. Sommers. Yes, Senator.
    Senator Roberts. Has the CFTC considered setting up an 
advisory committee like this to focus on what happened with MF 
Global and to help make recommendations to ensure it does not 
happen again?
    Ms. Sommers. We have had a number of different 
conversations of what an appropriate forum would be moving 
forward so that we can hear from industry participants and get 
their feedback on lessons learned.
    Senator Roberts. Has anybody stopped you or recommended 
otherwise?
    Ms. Sommers. No. I do not think we have had discussions 
that have taken it to the Chairman's level. It has just been 
internally with my office and industry participants.
    Senator Roberts. Well, he is not participating. Is that not 
correct?
    Ms. Sommers. That is correct.
    Senator Roberts. Well, I would strongly encourage you to 
set that up, and I encourage you to make that recommendation to 
the Commission and to pursue it. And since Chairman Gensler is 
not participating and has stated before the Committee last week 
he does not know exactly what happened with MF Global, those 
recommendations should be given to you as the lead investigator 
and that you and the other Commissioners should make a 
determination on whether or not those recommendations should be 
pursued.
    Let me say that--let me get organized here. Mr. Duffy, 
again, beginning on Monday, October 24, the day of the Moody's 
downgrade, you have said that CME began heightened scrutiny of 
MF Global. What does this entail, very briefly?
    Mr. Duffy. Well, we were in there----
    Senator Roberts. Mic.
    Mr. Duffy. Sorry, sir. We were in there to make certain 
that the segregated reports were accurate. As I said in my oral 
testimony, we were--they were on daily segregated reporting I 
believe since they were--since Refco, since Refco went away and 
MF Global took them over. So we were in there just making 
certain that the monies were tying out, as I said, and we had 
got about 85 or 90 percent done through Friday through the week 
on tying out the customer segregated funds.
    Senator Roberts. Commissioner Sommers, did the CFTC 
participate or assist in this more intensive review?
    Ms. Sommers. The CFTC staff went into MF Global mid-week--I 
think the 26th was a Wednesday--under the same sort of review 
to make sure that the daily segregated reports were accurate.
    Senator Roberts. Under the heading of what you were looking 
for, wasn't the primary purpose of your intensive review to 
make sure that the segregated customer accounts were not 
dissipated or otherwise misused?
    Ms. Sommers. That is correct. We----
    Senator Roberts. Mr. Duffy?
    Mr. Duffy. Yes, sir.
    Ms. Sommers. We received daily segregated reports from MF 
Global, but in the normal course of business do not tie those 
back to bank records. So that is what we were in the process of 
doing.
    Senator Roberts. Did you suspect that the customer funds 
might go missing?
    Ms. Sommers. No, sir.
    Senator Roberts. I understand that you were not in charge 
of MF Global's investigation at this time, but you have since 
learned whether or not the CFTC participated in this review or 
otherwise confirmed the CME's conclusion that all the customer 
money was safe at the close of business on Wednesday, October 
26th. Is that correct?
    Ms. Sommers. That is correct.
    Senator Roberts. It is my understanding Chairman Gensler 
would have been the lead at that time on all MF Global-related 
issues because he did not become non-participating until 8 days 
later. Is this correct, as to your understanding?
    Ms. Sommers. That is correct. I took over on November 9th.
    Senator Roberts. I see. I think I am down to 37 seconds, 
and we have the Senator to my right who is waiting patiently. 
So I may ask a couple more questions, Madam Chairwoman, but I 
think I will yield back at this time.
    Chairwoman Stabenow. Thank you very much.
    Let me talk for a little bit more about customer funds and 
ask each of you another issue that I think, as we look at going 
forward, we are going to be asking a lot of questions about 
additional authority from Congress in terms of putting customer 
funds first in processes.
    It is possible during the days, perhaps even the weeks and 
months, that led up to the firm's collapse that there were 
third parties who saw it coming, and perhaps they were well 
within their legal rights to do so. But if third parties held 
back money or assets to keep them out of a lengthy and 
uncertain bankruptcy proceeding, should the court be able to 
reclaim that money for MF Global customers? Commissioner 
Sommers?
    Ms. Sommers. I guess my understanding of the way that would 
work is if that money belonged to customers or belonged in the 
4d account, then absolutely that would be able to come back to 
the debtor's estate. I am not aware of money with third parties 
or aware of whether or not that was money that belonged in the 
4d account.
    Chairwoman Stabenow. Mr. Giddens?
    Mr. Giddens. We are looking at all the transfers for 
several months out of the firm, and if there is a legal basis 
for recovering that, we will make a demand, and we will also 
engage in litigation if we have a sound basis for that.
    We are in the process of collecting from counterparties of 
MF Global Inc. who principally closed out all open transactions 
after the bankruptcy for an accounting of whether they lost 
money or made money; and if they owe money to the estate, we 
will pursue that.
    There is nothing to indicate, unfortunately, the amounts, 
based on our analysis of the books and record, are going to be 
astronomical or anywhere nearly sufficient to make up the 
shortfall. But part of my duty as a trustee is to pursue causes 
of action to recover assets for customers, and we intend to do 
that.
    Chairwoman Stabenow. Thank you.
    Mr. Duffy?
    Mr. Duffy. I would have nothing more to add than what 
Commissioner Sommers already said.
    Chairwoman Stabenow. Okay. Thank you.
    Mr. Duffy, some have suggested that CME should make whole 
the customers of MF Global right now and take over the claims. 
Would you consider that kind of an idea?
    Mr. Duffy. As I said, we have put up money to encourage the 
trustee to pay back. I also said there was $158 billion of 
customer segregated funds in the United States. Nobody can 
guarantee $158 billion. You know, that is why there are rules 
on the books, and that is why we have disclaimers to make 
certain of what FCM you are going to do business with because 
there is a risk. So, again, Madam Chairwoman, that would be 
something that would be an extreme moral hazard for the CME to 
try to make up $158 billion of customer segregated monies.
    Chairwoman Stabenow. You mentioned earlier on the 
securities side that there is SIPC, there is an insurance 
system. And it is a little early, I think, probably to spend 
too much time--we are not sure where all the recommendations 
are going to go, but one question that we have been asked a 
number of times is: Should there be an insurance system like 
that is on the commodity side for commodities customers? Do you 
have any thoughts on that?
    Mr. Duffy. I think you are talking about trying to have an 
insurance system that would be in the hundreds of trillions of 
dollars of notional value to insure. The premiums would be so 
astronomical it would never meet the payout of what it could 
be. So I do not know that is something that would be 
beneficial. There may be something you want to look at and, 
again, preliminary at best, smaller farmers, ranchers, pure 
hedgers of the product, they may want to look at different 
types of accounts for them that could be managed differently. I 
do not know.
    Chairwoman Stabenow. Okay. Thank you.
    Commissioner Sommers, Chairman Gensler testified at our 
last hearing that the CFTC did not examine a single futures 
commission merchant, referencing the duty of the front-line 
regulators like the CME. Can you confirm that information? And 
should the Commission audit or examine every futures commission 
merchant? If we are to go down that path, does the CFTC have 
enough resources to do that? I think I probably know the answer 
to that one, but is that a path that the CFTC is looking at or 
would look at?
    Ms. Sommers. So currently the way it works, we have 
authority over the DSROs. The FCMs are registered with us, but 
the DSROs are the front-line auditors. We do periodic reviews 
of the DSROs and look at the reviews or the audits that the 
DSROs do of FCMs. So we may go in and do spot audit checks of 
FCMs that a DSRO has already reviewed to see what our own 
results would be of that type of audit to make sure that the 
DSRO is doing their job. If we find any inadequacy in the job 
that the DSRO has done, we make recommendations to them to 
improve their systems.
    Chairwoman Stabenow. After this investigation is done, are 
you open to recommending new authorities or tightening up 
current protections to prevent a similar situation from 
occurring again?
    Ms. Sommers. Absolutely. I think there is no doubt that 
after the investigation is concluded and we look back to know 
exactly what happened, there will be a number of lessons 
learned and a number of different recommendations that we can 
bring to you for your consideration.
    Chairwoman Stabenow. Is it true that if a firm invests 
customer money right now and the investments decrease in value, 
the firm is responsible for the loss, not the customer?
    Ms. Sommers. That is right. If the firm is investing under 
Regulation 1.25 and there is a loss in value of those 
instruments, the FCM has to make up the loss of customer money.
    Chairwoman Stabenow. Thank you very much.
    Senator Roberts?
    Senator Roberts. I beg the indulgence of my colleagues. CME 
has said in the last few days, Mr. Duffy, of MF Global it saw 
several transactions that ``did not follow a straight path.'' 
What did you mean by that?
    Mr. Duffy. I am not aware of that exact quote, ``did not 
follow a straight path.'' It may be in my written testimony, 
but I am assuming--no, it is not in my written testimony. I did 
not think it was. I do not recall hearing anything about 
following a straight path.
    Senator Roberts. I wonder where that came from.
    Mr. Duffy. The only thing I can say, sir, is I did say that 
they gave us a segregated report that showed $200 million to 
the good, and then they gave us the same segregated report 4 
days later, dated from the week before, that showed a $200 
million deficiency. So maybe that is where that language came 
from.
    Senator Roberts. Well, then you saw several transactions 
that followed a very rocky path.
    Mr. Duffy. Fair enough.
    Senator Roberts. On November 2 in a press release, you 
said, ``It now appears that the firm made subsequent transfers 
of customer segregated funds in a manner that may have been 
designated to avoid detection insofar as MF Global did not 
disclose or report such transfers to the CFTC or CME until 
early morning on Monday, October 31.'' How was this information 
disclosed to you by MF Global?
    Mr. Duffy. I will go back to what I said a moment ago, 
Senator. That press statement that we put out, a lot of it was 
based on the false segregated reports that we received and now 
we are aware of.
    Senator Roberts. What exactly did MF Global tell you?
    Mr. Duffy. I was not there, sir. Obviously, this was 2 
o'clock in the morning. I found out about it 8 o'clock the 
following morning. I was only told that they came to us and the 
CFTC saying, ``Stop looking for the so-called accounting error. 
There was $950 million transferred out of customer segregation 
to the broker-dealer account.'' That is what I was told from 
our--through our reports.
    Senator Roberts. Was this before or after the company had 
been placed into bankruptcy?
    Mr. Duffy. This was prior to. I think the company went into 
bankruptcy the following day--or actually it would have been 
the same day.
    Senator Roberts. Well, for the entire panel--I am sorry?
    Mr. Duffy. It would have been the same day because it 
happened in the middle of the night.
    Senator Roberts. It seems to me that to figure out where 
the money went, once you go back to the time when one knew for 
sure that the money was there, try to trace its path forward in 
time--it is time-consuming, it could be done. And that would 
take quite a number of people. I understand the Department of 
Justice is involved in the investigation, locating the money 
through the FBI and through the offices of two U.S. Attorneys. 
CME has its own auditors, of course, and the CFTC is directly 
involved.
    Mr. Giddens, as trustee you have got your own team. It 
seems to me there are a lot of cooks in the kitchen. Who is in 
charge of this posse that we have arranged here to find out the 
truth? Are there too many members of the posse that you have 
not been able to find the money? Or are you satisfied that you 
are all talking with one another and it is a pretty smooth 
operation?
    Mr. Giddens. I think it is a very cooperative operation. 
The potential law enforcement investigation is led by the 
Department of Justice and the U.S. Attorneys in New York and 
Chicago, and they are taking the lead on that.
    My principal investigation is really to look at the 
transfers and try to find potential sources of recoveries to 
bring back the monies for customers. I do not have a role in 
the law enforcement aspect of this. There are frequent 
meetings, and there is cooperation, full cooperation from us. 
No one is asserting privilege or withholding any kind of 
information. And I think it is working well with the CFTC.
    Now, the SEC also is interested in this because there were 
transfers and transactions relating to segregated securities 
accounts and the like. I think all of the independent 
regulators--I do not think bodies are stumbling over bodies or 
there are too many people to be there.
    I think in terms of a conclusion of what happened, it is a 
complicated analysis, and I think it is fair to say it is more 
than just looking at transactions in the last few days. I think 
it is looking, whether it is relevant or not, for transactions 
and transfers that went over several months and are really 
hundreds of thousands of reconstructions of things to do.
    As I indicate, there is no magic source of where the money 
is. There is no depository, there is no counterparty or anyone 
who is sitting with, you know, $600 million that we have 
identified. I do not think that is going to happen. I think we 
have collected the available assets, and we have already 
distributed nearly 80 percent of that with our--we have other 
constituencies. With the last transfer motion, there were more 
than 25 objections, including objections from the U.K. 
administrator, including from the creditors committee of the 
holding company who were opposed to our distribution on the 
grounds that we may be distributing assets which belong to 
other creditors or other parties.
    So as I say, I think the analysis of the business practices 
of the firm and whether they were solvent or insolvent is going 
to take some time. But I do not think it is going to magically 
come to a pot of gold at the end of the rainbow immediately.
    Senator Roberts. I appreciate your candor, and I think Mr. 
Duffy has something to add.
    Mr. Duffy. Senator, I just want to make it clear that the 
CME is obviously cooperating with the authorities, but also the 
CME has been instructed by both the CFTC and the Department of 
Justice not to conduct its own investigation. All the 
information I have given you is by interviews that we have 
conducted internally of our own employees. So I just want to 
make sure that was clear for the record.
    Senator Roberts. I appreciate that.
    I yield back, Madam Chairwoman.
    Chairwoman Stabenow. Thank you.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Madam Chairman. 
Thank you to all of you.
    Mr. Duffy, I was actually asking Mr. Corzine and MF Global 
witnesses about the statements that you had made and your 
understanding of what had happened. And in your testimony you 
give what I would consider the most detailed account I have 
heard to date as to when and how the customer funds were 
missing. From your testimony do I correctly understand that it 
is your belief that the customer funds were illegally 
transferred out of segregation on October 27th, Thursday, and 
Friday, October 28th?
    Mr. Duffy. We were told that the customer funds were 
transferred from the customer segregation to the broker-dealer, 
and those are not excess customer funds. That is a violation of 
the rules. So, yes, that is correct.
    Senator Klobuchar. And then this new information we got 
today, I just want to go over that. Was that one of those 
transfers or is that from another--this loan, $175 million loan 
to the European affiliate?
    Mr. Duffy. I am unaware of what it was other than what I 
was told over the weekend by our lawyers by an e-mail and a 
conversation afterwards that Mr. Corzine was aware, because our 
employee had heard this, talking to another--was on the phone 
with the European affiliate, and the European affiliate--they 
were telling them to send back the $175 million, and the woman 
said that Mr. Corzine is aware of these loans.
    Senator Klobuchar. And this was a woman at MF Global?
    Mr. Duffy. MF Global, yes.
    Senator Klobuchar. And who is this woman?
    Mr. Duffy. I do not have her exact name, and I do not want 
to----
    Senator Klobuchar. All right. And so----
    Mr. Duffy. I told Senator Roberts I will give it to the 
Committee afterwards.
    Senator Klobuchar. Okay. Very good. And so she told an 
auditor with CME about this?
    Mr. Duffy. Yes, the auditor of CME was in the room while 
she was on the phone.
    Senator Klobuchar. And it was a $175 million loan to what 
European affiliate?
    Mr. Duffy. I have no idea, ma'am.
    Senator Klobuchar. Okay. And then I know that Senator 
Roberts just asked you about that, but in your testimony, you 
said the transfer of segregated funds--this is a quote: ``The 
transfer of segregated funds out of the appropriate accounts 
was disguised from all regulators.'' And I actually engaged a 
little in the previous panel about disguising and what they are 
required to do with the disclosures and the repo disclosures 
and those kinds of things. Can you explain further why you 
chose to use the word ``disguised''?
    Mr. Duffy. Sure. Because as I said in my testimony and to 
Senator Roberts, we were tying out--which means that we were 
validating the segregated funds--from Wednesday's statement 
through Thursday and Friday; we had 80 to 90 percent of the 
tie-out done to show that segregated funds were basically 
intact. This is on Friday, but it is based off of Wednesday's 
report.
    Then they gave us another report. First, the report showed 
they had--their report showed $200 million in excess. And then 
they gave us another report 4 days later after bankruptcy with 
the same date prior that shows a $200 million deficit. So, 
clearly, they gave us two different reports from the same day 
with a $400 million swing, and we had tied out 80 to 90 percent 
of the funds being there on Friday from Wednesday's report.
    Senator Klobuchar. So this is a different issue then when I 
talked to him about the reporting to the SEC about where the 
funds went. This is during this weekend that you are talking 
about.
    Mr. Duffy. Yes. I am talking about this work was being done 
on Thursday or Friday off of Wednesday's report, and then the 
report that they gave us was revised on Monday.
    Senator Klobuchar. Okay. Mr. Duffy, in your testimony you 
stated that, according to the information you have, you believe 
that there might be a shortfall in segregated funds of between 
13 percent and 19 percent. Has that changed at all or is it 
more defined?
    Mr. Duffy. Well, I do not know about the percent. I am 
going off dollars, so I know.
    Senator Klobuchar. Yes, I wondered where that rested with 
the $1.2 billion figure that Mr. Giddens and his team----
    Mr. Duffy. We are estimating a shortfall of between $700 
million and $900 million.
    Senator Klobuchar. Okay. So that is less----
    Mr. Duffy. So that is, you know, $550 million is 10 cents, 
so you can do the math from there.
    Senator Klobuchar. Okay. Mr. Giddens, for this difference, 
what is this difference about between what Mr. Duffy----
    Mr. Giddens. There are three segregated funds. I think Mr. 
Duffy is referring only to the U.S. futures when he gives his 
figure of up to $900 million. I am also referring to the 
segregated accounts with foreign futures and also segregated 
securities accounts.
    Mr. Duffy. For the record, ma'am, I am referring to U.S.
    Senator Klobuchar. Got it. And then, Mr. Giddens, I know 
this was incredibly complicated and I guess there was some poor 
maintenance of the records in the last few days. Are you 
confident that at the end of the day you are going to be able 
to account for all the transactions in and out of segregation 
from start to finish?
    Mr. Giddens. Well, that is what we are trying to do over a 
several-month period, and I have very good folks working for me 
from Deloitte and Ernst & Young who are trying to reconstruct 
this.
    Senator Klobuchar. And so what I understood from reading 
your previous testimony, something like 72 percent of the money 
will go back to people like Mr. Tofteland for sure that are 
victims of this colossal collapse here.
    Mr. Giddens. Yes. The Commodity Exchange Act requires me to 
give the same pro rata distribution to every customer, and 
after this distribution, each customer should have received 72 
percent of the value in their account.
    Senator Klobuchar. All right. And how about above that? 
Under what circumstances could customers who had their funds in 
segregated accounts not be made whole?
    Mr. Giddens. If we continue to have a shortfall in total 
assets. It is my intention to make further distributions 
through the claims process as promptly as possible, and it 
depends on the total recovery of assets that we have. If we 
have only the assets we have at present, there will be a 
shortfall. And it is my goal or aspiration through litigation 
or otherwise, if possible, to make up that shortfall.
    Senator Klobuchar. With the clawback or finding some ways 
to find this money?
    Mr. Giddens. Yes.
    Senator Klobuchar. Okay. And so what do you see as the 
timetable now? You have got that distribution of the 72 
percent, and you have determined what the shortfall is. So what 
should we tell our farmers?
    Mr. Giddens. Well, the time for filing claims expires on 
January 31st, and by that time we should have a picture of all 
the claims. We have just an estimate.
    For example, a U.K. administrator had an account with MF 
Global U.S. of several hundred million dollars in an omnibus 
account. We have not distributed anything on that.
    There are also other subsidiaries around the world. There 
are also other potential creditors. And until the claims 
process is completed, we will not know with assurance what the 
claims are. But we have and we are very grateful for the CME 
guarantee because that has given us some assurance that we 
could proceed with fairly substantial distributions without 
knowing in reality what our total assets are and what the total 
claims will be allowed.
    Our intention is to do that as quickly as possible and to 
make further distributions as quickly as it appears comfortable 
to us, to the CFTC, and, of course, eventually we have to 
persuade the bankruptcy court to approve these transfers in the 
interest of all the parties in the bankruptcy.
    Senator Klobuchar. Thank you very much, and I know I have 
talked with you, Commissioner Sommers, before, and if we have 
any more questions, especially about that timetable, we will 
follow up in writing. I appreciate it.
    Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Boozman?
    Senator Boozman. Thank you, Madam Chair.
    Mr. Duffy, did you get a chance to hear the testimony of 
Governor Corzine and his associates?
    Mr. Duffy. I did.
    Senator Boozman. Was the testimony that you heard 
consistent with the facts that you have uncovered in your 
investigation?
    Mr. Duffy. I am not a lawyer, sir. The only thing I can 
tell you is we were told by MF Global that they transferred 
money from customer segregated accounts to the broker-dealer, 
stop looking for the accounting error.
    I can also only tell you that one of our employees was on a 
call with one of their employees when they said Mr. Corzine was 
aware of the loans being made from segregated accounts.
    Senator Boozman. Okay. Very good.
    Ms. Sommers, again, it is remarkable. You mentioned Lehman 
Brothers and things like this. Is this unique, this sort of 
thing happening, certainly to this extent? But is it unique in 
itself
    Ms. Sommers. Yes, it is, sir, for the customer funds to be 
missing.
    Senator Boozman. Okay. You mentioned customers. How do we 
differentiate between what is and what is not customer dollars?
    Mr. Duffy. The customer funds on the FCM side would be put 
in a 4d segregated account, and those accounts would be tagged 
as 4d segregated accounts.
    Senator Boozman. And the money that they discovered 
outside?
    Ms. Sommers. There could be money in a lot of other 
accounts outside of 4d. There could be house proprietary 
accounts, broker-dealer accounts, the foreign future accounts, 
which we take at 30.7 accounts.
    Senator Boozman. Okay. Very good.
    Mr. Giddens, the $550 million guarantee, is that money--is 
it going to be used to make customers whole if we cannot find 
the shortfall?
    Mr. Giddens. That is not the nature of the guarantee. The 
guarantee, which we are grateful for, is not a sum of money or 
an additional sum of money. If we make the mistake and it turns 
out at the end of the day the proper pro rate distribution is 
75 percent and we have given out 80 percent to somebody or to 
others, the money could be used to cover that deficiency. So 
Mr. Duffy may----
    Mr. Duffy. That is not quite correct either. What is 
correct is CME has said to the trustee, Pay up to 75 cents for 
every dollar, and if you end up only having 60 cents or 65 
cents, we will make up to 10 cents. So we do not go above the 
75-cent number, as Mr. Giddens was referring to. Maybe we are 
saying the same thing in a different way.
    Mr. Giddens. I think we are.
    Mr. Duffy. But it is basically CME--if he pays up to 75 
cents, finds out he does not have 75 cents, has 70, then we pay 
$250 million to him. If he has 65, we pay another $250 million 
to him. If he has 60, he is on his own after that.
    Senator Boozman. I see. Okay. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you.
    Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman.
    I would like to start with Mr. Duffy. Would you feel that 
it is fair to say that either customer money was moved from 
segregated accounts to the company accounts for use by the 
company or there is an accounting error here or we are going to 
find the dollars? Would you say it is fair that one of those 
three scenarios needs to--either is the case or will be the 
case?
    Mr. Duffy. I do not know if I could say that because I can 
only tell you what I have been told, sir. We were told--not me 
personally, but our staff was told there is no accounting 
error. So I have to take that off the table. I was told there 
was money moved from customer segregated funds to the broker-
dealer account. That is what we were told.
    Senator Hoeven. You indicated $200 million?
    Mr. Duffy. No, sir; $950 million was moved out of customer 
segregated accounts to the broker-dealer. What I was referring 
to on the $200 million was a customer segregation report from 
the week prior that showed them having excess of customer 
monies, $200 million of their own monies in the segregated 
pool. And then that was revised down to be a $200 million 
deficit a week later or 5 days later.
    Senator Hoeven. So your auditors indicated that the dollars 
were transferred from the customer segregated accounts to the 
firm's accounts?
    Mr. Duffy. No, sir. Our auditors were told by MF Global 
that is what MF Global did, to stop looking for the accounting 
error.
    Senator Hoeven. What authority did they have to make those 
transfers?
    Mr. Duffy. I do not know if they were the ones that made 
the transfers or not, sir. All I am telling you is they told 
our auditors stop looking for an accounting error, they moved 
the money out of segregation.
    Senator Hoeven. And that was on what date?
    Mr. Duffy. October 31st, 2:00 a.m. in the morning.
    Senator Hoeven. So would it be your expectation that the 
investigation led by the DOJ in tandem with your help, the 
CFTC, the SEC, the trustee and everyone involved here, that 
they would then be able to determine the amount that was 
transferred, when it was transferred, who authorized the 
transfers?
    Mr. Duffy. We have given them pretty much all the 
information we had, sir. We were not part of the investigation. 
We have been asked not to be by both the CFTC and the 
Department of Justice.
    Senator Hoeven. Based on your earlier testimony, you felt 
that this was not a system failure but, rather, that somebody 
violated the system.
    Mr. Duffy. There is somewhere between $700 million and $1.2 
billion, to Mr. Giddens' recollection. It is literally 6 or 7 
weeks later. The money is not there yet. So the money appears 
to be missing.
    Senator Hoeven. Commissioner Sommers, would you give me 
your thoughts on the same issue, system failure versus somebody 
violating the rules, and then also your sense of how soon we 
will be able, through the investigative process, to determine 
what happened, who is accountable?
    Ms. Sommers. The first part of the question: I think it is 
a little bit premature for us to make determinations about 
whether the system failed until we know exactly what happened. 
After we have a chance to go over all the facts and 
circumstances of the case, obviously we can decide whether or 
not there were any parts of the system that failed in this 
instance.
    The second part of your question, how long it may take to 
follow the trail, just to assure the Committee that we will 
follow, you know, every single lead in this investigation, both 
the law enforcement side of the investigation as well as 
tracing where every penny of the money went, but it is 
complicated. And while you may know that a certain amount of 
money could have been transferred out of the FCM at one time, 
that money being transferred could have splintered into 
thousands of different accounts after it was transferred out of 
the FCM. And we have to trace to make sure which of those 
transfers were legitimate versus illegitimate transfers.
    If a customer on the FCM side had money that they asked to 
be transferred to the broker-dealer, that would be a legitimate 
transfer, and we would have to follow any supporting 
documentation that is with MF Global to know which of those 
transfers are legitimate versus illegitimate. So while we have 
a very good idea at this point about what had happened, it is 
painstakingly difficult and complex to follow every single 
transfer of this money.
    So, you know, we are working closely with the trustee and 
the forensic accountants to make sure we get every single 
detail unveiled.
    Senator Hoeven. Mr. Duffy?
    Mr. Duffy. You know, Senator, maybe I did not answer your 
question properly, but I believe I am the only one in two 
hearings now that is giving a timeline of sequence of events 
that we know. I do not believe it is a system failure only 
because of the timeline we have walked through.
    Then when the question was asked today to the earlier 
panel--I think Senator Boozman asked me a question, was I 
paying attention to the other panel. When the Senator from 
Minnesota asked was my statement correct that they were told 
that monies were transferred out of customer segregated into 
the broker-dealer account, nobody refuted that of the three 
participants that I saw.
    So we are the only ones that have shown a timeline. I do 
not believe there is a system failure here. So maybe I did not 
answer your question properly. I think something--I think there 
was a violation of the rules. Again, I am not a judge, jury, or 
lawyer. I am just telling you we gave a chronological order of 
events here, sir, to show that it is not a system failure.
    Senator Hoeven. I understand you are saying that you do not 
feel it was a system failure, which I think means that either 
transfers were made inappropriately or there is an accounting 
error. But you indicated that you were told it was not an 
anything error, that transfers were made.
    Mr. Duffy. That is exactly what I said, sir.
    Senator Hoeven. Mr. Duffy, in terms of the ability to 
recover--because some of the earlier testimony was, well, this 
may be an accounting error. And certainly there should be 
controls in place so you do not have this type of accounting 
error, which is, you know, properly part of the system. But 
whether it is accounting error or whether there were 
unauthorized transfers, Mr. Giddens, will that affect, in your 
opinion, the ability to get full recovery for the customers of 
MF Global?
    Mr. Giddens. If it were simply an accounting error, then 
presumably it could be corrected and you would have the funds. 
We are basing our analysis on what actual dollars are there 
against estimated claims, and there is a substantial shortfall. 
I should say while the technical investigation by the 
Department of Justice will be thorough, and by the regulators, 
it may take months, that is not going to deter us if we see a 
source of funds that we think should come back into the estate 
from pursuing that. In fact, we have already made demands of 
counterparties who closed out transactions for accountings 
into--and, in fact, we have recovered some small amount of 
money.
    So what I am saying is we will be proactive immediately, 
and even though the investigation in its formal sense may take 
many months before anybody can unravel the thousands if not 
hundreds of thousands of transactions--and we will be doing all 
we can as the members of this Committee have encouraged us to 
do to pursue dollars to make people whole--I am certain that 
the distribution will be more ultimately than 72 cents. How 
much I cannot really say at this point.
    Chairwoman Stabenow. I think that is a good place to end--
yes?
    Senator Hoeven. I do have a follow-up question. I can wait 
or--but I would like to have a follow-up question.
    Chairwoman Stabenow. We do have--we are needing to bring 
the hearing to a close. I wonder if you might either do that 
quickly or put it in writing.
    Senator Hoeven. Just one more to follow up.
    Chairman Stabenow. Very quickly.
    Senator Hoeven. For Mr. Giddens, $1.2 billion is the 
shortfall. You anticipate--just take me through the math real 
quick so that we can communicate with folks who are out the 
money. The Senator from Minnesota talked with you about the 
timeline, but just take me through the number, the $1.2 
billion, you anticipate 72 percent recovery. How much of that 
is paid out? When do you expect more payout? And then are we 
talking about the difference of roughly $300 million is what 
you anticipate the shortfall to be at this point?
    Mr. Giddens. No, Senator. We will have distributed $4.2 
billion. The bankruptcy court entered the order on Monday, and 
with the CME and with the CFTC, we have put in place a 
mechanism to start making distributions, and actually the first 
distribution should go out tomorrow. That process will take, 
estimated with the CME, 2 to 4 weeks before all of the money is 
out.
    When that is completed, that distribution should give every 
person 72 percent of their claim. If their claim were for $1 
million, they should get $720,000. The shortfall, the $1.2 
billion, is an estimate, and that is based on what we see as 
estimated claims against three segregated pots: one for 
securities customers; one for the U.S. folks who transacted in 
foreign futures, such as on the London Metals Exchange; and 
then the largest pot of that, which is under the CME 
jurisdiction, are U.S. futures. The combination of those three 
pots of assets, what we actually have and what we have 
collected, is what leads us to the approximate $1.2 billion.
    Senator Hoeven. Thank you.
    Chairwoman Stabenow. Thank you very much, and we thank all 
of you for coming today. This has been a very, very important 
hearing, and we have received answers. Also, I have more 
questions. And so as I indicated in my opening statement, we 
have three goals as we continue to look into this situation: 
getting the customers' money back, and, Mr. Giddens, we are 
counting on you to stay laser-focused on that, as I am 
confident that you will; holding anyone accountable for any 
wrongdoing; and ensuring that proper customer protections are 
in place to make sure this does not happen again.
    I will just reiterate that any policy changes will come 
through this Committee, and we will continue to examine the 
collapse of MF Global. And we have heard today from customers 
who are very worried about using the futures markets, and that 
is, frankly, not acceptable. It is the duty of our Committee 
and all of you and the regulators to ensure that the markets 
are safe and sound and that there is, in fact, confidence in 
the system. And so we look forward to working with you to make 
sure that happens.
    Thank you very much. The meeting is adjourned.
    [Whereupon, at 5:03 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           DECEMBER 17, 2011




=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


                         QUESTIONS AND ANSWERS

                           DECEMBER 17, 2011


=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
